<html>
<title> - U.S.-MEXICAN BORDER VIOLENCE</title>
<body><pre>[Senate Hearing 111-89]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 111-89
 
                      U.S.-MEXICAN BORDER VIOLENCE 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-293 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 










                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  










                            C O N T E N T S

                              ----------                              
                                                                   Page

Arabit, Joseph M., Special Agent in Charge, El Paso Division, 
  Drug Enforcement Agency, U.S. Department of Justice, El Paso, 
  TX.............................................................    19
    Joint prepared statement with William McMahon................    21
Babbitt, Harriet, former Ambassador, Organization of American 
  States, Washington, DC.........................................    44
    Prepared statement...........................................    46
Barrasso, Hon. John, U.S. Senator from Wyoming...................     8
    El Paso Times article ``Hopes Rise as Violence Recedes''.....    11
Campbell, Dr. Howard, professor of anthropology, University of 
  Texas, El Paso, TX.............................................    51
    Prepared statement...........................................    53
Carriles, Ricardo Garcia, former police chief of Ciudad Juarez, 
  El Paso, TX....................................................    49
Esparza, Jaime, district attorney, Thirty-Fourth Judicial 
  District, El Paso, Culbertson and Hudspeth Counties, TX........    13
    Prepared statement...........................................    15
Kerry, Hon. John F. Kerry, U.S. Senator from Massachusetts, 
  opening statement..............................................     4
McMahon, William, Deputy Assistant Director, Bureau of Alcohol, 
  Tobacco, Firearms and Explosives, U.S. Department of Justice, 
  Washington, DC.................................................    17
    Joint prepared statement with Joseph M. Arabit...............    21
Reyes, Hon. Silvestre, U.S. Representative from Texas............     1
    Prepared statement...........................................     2
Wicker, Hon. Roger F., U.S. Senator from Mississippi.............    10

              Additional Material Submitted for the Record

Lugar, Richard G., U.S. Senator from Indiana, prepared statement.    65
Letter in Support of Ratification of CIFTA.......................    66
D. Rick Van Schoik, director, and Erik Lee, associate director, 
  North American Center for Transborder Studies at Arizona State 
  University, Tempe, AZ, prepared statement and attachments......    68
    Executive summary of ``A Report to President Obama on 
      Building Sustainable Security and Competitiveness''........    70
    Cross Talk II: Building Common Security in North America--
      Draft Findings.............................................    71
    North America's Forgotten Agenda: Getting Development Back on 
      Track......................................................    74

                                 (iii)

  


                      U.S.-MEXICAN BORDER VIOLENCE

                              ----------                              


                         MONDAY, MARCH 30, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    El Paso, Texas.
    The committee met, pursuant to notice, at 8:07 a.m., in the 
Tomas Rivera Conference Center, University of Texas-El Paso, 
Union Building East, 3rd floor, 500 West University Avenue, El 
Paso, TX, Hon. John F. Kerry (chairman of the committee) 
presiding.
    Present: Senators Kerry, Barrasso, and Wicker.
    Also present: Congressman Silvestre Reyes.
    The Chairman. This hearing will come to order, although you 
are all very orderly, I must say.
    It is a pleasure to be here, and without further statement, 
I will reserve my comments. Let me introduce your great 
Congressman Silvestre Reyes. Thank you, Congressman, for having 
us here.
    [Applause.]

  STATEMENT OF HON. SILVESTRE REYES, U.S. REPRESENTATIVE FROM 
                             TEXAS

    Mr. Reyes. Thank you, Mr. Chairman. It is a great honor to 
welcome you and members of your distinguished committee here to 
El Paso, although we did pick the windy season to come here. 
Both Senator Wicker and Senator Barrasso commented to me that 
the ride, landing in, was a little bumpy.
    The University of Texas at El Paso is a mainstay for our 
community, and the president, Dr. Diana Natalicio, sends her 
apologies. She is on the west coast at an important academic 
conference and was unable to join us. But her great staff has 
done a marvelous job working with my office to put this hearing 
together.
    And I think this will be a very informative hearing. The 
hope that we all have is that being here, you will get an 
opportunity to listen to individuals from our area, from our 
region, from our community that can give you firsthand 
testimony about the situation here in El Paso and El Paso-
Juarez.
    One of the ironies that we live with every day is that we 
in El Paso live in the third safest city in the Nation, and 
right across from us is Ciudad Juarez, which arguably has been 
called one of the most dangerous places in the world. And for 
us, the criminal activity, the violence has not spilled over 
the border, but that does not mean it has not affected us. Most 
of us feel like we are part of one community, the El Paso-
Juarez area. We have close friendships and family ties. We 
share a common border, breathe the same air, drink the same 
water. And prior to the violence escalating, it was not unusual 
for people from El Paso to cross over to Juarez and shop and 
eat at their fine restaurants and, in general, visit families 
and friends. So that has affected us in that manner.
    I was honored to lead a delegation last week to Mexico City 
that included the chairman of the Armed Services Committee, the 
chairman of the International Relations, your counterpart, 
Howard Berman, and Ike Skelton from the Armed Services 
Committee, to meet with President Calderon. The Speaker, 
Speaker Nancy Pelosi, sent us to get an assessment of where we 
are with the Merida Initiative and also find out how we could 
help even more. And I am hopeful that after you have this field 
hearing, we can work together to find ways to help Mexico and 
President Calderon even more than we are currently with the 
Merida Initiative.
    The Speaker also wanted to send a very public message that 
President Calderon has a tremendous amount of support from the 
U.S. Congress, and I think you being here at this field hearing 
is an important statement of that support. So for us, it is a 
great honor to have you here. We appreciate the fact that you 
accepted the invitation to be here in El Paso and actually get 
a chance to get firsthand testimony from individuals that can 
testify to the committee about the impact that President 
Calderon's fight against the cartels and criminal gangs has had 
on our extended community.
    So with that, again, welcome, Mr. Chairman and members of 
your distinguished committee, and we look forward to an 
informative hearing here this morning.
    [The prepared statement of Congressman Reyes follows:]

 Prepared Statement of Hon. Silvestre Reyes, U.S. Representative From 
                                 Texas

    Thank you, Mr. Chairman, it is a great honor to welcome you and the 
members of this distinguished committee to El Paso.
    I want to express my appreciation to Chairman Kerry for moving 
forward with this field hearing. There was a question of whether this 
hearing could proceed here in El Paso due to an initial scheduling 
conflict in the Senate, but Chairman Kerry felt it was critical to 
bring the members of this committee to the border region, and I 
appreciate his willingness to come to El Paso despite this scheduling 
challenge.
    I also want to thank UTEP President Dr. Diana Natalicio and her 
exceptional staff for all their help in hosting this event and making 
this hearing possible. This is a wonderful opportunity for the students 
of this great university to get a firsthand look at an official 
proceeding of the United States Congress.
    Mr. Chairman and members of the committee, the people of this 
community are neighbors to the brutal drug cartel violence that has 
claimed nearly 2,000 lives in Ciudad Juarez, a city that is only yards 
away from this institution. Our two cities make up one community--one 
with a common history and a shared destiny. The leaders of El Paso and 
Juarez have long known that we must work cooperatively if we are to 
realistically address the problems that impact the people on both sides 
of the border.
    Last week, I led a congressional delegation to meet with President 
Felipe Calderon. Speaker Nancy Pelosi sent me, as the House 
Intelligence Committee Chairman, along with House Armed Services 
Chairman Ike Skelton and House Foreign Affairs Committee Chairman 
Howard Berman, Chairman Kerry's counterpart in the House of 
Representatives, to assess the effectiveness of the Merida Initiative 
and explore opportunities to further cooperation with Mexico. A 
delegation of three committee chairmen is rare, and it underscores 
Speaker Pelosi's commitment to assist the Mexican Government in its 
effort to strengthen the rule of law and restore stability in Mexico.
    In a courageous effort to dismantle Mexico's drug cartels, 
President Calderon has dispatched about 45,000 soldiers to date to 
conflict areas throughout the country and under his leadership Mexico 
is taking unprecedented steps to enhance its democratic institutions 
and to root out corruption. President Calderon has committed over $6.4 
billion in resources to combat Mexico's drug cartels, and America must 
step up its efforts to help him and the people of Mexico in this fight.
    According to the National Drug Intelligence Center, Mexican and 
Columbian drug trafficking organizations bring in an estimated $8-$25 
billion in annual profits from the drug trade. Drug cartels can afford 
to purchase guns, armor, and other weaponry that rival those of the 
Mexican military.
    As the largest consumer of illicit drugs and the largest supplier 
of weapons to Mexico's drug cartels, we must do more to address this 
very serious national security threat. Providing only $1.4 billion 
through the Merida Initiative for America's third-largest trading 
partner and second-largest market for U.S. exports is simply not 
enough, particularly when considering our country has spent over $650 
billion to date in Iraq.
    Over the course of the last few months, there has been a lot of 
media coverage about Mexico's violence. Unfortunately, some have 
generalized the violence as occurring on the border, when in actuality 
the violence is occurring in Mexico. The problem is serious enough 
without being misrepresented by some in the media who sensationalize 
the situation. The vast majority of Mexico's drug-related killings have 
been limited to cartel-on-cartel violence.
    It is important to make clear that the violence has not spilled 
over into our community, as many in the media would have you believe. 
For years El Paso has ranked among the safest cities in the entire 
country. The men and women of our local law enforcement have done an 
exceptional job of keeping our community safe. While nearly 2,000 
people have been killed in drug-related violence in Juarez since 
January 2008, according to the El Paso Police Department, not a single 
homicide related to Mexico's drug cartels has occurred in El Paso 
during this same time. For the last 4 years in a row, there have been 
less than 19 homicides annually and since 1995, there has never been 
more than one unsolved homicide in a given year.
    Furthermore, the El Paso Regional Economic Development Corporation 
(REDCo) has not seen a decline in investment from manufacturing and 
distribution companies in Juarez due to the violence. In fact, the 
organization is currently working with over 40 companies that are 
interested in expanding or relocating to Juarez, because the 
fundamentals which make it an attractive place in which to invest have 
not been eliminated by the violence. These factors include globally 
competitive operating costs, proximity to the U.S., and skilled labor.
    Our city's low crime rate does not mean that the violence in Mexico 
has not impacted our community. Although we are among the safest cities 
in the U.S., we share an extensive border with the most violent city in 
all of North America. Many people who used to travel regularly to 
Juarez to visit loved ones, shop in a Juarez market, or dine at a 
restaurant are now simply too afraid to journey over the international 
bridges. Some victims of drug-related violence in Mexico have been 
transported to El Paso for emergency medical treatment. And with the 
large volume of drug-related cases in the border region, our local 
prosecutors assume many criminal cases for the Federal Government.
    It is imperative that we continue to adequately fund programs like 
the Southwest Border Prosecutors Initiative, Section 1011 of the 
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, 
and Disproportionate Share Hospitals (DSH) funding. All of these 
initiatives are necessary to help ease the burden that border 
communities shoulder.
    With over 26 years in the United States Border Patrol, I can tell 
you that the problems I dealt with as Chief are the same as today--we 
need more manpower, more resources, and better infrastructure to keep 
America's border secure. The United States has not done enough to stop 
the flow of weapons and money smuggled from our country into Mexico. 
Our failure to cut these illicit exports is helping supply the drug 
cartels with the weapons and resources necessary to carry out their 
ruthless acts of violence.
    By manpower I do not mean U.S. soldiers or the National Guard. Our 
local and Federal law enforcement officers are fully capable of keeping 
us safe. What we do need are more Customs and Border Protection (CBP) 
inspectors. For the past few years, the United States has increased the 
number of Border Patrol agents to patrol the space between our ports of 
entry. It is now time to increase the number of CBP inspectors to 
address the staffing needs at our ports of entry.
    We have inadequate staffing, facilities, and resources to 
effectively process the volume of traffic coming through the border and 
only minimal southbound inspection procedures to detect weapons and 
money that are illegally transported to Mexico. A comprehensive 
southbound strategy must be a part of our efforts to help Mexico reduce 
the violence.
    In closing, I believe that our commitment to Mexico and to ending 
this violence and bloodshed must continue by: Passing an expanded 
Merida Initiative; strengthening efforts on the U.S. side to curtail 
the illegal transfer of weapons and money from the U.S. to Mexico; and 
increasing investment in the modernization and renovation of our land 
ports of entry.
    I would like to once again thank Chairman Kerry and the 
distinguished members of the Senate Committee on Foreign Relations for 
coming to El Paso to hear from the people who live in this community. 
The violence across the border merits increased cooperation and 
communication with Mexico. It also requires a firm commitment on our 
part to share the responsibility for this grave situation and to 
continue moving forward with strategic and comprehensive policies that 
aim to strengthen our bilateral relationship.

    The Chairman. Well, thank you very much, Congressman. It is 
an honor to be here with you, and we are deeply appreciative 
for your help and for the reception here in El Paso. And I 
thank you also for your concerns and leadership on this issue.

  OPENING STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    The Chairman. The formal proceedings of the committee 
itself will begin now, and I will make an opening statement and 
then Senator Barrasso, who is serving as ranking member here 
today, will make an opening statement on behalf of himself and 
Senator Lugar. And then we will go right to our witnesses.
    I want to thank President Natalicio and her assistant, 
Estrella Escobar, and all of those who have been involved at 
UTEP for their help and for all of the hospitality extended to 
us. We are very appreciative, and I thank the Congressman and 
his office for their help and coordination.
    So why is the United States Senate Foreign Relations 
Committee here in El Paso today? Because this is an issue of 
global proportions and because it is an issue that involves our 
relationships abroad, not just with Mexico, but through Central 
America and Latin America, all the way to South Asia. 
Afghanistan as we know, where we have deep interests today, is 
providing perhaps 90 percent of the poppy that goes into the 
heroin trafficking on a global basis. So this is an issue 
between governments, between peoples, and it is an issue of 
enormous consequence because of the billions and billions of 
dollars spent, because of the law enforcement energies that are 
expended and, of course, because of the spillover of violence 
and crime into communities everywhere.
    Let me say to you that I come to this issue with a fairly 
significant background in this area. In the 1970s, I was the 
chief prosecutor and administrator for one of the 10 largest 
district attorney's offices in the United States. I was on the 
front lines of law enforcement. I started a drug task force 
back in the 1970s.
    In the 1980s, I was chairman of the Narcotics and Terrorism 
Subcommittee when I came to the Senate and I remained there 
into the 1990s. And we did a tremendous amount of work looking 
at the linkages between the Contras, as they were called, and 
the flow of narcotics and illicit bank accounts and the ways in 
which those bank accounts were linked to terrorism. In fact, 
during one of our investigations where we found Gen. Manuel 
Noriega's bank accounts linked to drug trafficking in a now 
infamous bank called BCCI. We also found the name of a fellow 
by the name of Osama bin Laden. People back then did not, 
obviously, know who he was in the context of today.
    But narcotics trafficking fuels insurgencies. Narcotics 
trafficking fuels terrorism. It is a vital concern for all law-
abiding citizens and nations that are founded on the law to 
make certain that we understand the importance of dealing with 
it.
    Frankly, I will tell you, even as a law enforcement person 
once involved in it, I have often said that we have never as a 
nation made the full commitment necessary to properly deal with 
this issue. We have our own culpability in having talked about 
it on political levels, but never having done all the things 
necessary in education, in treatment, or in enforcement. And 
many people can look at the borders and understand the debates 
we have had with respect to those kinds of issues.
    So we are here today in 2009, once again, struggling to 
find the right policy and the right way forward. Our being here 
in El Paso underscores the commitment of this committee and the 
Senate to working with Mexican authorities to end the violence 
that is endangering our valued neighbor to the south. We look 
forward to two panels of expert witnesses who will help us 
understand the problem and what the possible solutions from the 
ground level on both sides of the border.
    I think all of us, it is safe to say, have been deeply 
shocked by the brutal attacks occurring just a stone's throw 
across the Rio Grande from where we are sitting this morning. 
Policemen, soldiers, and innocent bystanders are being killed 
by drug cartels armed with high-powered weapons, the vast 
majority of which appear to be smuggled in from the United 
States.
    Before we dig deeper into the issue of those weapons, let 
me say that I am troubled by the suggestion from some quarters 
that Mexico is in imminent danger of becoming a failed state. 
We have to be very careful about the kind of rhetoric that is 
used not just because it is simply untrue, but because it makes 
cooperation much more difficult. Mexico is a functioning 
democracy with a vibrant and open economy and stable 
institutions and civil society. I commend President Felipe 
Calderon for his courage and determination in challenging the 
cartels. You might say it would be failed if they did not 
challenge it and if it was a narcostate. But that fight is in 
full-throat, and he deserves great credit.
    I met with him in Washington when he was there a number of 
weeks ago. We had a long discussion about this. There is no 
question in my mind about the determination of President 
Calderon and his government to challenge the cartels. He and 
the Mexican people need to know that we stand behind them in 
this fight, and we have not, and we will not, write them off.
    Our response should be made in the kind of partnership that 
we build with Mexicans. The idea of dispatching the National 
Guard has been put on the table. Many believe it is premature 
and possibly even counterproductive.
    Make no mistake. Right now, Mexico's institutions are under 
stress from the rising level of violence. And the fallout from 
the warring cartels is visible just across the border in 
Juarez, as our witnesses will describe in detail later.
    Beyond those vital concerns, Americans are worried that the 
cartels will turn our cities and neighborhoods into the next 
front in the war. Drug trafficking and the ruthless violence 
that it spawns knows no borders, as we have learned.
    So far, the United States has been largely spared, but it 
is in our national interest and it is our solemn obligation to 
take steps today to help curtail the killing in Mexico.
    Americans, we have to remember--and this is not to point 
fingers of blame, folks. This is just how we have to talk about 
and think about this kind of an issue. If you are not willing 
to deal with facts, then you cannot come up with good 
solutions. And the fact is that Americans are enormous 
consumers of the drugs that pass through Mexico. As long as 
there is demand, the trade will produce the billions of dollars 
that fuel the cartels that corrupt public officials in Mexico 
and buy the guns killing those who get in
their way. It is our responsibility to try to do our best to 
curb that addiction.
    And let me just say, remembering the 1980s and Nancy Reagan 
and Ronald Reagan's efforts in Washington, I will tell you that 
there was more public effort, more public education, and more 
public awareness creation during her Just Say No Program than I 
can remember at any time in recent years. So we need to think 
carefully about what works and does not.
    We have another responsibility. The vast majority of 
weapons used by the cartels, as they fight each other over drug 
smuggling routes and as they target army and police officers, 
come from the United States. And they are horrific weapons, 
folks. In Juarez and other battleground cities, the thugs are 
not armed with Saturday night specials. The cartels maintain 
well-trained paramilitary hit squads that are often better 
equipped than the police. Their encrypted communications gear 
is state of the art, and they have mobilized up to 80 vehicles 
in simultaneous strikes against multiple targets.
    Let me give you an example. A year ago, there was a 
shootout in Chihuahua City, about 3 hours' drive south of here. 
A squad of Mexican soldiers cornered a hit team from the Juarez 
cartel that was hiding in a safe house. The gun battle lasted 
3\1/2\ hours. An army captain was killed and so were six hit 
men.
    When the army entered the house, they found the six dead 
hit men wearing level 4 body armor. This is designed to stop a 
high-powered rifle round and it is a restricted export under 
U.S. law.
    The killers were armed with M-16 style assault rifles with 
laser sights. They had hand grenades and tear gas canisters. 
They also had a .50-caliber Barrett sniper rifle, the weapon 
used by the U.S. Army snipers. This super rifle, fires a 5-
inch-long cartridge that is accurate up to 1,500 meters and it 
can cut a body in half. And yes, the safe house was set up for 
a siege. There were IV bottles and other first-aid material.
    The Mexican Army called in the Bureau of Alcohol, Tobacco, 
and Firearms to trace the weapons. The trail led to two gun 
sellers in the United States who have since been arrested.
    Unfortunately, this is a common story. Ninety percent of 
the weapons seized from the cartels and traced by our ATF 
originated in the United States.
    What is less common, however, is the cooperation that 
occurred in this case. Only about one out of every four weapons 
seized by Mexican authorities last year was actually submitted 
to the ATF so they could be traced back to purchasers and 
sellers in the United States. The Mexican Government should 
provide the ATF with fuller access to these weapons.
    Cooperation is also a two-way street. We in the United 
States need to work harder to enforce existing gun laws against 
exporting weapons across international borders. We should 
revive the ban on importing assault rifles into the United 
States. It was allowed to expire in 2004, resulting in a flood 
of cheap assault rifles, and many of them find their way to 
Mexico.
    Stopping the guns also requires a strong United States-
Mexico partnership. Just a few miles from here, as all of you 
who live here know, is the Bridge of the Americas, one of the 
busiest border crossings in the country. Drivers coming north 
from Mexico are stopped by United States agents and subjected 
to a thorough examination for drugs and other contraband.
    But it does not happen to southbound traffic. We do not 
have the barriers and booths in place to stop vehicles headed 
into Mexico. Four lanes of traffic from the U.S. Highway 54 
speed over the border. An agent who gets intelligence about a 
car carrying contraband would risk life and limb stepping into 
traffic to stop the suspect vehicle.
    On the Mexican side of the bridge, traffic zooms past the 
checkpoint. Only rarely are vehicles stopped and inspected. 
When the Mexican authorities conduct a special check, the 
resulting traffic backup sends a signal and alerts smugglers 
and they use a convenient turnaround a couple of hundred yards 
before the border. Structural changes, obviously, need to be 
made, as well as conceptual ones.
    We are getting the message. That is one of the important 
things we want people to know. We are getting the message. Last 
week, the Obama administration announced it will send more 
resources to the border, more DEA and ATF agents and mobile x-
ray equipment to check for weapons going south. That is not 
going to solve the problem overnight and more is needed. I hope 
these steps encourage the Mexican Government to step up its 
interdiction efforts.
    The drug trade recognizes no border, as I said, and neither 
should law enforcement. We need to build trust in both 
countries and eliminate the barriers between them. We have 
improved intelligence sharing immensely, but we need to do more 
to develop a combined front against the traffickers and their 
networks. This means making sure that law enforcement 
intelligence is combined with information picked up from 
license plate readers and other surveillance systems in the 
United States and passed quickly and effectively to the proper 
authorities in both countries, and that those authorities then 
respond quickly.
    Finally, the U.S. Senate should ratify the Inter-American 
Convention against Illicit Trafficking in Weapons and 
Explosives. We were one of the first countries to sign the 
convention in 1997, and one of the negotiators will be here to 
testify on our second panel this morning. But sadly, we are 
among the few countries--few countries--that have not ratified 
the convention. It does not contradict any American gun laws. I 
am a gunowner, and I am a hunter, and I respect and believe in 
the second amendment. This does not contradict any gun law. But 
ratification would send an important message about our 
commitment to fight the weapons trafficking that is fueling the 
violence in Mexico.
    We often hear politicians fall back on the mantra ``we must 
fight them over there so we don't have to fight them here.'' 
Well, when it comes to the drug cartels in Mexico, folks, this 
happens to be undeniably true. We have to help our neighbors 
reclaim their streets because it is the right thing to do and 
also because we will keep ours safer in the process.
    Senator Barrasso.

   STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Mr. Chairman. 
Thank you for holding these hearings today. I want to thank all 
of the people who have come out today. That shows a tremendous 
interest.
    Thank you to the University of Texas-El Paso for the 
wonderful hospitality. It is terrific to be here.
    And also a big thank you goes out to Senator Cornyn of 
Texas and his staff who have helped significantly with the trip 
that I have taken for the last 2 days. Without their on-the-
ground contacts and knowledge, this trip would not have been 
the same.
    I want to give special thanks to the Texas National Guard. 
Drew Dougherty is here from the Guard today. I had a chance to 
fly a border patrol last night with them, using the advanced 
technology that they have with the forward-looking infrared 
ways to identify and detect people who are coming across the 
border, carrying loads.
    I also want to thank Sheriff Arvin West who hosted me 
yesterday. We went down to Hudspeth County, went to the border, 
to a number of places where you can see just how easy it is to 
get across the border, where the fence is in various phases of 
construction, where there are a number of walkways along the 
river, which is not very deep and not very wide and very easy 
access across the border. So I am very grateful to Sheriff West 
and to other sheriffs from the area who were very helpful.
    And as you said, Senator Kerry, you talked about the 
northbound traffic and the long lines of cars waiting to come 
across, and then the southbound traffic just kind of whizzing 
south. And I witnessed firsthand what you had just referenced, 
and it is also something that the people in this room see every 
day.
    Wyoming, my home State, is not a border State, but what I 
saw yesterday is very reminiscent of my State in terms of the 
topography. And in Wyoming, we have very long roads. We have 
very small towns. We have vast lands that are owned by the 
Federal Government. We have low-density population. And what I 
saw yesterday, the open space along the southern border, is 
optimal to facilitate the movement of drugs and the movement of 
humans to the north. The lack of border enforcement on the 
Mexican side allows for the movement of firearms and drug cash 
back to the cartels.
    A few weeks ago, National Public Radio was on the border 
and they reported that drivers headed south toward the border 
pass a welcome sign and then another sign warning both in 
English and in Spanish, no firearms or ammunition. The National 
Public Radio reported that the custom inspectors, talking on 
the cell phones, wave the cars through and no questions and no 
inspection. And as you said, when they do stop, the traffic 
backs up and those trying to move illegally across the border 
to the south see that and do a turnaround and go to another 
location.
    The lack of border enforcement on the Mexican side allows 
for the movement of firearms and drug money back to the 
cartels, and the problems that Mexico and the United States 
face may seem simple to them, but it is not simple to all of us 
who are trying to find the proper solutions. We are dealing 
with a sophisticated drug trafficking organization that adapts 
quickly to law enforcement methods and capabilities, and they 
change their techniques and tactics quickly.
    We are faced with a transnational criminal network and 
multiple networks that produce, transport, and market illegal 
drugs. The network operations in Venezuela, Colombia, and 
Ecuador are moving the products and the violence toward the 
north. We must destroy the networks, and in order for our 
countries to destroy these criminal networks, we need a short-
term plan, a mid-term plan, and a long-term plan.
    The short-term plan and solution is to beef up our border 
sheriffs' capacity to collect and share intelligence and boost 
their equipment capacity, even with unmanned aerial vehicles. 
Our border sheriffs are the ones on the front line dealing with 
the illegal border crossings and cartel-connected gang activity 
in the United States.
    The mid-term solution involves putting the Merida 
Initiative to work. The initiative is not just about money. It 
is, more importantly, about providing the equipment and the 
training needed to deter and eventually defeat the cartels.
    The long-term solution involves reforming the Mexican 
judicial system and curbing the United States appetite for 
illegal drugs. Mexico's justice system must send the message to 
those who work for the cartels that the quick buck will put 
them in prison for a long time. In the United States, we need 
to deal with our addiction to drugs and cut the market off for 
the cartels.
    The violence along the United States-Mexican border is a 
serious security challenge and it is one we cannot simply 
ignore. We may have different problems on each side of the 
border, but our goal is to destroy the cartel networks and that 
is a mutual goal.
    Some have suggested that we need to ban semiautomatic 
assault weapons to help curb the violence. I oppose this 
suggestion. Why would you disarm someone when they potentially 
could get caught in the cross-fire? The United States will not 
surrender our second amendment rights for Mexico's border 
problems. More gun control in the United States will not solve 
the United States-Mexico border violence problem. It will take 
trust, resources, and leadership to defeat the cartels.
    President Calderon has not looked the other way. He has 
bravely taken the cartels head on. His bold move ought to have 
the United States full support. Our strategic and economic 
partnership is too important. While everyone recognizes the 
safety and security issues surrounding the drug war in Mexico 
or along our border, the economic implications of this fight 
are just as significant. Mexico is the United States second 
largest export market after Canada and it is our third largest 
trading partner overall. Two-way trade with Mexico in 2008 
totaled almost a billion a day. Mexico represents our third 
largest supplier of crude oil behind only Canada and Saudi 
Arabia, over a million barrels a day.
    It is absolutely critical that we recognize that this is 
not merely a drug crisis, but it could easily become an 
economic crisis as well. At a time when our economy is 
struggling, we cannot afford to allow the situation in Mexico 
to further destabilize. Our friends in Mexico must realize--and 
I visited with three members, just last week, of the Mexican 
Senate, and I expressed to them that we stand willing to help. 
This is not a problem we can solve without intensive 
cooperation on both sides of the border. As a nation, we must 
realize what is at stake.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Barrasso.
    Since there are only three of us here, I am going to let 
Senator Wicker also make an opening statement. We do not 
normally do that, but I think it is appropriate here.

     STATEMENT OF HON. ROGER F. WICKER, U.S. SENATOR FROM 
                          MISSISSIPPI

    Senator Wicker. Well, thank you, Senator Kerry. Yes, there 
was a chance that with three members getting to talk and one 
not getting to say a word, I might have gone into withdrawal or 
something. [Laughter.]
    Would it be appropriate at this point to submit Senator 
Lugar's statement for the record? He asked that it be included.
    The Chairman. Absolutely. Without objection, Senator 
Lugar's full statement will be put in the record.
    Senator Wicker. And I know he would like to have been here.
    Thank you, Senator Kerry, my friend and colleague, for 
scheduling this field hearing and for inviting the rest of us 
to come and attend. It really means a lot.
    Thank you to my longtime colleague, Silvestre Reyes, for 
his gracious hospitality and for sticking this pin on me. I am 
not quite sure what I have agreed to, but he insisted.
    The Chairman. You are a major donor to the university.
    Senator Wicker. It is very likely, Mr. Chairman, that the 
Congress is a major donor to this university, and not only 
that, to Fort Bliss, which we saw in the dark last night when 
we landed, which I acknowledge is a great beneficiary of the 
recent BRAC round and for which we have great and high hopes 
and hope to get another quick look today on the way out.
    Thank you, everyone at the University of Texas-El Paso, for 
what you have done to accommodate us in this regard.
    The Merida Initiative was adopted in 2007. It was funded by 
the U.S. Congress in 2008. In our discussions with staff last 
night, Senator Kerry and I learned that some of the funds 
appropriated in 2008 are only now finding their way out to the 
field. I would make the point that this program is relatively 
new, and one of the things we want to find out at this hearing 
is how the program is doing and whether it is succeeding as it 
is and whether we need to do anything else at all.
    Thank you, Mr. Chairman, for your words of praise and 
partnership with President Calderon and the Government of 
Mexico. Indeed, there is a lot I do not know, but I do know 
that Mexico is nowhere near being a failed state. Our friend to 
the south and the leadership are to be commended for engaging 
in this effort.
    There are national elections for the Mexican Congress that 
will be scheduled later this year. It is an open process. We do 
not know who will win. The Presidential election was an open 
process with three major party candidates. And Mexico is far 
from a failed state, and I think we need to emphasize that to 
the extent that there is some feeling to the contrary in the 
United States.
    Mr. Chairman, I want to ask that we include in the record 
today a front-page article in the El Paso Times written by 
Ramon Barcamontes entitled ``Hopes Rise as Violence Recedes.'' 
Might we enter that into the record.
    The Chairman. Absolutely, without objection.
    [The article mentioned above follows:]

                [From the El Paso Times, March 30, 2009]

                 Hopes Rise As Juarez Violence Recedes

                         (By Ramon Bracamontes)

    JUAREZ.--From a bar stool inside the historic Kentucky Club on the 
Juarez strip, Raul Martinez Soto sees, feels and analyzes the effects 
of the drug war on his business, on Juarez, on El Paso and on U.S.-
Mexico relations.
    Though Soto, one of the managers of the club that opened in 1920 on 
Avenida Juarez, will not be testifying Monday in El Paso before a U.S. 
Senate committee, he knows exactly what he would say to the senators if 
he got the chance.
    ``Things are improving here on a daily basis, and thanks for the 
help,'' Soto said. ``Business is improving as tourists are slowly 
coming back. All of the initiatives by the officials are working. There 
is hope now that things will get back to normal.''
    The U.S. Senate Foreign Relations Committee is having a public 
hearing in El Paso titled ``U.S.-Mexico Border Violence.'' Sen. John 
Kerry, D-Mass., the chairman of the committee, will preside over the 
hearing that will include several other U.S. senators and Rep. 
Silvestre Reyes, D-Texas.
    The hearing, which is open to the public, is at 8 a.m. today in the 
Tomas Rivera Conference Center on the University of Texas at El Paso 
campus.
    Kerry and his committee are key in U.S. foreign assistance 
legislation, including the Merida Initiative which will provide Mexico 
with $1.4 billion for its fight against the drug cartels. Kerry's 
committee spokesman, Frederick Jones, said this hearing in El Paso will 
help the senators get to talk to the people who have seen the violence 
in Mexico up close.
    Since January 2008, Juarez and Mexico have been marred by a drug 
cartel war that has killed more than 6,000 people throughout Mexico. 
The violence has taken the lives of elected officials, police officers 
and lawyers, and has touched just about every major city in Mexico.
    Juarez is among the deadliest. In 14 months, 2,000 people have been 
killed. Most were executed or ambushed in broad daylight on busy 
streets. Hitmen often left notes naming who was next.
    The chaotic environment in Juarez prompted city, state and federal 
officials to station more than 8,000 soldiers and federal police 
officers in Juarez. The Juarez police department is now being directed 
by retired military officials, and military vehicles with mounted 
machine guns patrol the city all day and night.
    On Avenida Juarez, which is the heart of the city's tourist 
district, armed soldiers and federal police are permanently stationed. 
Anyone walking from El Paso into Mexico is reviewed by armed soldiers. 
Anyone driving from Juarez to El Paso must pass a military checkpoint 
before being allowed onto the Paso del Norte International Bridge.
    The huge military presence is something that has never been seen 
before in Juarez. But, it appears to be working.
    ``The presence of the military and the federal police is having a 
calming effect,'' said Tony Payan, a UTEP political science professor 
who specializes in Latin American studies. ``Not only is the organized 
crime down, but so are the petty and opportunistic crimes that were 
taking place before.''
    Since March 1 when the new soldiers arrived, the number of daily 
homicides has dropped. Where there were seven to 10 killings a day 
before, now there are one or two, and some of those are stabbings or 
bar fights, not ambushes ordered by drug traffickers. Last week, the 
city went three days without a reported murder--something that didn't 
happen at all in 2008.
    ``The soldiers treat you nice once they know who you are, where you 
work and what you are doing,'' said Isela Solis Mares, a Juarez native. 
``I cross the bridge at night just about every day and they know me by 
now. They have made it safer to walk back home.''
    Juarez is not the only border city where the violence seems to have 
ebbed.
    Luna County Sheriff Raymond Cobos said that in the past couple of 
months the violence in Palomas, Mexico, which is just across the border 
from Columbus, N.M., has tempered. Columbus is about 100 miles west of 
El Paso and sits on the U.S.-Mexico border in Luna County, south of 
Deming.
    ``The Mexican authorities, by whatever means they used, have 
established effective control in Palomas,'' Cobos said. ``Is there 
still violence in Palomas? Yes, but we don't see the bullets flying and 
bodies dropping anymore.''
    ``What hasn't stopped is the drug smuggling,'' he said. ``They are 
still trying to cross drugs every day through the desert, on backpacks. 
That is still keeping everyone over here busy.''
    U.S. Sen. Jeff Bingaman, D-N.M., said he is glad to see that other 
U.S. senators are now getting to see what life along the U.S.-Mexico 
border is like.
    ``Those of us representing border states have seen the violence 
along the border escalate and over the years have pushed for increased 
funding and resources to help address the problem,'' Bingaman said. ``I 
am glad Washington is now giving it the attention it deserves and is 
making it a priority.''
    Bingaman recently helped secure $15 million in funding that will be 
used to disrupt illegal arms trafficking from the United States into 
Mexico.
    Texas' two Republican U.S. senators, John Cornyn and Kay Bailey 
Hutchison, also said they have made securing the border a priority.
    ``More must be done, including additional Border Patrol agents and 
equipment, to ensure that we can fight the drug cartels and do away 
with the human trafficking and violence along our border,'' Hutchison 
said.
    Among those scheduled to testify before the senators is El Paso 
District Attorney Jaime Esparza.
    ``While the violence in Mexico is bad and tragic, the violence 
remains a cartel to cartel issue, and a cartel versus the Mexican 
government fight,'' he said. ``The violence has not spilled over in El 
Paso and Texas.''
    But we do need to be realistic and see that nothing is happening on 
this side.
    In El Paso in 2006 there were 17 homicides. In 2007 and 2008, there 
were 20 homicides each year. And so far in 2009 there has been only one 
homicide in El Paso.
    ``There are a lot of people who are not from the border saying the 
violence has spilled over,'' Esparza said. ``There are thousands being 
killed in Mexico, but not in El Paso. We need to be realistic and see 
that nothing is happening on this side.''

    Senator Wicker. Mr. Barcamontes quotes a resident of Juarez 
named Raul Martinez Soto as saying this. ``Things are improving 
here on a daily basis and thanks for the help, Soto said. 
Business is improving as tourists are slowly coming back. All 
of the initiatives by the officials are working. There is hope 
now that things will get back to normal.''
    Well, if that is true, then the military and the American 
and Mexican officials who have been involved so far are to be 
commended, and to that, I say hurrah.
    This is a fact-finding hearing. We come here with our own 
philosophies and we do not check them at the door, but I hope 
we do not come here with preconceived notions as to what the 
solution actually should be. That is why we are having the 
hearing. Those who have a preconceived notion that we need to 
put the National Guard at the border may come away from the 
hearing saying that is what we need. Those who would like to 
expand our gun control laws in the United States might see an 
opportunity in this crisis for more gun control. Those who 
advocate a change in our immigration policy, either in one way 
or the other--the completion of the border fence--might see 
this drug violence crisis as an opportunity to advance that 
preconceived agenda.
    I am interested in learning whether the ratification of the 
CIFTA treaty, a treaty to which we are already a signatory, but 
not a ratifying partner, would do any good at all in this 
regard. Of course, people who would advocate for changes in the 
criminal drug laws in the United States may see this as an 
opportunity to advance their preconceived agenda.
    I will simply say this. I am here to listen. I do not know 
what the facts are. I am looking to our distinguished panels 
for suggestions, and I hope to come away from this hearing 
better able to take a message back to the U.S. Congress about 
what, if anything, in addition we might need to do to address 
this situation.
    And thank you, Mr. Chairman, for your indulgence.
    The Chairman. Thank you very much, Senator Wicker. We 
appreciate that.
    Our first panel is Mr. Joseph Arabit, who is the DEA 
special agent in charge here in El Paso; Mr. William McMahon, 
the Deputy Assistant Director of the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives based in Washington; and Mr. 
Jaime Esparza, district attorney of the 34th Judicial District 
in El Paso County. So thank you, each of you gentlemen, for 
appearing before us today.
    We want to try to maximize the time for some dialogue and 
questions, so we would request you keep your prepared comments 
to about 7 minutes. And your full statements will be placed in 
the record, as if stated in full.
    And I would like to ask you, Mr. Esparza, if you would go 
first.

 STATEMENT OF JAIME ESPARZA, DISTRICT ATTORNEY, THIRTY-FOURTH 
 JUDICIAL DISTRICT, EL PASO, CULBERTSON AND HUDSPETH COUNTIES, 
                               TX

    Mr. Esparza. Good morning. Senator Kerry, members of the 
Senate Foreign Relations Committee, Congressman Reyes, it is a 
privilege and an honor to be here to address the distinguished 
panel on a very important topic that is of concern not just to 
border cities throughout Texas, but to our country as well.
    I have been the district attorney for the 34th Judicial 
District for 16 years. My jurisdiction includes El Paso, 
Hudspeth, and Culbertson Counties.
    Juarez, Chihuahua, Mexico, has long been referred to as our 
sister city. Five international bridges connect us to our 
neighbors to the south. Daily, approximately 24,000 
pedestrians, 44,000 privately owned vehicles, and 2,200 trucks 
cross into El Paso from Juarez.
    Unfortunately, drug violence is not new to the city of 
Juarez. Drug-related killings have occurred for years, but the 
violence has increased. In 2008, the violence increased to 
levels never seen before and alarmed not just the citizens of 
Juarez, but also the citizens of El Paso.
    The recent response by the Mexican Government to send 
military troops to the state of Chihuahua has had an enormous 
impact in decreasing the violence in the city.
    Of course, given our proximity of our two countries and the 
level of violence in Juarez, there was bound to be concern 
about the possibility that some of that violence would spill 
over into our streets. Fortunately, none of that has occurred. 
Yet, speculation about spillover violence persists and at times 
is exaggerated.
    In spite of the disturbing events in Juarez, much like our 
other United States cities along the Texas-Mexico border and 
elsewhere, El Paso has not experienced spillover violence. For 
example, in 2007, there were 17 murders in El Paso, and in 
2008, there were 18 murders in El Paso. In Washington, DC, in 
2007, there were 181 murders, and in 2008, there were 186. El 
Paso is safe, and I attribute that to the excellent work of the 
combined efforts of local, State, and Federal law enforcement 
agencies.
    I believe that these law enforcement agencies send a strong 
signal to the cartel members that their conduct will not be 
tolerated in this country. I also believe that these cartels 
dare not risk spilling their violence into our streets and 
thereby risk arrest and prosecution in our country.
    In spite of these encouraging statistics, however, it is 
imperative that we remain alert and vigilant. The fact that we 
have thus far been unaffected by these events south of us does 
not mean that we should become complacent. We should respect 
Mexico's sovereignty and work with Mexico to resolve this 
problem which is of mutual interest to both our countries. The 
reality is that the Juarez area is one of the fastest growing 
areas in Mexico, both in population and in economic growth. In 
2008, trade between El Paso and Juarez exceeded $51 billion.
    We should also assume our responsibility in the war on 
drugs and recognize that without a consumer market, the profits 
of the cartels would suffer considerably.
    Contrary to news reports, I do not believe that Mexico is 
teetering on becoming a failed state. Mexico is a strong 
democratic country determined to defeat the drug cartels that 
plague its states.
    As the district attorney of a border city, I am faced with 
the additional problem of fugitives fleeing into Mexico to 
avoid prosecutions for crimes they have committed in our 
country. With the cooperation of the Mexican Attorney General's 
Office, which has an office here in El Paso, we not only pursue 
fugitives through the formal extradition process with the 
assistance of the Department of Justice, Office of 
International Affairs, we also request Mexico arrest and 
prosecute the fugitives found in their country pursuant to 
article 4 of the Mexican Federal Penal Code.
    As a result of this excellent relationship with Mexico, and 
in the mutual interests of our two countries in capturing and 
prosecuting fugitives, my office, in collaboration with the 
Mexican Attorney General's Office has published a manual 
entitled ``Extraditions from Mexico and Article 4 Prosecution: 
A Manual for Prosecutors and Law Enforcement.'' This book sets 
out procedures for filing extradition and article 4 
prosecutions that have been adopted and endorsed by the Mexican 
Government.
    The task of locating and arresting fugitives in Mexico 
could not occur without this type of cooperation from Mexico. 
And in spite of the problems in the country, Mexican officials 
have continued to support our efforts in extraditing fugitives. 
For example, on March 25, 2009, a man who had committed a 1992 
homicide in El Paso was finally located and arrested in the 
State of Guanajuato, Mexico, by the Mexican Federal 
authorities. We expect that he will be extradited in less than 
a year.
    In conclusion, I would reiterate that while no violence has 
spilled over into the streets of El Paso from Juarez, we should 
remain vigilant and alert. In the end, Mexico will continue to 
be our neighbor to the south with whom we share not just family 
and culture, but also trade and business interests.
    Thank you.
    [The prepared statement of Mr. Esparza follows:]

  Prepared Statement of Jaime Esparza, District Attorney, El Paso, TX

    Senator Kerry, members of the Senate Foreign Relations Committee, 
Congressman Reyes, it is a privilege and honor to be here and address 
this distinguished panel on a very important topic that is of concern 
not just to border cities throughout Texas but to our country as well.
    My name is Jaime Esparza. I have been the District Attorney for the 
34th Judicial District of Texas for 16 years. My jurisdiction includes 
El Paso County, Hudspeth County and Culberson County.
    Juarez, Chihuahua, Mexico, has long been referred to as ``our 
sister city,'' Five international bridges connect us to our neighbors 
in the south. the daily northbound crossings on these bridges are as 
follows: Privately owned vehicles, 44,481; trucks, 2,293; and 
pedestrians, 23,878. Drug violence is not new to the city of Juarez. 
Drug-related killings have occurred for years. But as violence 
increased in 2008 to levels never seen before and the streets became a 
war zone it alarmed not just the citizens of Juarez but the citizens of 
El Paso as well. The recent response by the Mexican Government to send 
military troops to the state of Chihuahua has had an enormous impact in 
decreasing the violence in the city. Although the homicide rate was 
over 1,600 by the end of 2008, the current presence of over 7,000 
troops in Juarez has virtually stopped the daily multiple killings that 
had occurred in 2008.
    Of course, given the proximity of our two countries and the level 
of violence in Juarez, there was bound to be concern about the 
possibility that some of that violence would spill over into our 
streets. Fortunately, none of that has occurred. Yet, speculation about 
spillover violence persists and is at times exaggerated, in some 
instances, to benefit other agendas.
    We should focus on the real issues that have resulted from this 
situation and not speculate on what might or might not occur. In spite 
of the disturbing events in Juarez, much like other U.S. cities along 
the Texas-Mexico border and elsewhere, El Paso has not experienced 
spillover violence. For example, the crime rate in our city and in 
other Texas cities did not fluctuate in accordance with what was 
happening in Mexico. The statistics below attest to this fact.

------------------------------------------------------------------------
                                              Population
                                                 2008      2007    2008
------------------------------------------------------------------------
Murder:
  El Paso...................................     755,157      17      18
  Laredo....................................     250,144      10      11
  Brownville................................     401,862       5       3
  McAllen...................................     749,265       6       9
  Austin....................................   1,568,653      31      23
  Washington, DC............................     591,833     181     186
Robbery:
  El Paso...................................                 472     473
  Laredo....................................                 325     311
  Brownville................................                 207     173
  McAllen...................................                 114     135
  Austin....................................               1,543   1,403
  Washington, DC............................               4,261   4,343
Aggravated Assault:
  El Paso...................................               1,827   2,666
  Laredo....................................                 865     956
  Brownville................................                 647     431
  McAllen...................................                 225     209
  Austin....................................               1,795   1,953
  Washington, DC............................               3,686    2835
------------------------------------------------------------------------

    Our city is safe, and I attribute that to the excellent work of the 
combined efforts of our law enforcement agencies, including the El Paso 
Police Department, the El Paso Sheriff's Office, the work of ATP, DEA, 
ICE, the FBI, the U.S. Marshal Service, the West Texas Region of the 
Southwest Border High Intensity Drug Areas Program (HIDTA) and, of 
course, the work of EPIC.
    I believe that the combined efforts of these law enforcement 
agencies send a strong signal to cartel members that their conduct will 
not be tolerated in the country. I also believe that these cartels dare 
not risk spilling their violence into our streets and thereby risk 
arrest and prosecution in our country.
    In spite of these encouraging statistics, however, it is imperative 
that we remain alert and vigilant. The fact that we have thus far been 
unaffected by the events south of us does not mean that we should 
become complacent. We should respect Mexico's sovereignty and work with 
Mexico to solve this problem which is of mutual interest to both our 
countries. the reality is that the Juarez area is one of the fastest 
growing areas in Mexico both in population and economic growth. In 
2008, trade between El Paso and Juarez exceeded $51 billion. The trade 
between Mexico and Texas reached the amount of $211 billion, which 
accounts for 76 percent of the trade between Mexico and the United 
States. Nevertheless, preventive measures must continue in order to 
address the violence problems in Mexico. Our law enforcement agencies 
must continue to closely monitor events with Mexico and meet with their 
counterparts when possible. We should also assume our responsibility in 
the war on drugs and recognize that without a consumers market the 
profits of the cartels would suffer considerably. To this end we should 
increase our drug treatment programs. We should recognize that by 
treating addiction and discouraging the consumption and purchase of 
illegal drugs the illegal drug market will also suffer.
    Contrary to news reports, I do not believe that Mexico is teetering 
on becoming a failed state. Mexico is a strong democratic country 
determined to defeat the drug cartels that plague its states. The 
escalation of violence in 2008 can also be attributed to the Mexican 
Government's unwillingness to succumb to the threats of the cartels and 
to its intensified efforts in subduing these cartels. Even though the 
conflict continues, Mexican Government offices and agencies continue to 
operate as usual, and this has been very important to my office.
    As the District Attorney I am charged by my duty to work with all 
law enforcement agencies to prosecute state crimes. As the District 
Attorney of a border city I am faced with the additional problem of 
fugitives fleeing into Mexico to avoid prosecution for crimes they have 
committed in our country. I highlight this issue because it is a good 
example of the cooperation that has resulted between my office and 
Mexico. To address the problem of these fugitives, I created a Foreign 
Prosecution Unit with the assigned task of extraditing fugitives from 
Mexico. Because we have received nothing but cooperation from the 
Mexican Attorney General's Office, which has an office here in El Paso, 
we not only pursue fugitives through a formal extradition with the 
assistance of the Department of Justice, Office of International 
Affairs, we also, in limited circumstances, request that Mexico arrest 
and prosecute U.S. fugitives found in their country pursuant to Article 
4 of the Mexican Federal Penal Code.
    As a result of this excellent relationship with Mexico, and in the 
mutual interests of our two countries in capturing and prosecuting 
fugitives, my office organized three International Extradition and 
Article 4 Conferences. These conferences included the participation of 
the Department of Justice in Washington, DC, the United States Marshal 
Service, the Office of the Secretary of Ministry of Mexico, the Mexican 
Attorney General's Office (PRG) and Mexican Federal Judiciary. Another 
example of the excellent relationship that resulted with Mexico is the 
publication of ``Extraditions From Mexico and Article 4 Prosecution: A 
Manual for Prosecutors and Law Enforcement'' that was endorsed by 
Mexico. The book sets out procedures for filing extraditions and 
Article 4 prosecutions that have been adopted by the Mexican 
Government. This demonstrates how well our relationship with Mexico 
continues to develop.
    The task of locating and arresting fugitives in Mexico could not 
occur without this type of cooperation from Mexico and, in spite of the 
problems in the country, Mexican officials have continued to support 
our efforts in extraditing fugitives. For example, on March 25, 2009, a 
man who commited a 1992 homicide in El Paso was finally located and 
arrested in the state of Guanajato, Mexico, by the Mexican Federal 
authorities. We expect that he will be extradited in less than a year.
    In conclusion, I would reiterate that while no violence has spilled 
into the streets of El Paso from Mexico, we should remain vigilant and 
alert but optimistic that Mexico, with our assistance, will defeat this 
problem. In the end, Mexico will continue to be our neighbor to the 
south with whom we share not just family and culture but also trade and 
business interests. We will continue to work with Mexico in resolving 
these issues and problems, and I am confident that we will continue to 
enjoy Mexico's full cooperation and support in the coming years.

    The Chairman. Thank you, Mr. District Attorney. We 
appreciate it.
    Mr. McMahon, thank you for being with us today and for the 
job you do.

STATEMENT OF WILLIAM McMAHON, DEPUTY ASSISTANT DIRECTOR, BUREAU 
 OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES, U.S. DEPARTMENT 
                   OF JUSTICE, WASHINGTON, DC

    Mr. McMahon. Mr. Chairman Kerry, Senators Barrasso, Wicker, 
and Congressman Reyes, I am William McMahon, Deputy Assistant 
Director of Field Operations for the Bureau of Alcohol, 
Tobacco, Firearms and Explosives. I am honored to appear before 
you today to discuss ATF's ongoing role in preventing firearms 
from being illegally trafficked from the United States into 
Mexico and working to reduce the associated violence along the 
border.
    For over 30 years, ATF has been protecting our citizens and 
communities from violent criminals and criminal organizations 
by safeguarding them from the illegal use of firearms and 
explosives. We are responsible for both regulating the firearms 
and explosives industry and enforcing criminal laws relating to 
those commodities. ATF has experience, expertise, tools, and 
the commitment to investigate and disrupt groups and 
individuals who obtain guns in the United States and illegally 
traffic them to Mexico. The combination of ATF's crime-fighting 
expertise, specific statutory and regulatory authority, 
analytical capability, and strategic partnerships is used to 
combat firearms trafficking both along the U.S. borders and 
throughout the Nation.
    For instance, from fiscal year 2004 through this month, 
Project Gunrunner, ATF's strategy to disrupt the flow of 
firearms to Mexico, has referred for prosecution 795 cases 
involving 1,658 defendants. Those cases include 382 firearms 
trafficking cases involving 1,035 defendants and an estimated 
12,835 firearms.
    For an example, an 11-month investigation of a Phoenix area 
gun dealer revealed a trafficking schemed involving at least 
650 firearms, including 250 AK-47-type semiautomatic rifles, 
that were trafficked to Mexican drug cartels. One of the 
pistols from this gun dealer was recovered on the person of an 
alleged cartel boss. The investigation, which is pending 
prosecution, resulted in the arrest of 13 defendants and the 
seizure of over 2,200 firearms.
    While the greatest proportion of firearms trafficked to 
Mexico originate out of the United States along the Southwest 
border, ATF trace data has established the drug traffickers 
also acquiring firearms from other States as far east as 
Florida and as far north and west as Washington State. A case 
from April 2008 involving a violent shootout that resulted in 
13 deaths illustrates this point. ATF assisted Mexican 
authorities in tracing 60 firearms recovered in a crime scene 
in Tijuana. As a result, leads have been forwarded to ATF field 
divisions in Houston, TX; Phoenix, AZ; Los Angeles and San 
Francisco, CA; Denver, CO; Seattle, WA; and Philadelphia, PA.
    Additionally, drug traffickers are known to supplement 
their firearms caches with explosives. Our expertise with 
explosives has proven to be another valuable tool to use in the 
fight against drug cartels. In fact, in the past 6 months, we 
have noted a troubling increase in the number of grenades 
seized from or used by drug traffickers. We are also concerned 
about the possibility of explosives-related violence 
materializing in border cities.
    We have had at least one such instance in San Juan, TX, 
where a hand grenade was thrown into a crowd of 20 patrons at a 
bar. Thankfully, this live grenade did not detonate. ATF was 
able to identify the grenade and believe it was linked to a 
drug cartel. Moreover, we believe this device was from the same 
source as those used in the attack on the U.S. Consulate in 
Monterrey, Mexico, in October 2008.
    Along the Southwest border, ATF's Project Gunrunner 
includes 148 special agents dedicated to investigating firearms 
trafficking on a full-time basis and 59 industry operation 
investigators responsible for conducting regulatory inspections 
of licensed gun dealers, known as Federal firearms licensees, 
or FFLs, along the Southwest border. As the sole agency that 
regulates FFLs, roughly 6,700 of which are along the Southwest 
border, ATF has the statutory authority to inspect and examine 
the records and inventories of licensees for firearms 
trafficking trends and patterns and revoke the license of those 
who are complicit in firearms trafficking.
    For instance, ATF used its regulatory authority to review 
the records of an FFL right here in El Paso, TX, to identify a 
firearms trafficker who purchased 75 firearms that were 
trafficked to Mexico. Our investigation led to the arrest of 12 
individuals in November 2007, and sentences for these 
defendants ranged from 2 to 3 years.
    An essential component of ATF's strategy to curtail 
firearms trafficking to Mexico is the tracing of firearms 
seized in both countries. Using this information, ATF can 
establish the identity of the first retail purchaser of the 
firearm and possibly learn pertinent information, such as how 
the gun came to be used in furtherance of the crime or how it 
came to be located in Mexico.
    Furthermore, analysis of aggregated trace data can reveal 
trafficking trends and networks showing where the guns are 
being purchased, who is purchasing them, and how they crossed 
the border. Let me share an example of how trace data can 
identify a firearms trafficker.
    ATF's analysis of trace data linked the man living in a 
United States border city to three guns recovered in different 
crimes in Mexico. Further investigation uncovered that he was 
the purchaser of a fourth firearm that was used in yet another 
crime in Mexico and that he had purchased 111 AR-15-type 
receivers and 7 additional firearms within a short period of 
time using nine different FFLs as sources for his guns. In 
April 2008, ATF seized 80 firearms from this suspect and 
learned that he was manufacturing guns in his home. He sold 
over 100 firearms alone to an individual who is suspected of 
being linked to the cartel.
    Last, I would like to briefly mention ATF's operational 
presence at the El Paso Intelligence Center, EPIC, right here 
in El Paso, TX. EPIC is most certainly one of the most valuable 
tools for intelligence-sharing and coordination in multiagency 
efforts to curb violence and firearms trafficking activities 
along the Southwest border. Our main presence at EPIC currently 
exists in the form of what is known as the ATF Gun Desk. The 
mission of the Gun Desk is to identify and analyze all 
firearms- and explosives-related data acquired and collected 
from all law enforcement and open sources to include Mexican 
military, Mexican law enforcement, intelligence entities, as 
well as United States law enforcement assets operating across 
the border and within Mexico. The information gathered by the 
ATF Gun Desk is continually evaluated and vetted to determine 
if violations of the Federal firearms or explosives laws have 
occurred. The Gun Desk also generates investigative referrals 
for ATF field agents usually in coordination with the agency 
that brought the information to EPIC. The information is not, 
however, necessarily limited to the Southwest border.
    I want to thank you and your staff for the support of our 
critical work, and with the backing of this committee, ATF can 
continue to build on our accomplishments of making our Nation 
even more secure. And I welcome your questions.
    The Chairman. Thank you so much, Mr. McMahon. We appreciate 
it.
    Mr. Arabit.

STATEMENT OF JOSEPH M. ARABIT, SPECIAL AGENT IN CHARGE, EL PASO 
DIVISION, DRUG ENFORCEMENT AGENCY, U.S. DEPARTMENT OF JUSTICE, 
                          EL PASO, TX

    Mr. Arabit. Thank you, Mr. Chairman. Chairman Kerry, 
Senators Barrasso, Wicker, and Congressman Reyes, on behalf of 
the Drug Enforcement Administration, Acting Administrator 
Michele Leonhart, I appreciate your invitation to testify today 
regarding violence along the Southwest border. DEA thanks 
members of the committee for your continued support of the Drug 
Enforcement Administration.
    Also on behalf of DEA, I would like to express our 
condolences to the U.S. Marshals Service and the family of 
Deputy U.S. Marshal Vicente Bustamante who was recently 
murdered in Ciudad Juarez.
    I come here today as the special agent in charge of DEA's 
El Paso Division, one of DEA's five Southwest border field 
divisions. Prior to becoming the special agent in charge here, 
I was stationed in Houston and also in San Antonio. I also 
spent approximately 5 years working on the ground for DEA in 
Mexico, including 2\1/2\ years in Mexico City and 2\1/2\ years 
in Mazatlan, Sinaloa. These experiences allow me to offer a 
unique perspective here today.
    The Southwest border and the security threat posed by drug 
trafficking along the border is not a new issue for DEA. As the 
lead U.S. law enforcement agency responsible for enforcing the 
drug laws of the United States, DEA's special agents have been 
on the front lines of both sides of the Southwest border for 
decades gathering intelligence and conducting enforcement 
operations to dismantle the most powerful and ruthless drug 
trafficking organizations.
    The operations of these organizations have destabilizing 
effects not only in the border region, but throughout Mexico. 
The Southwest border is the principal arrival zone for most 
illicit drugs smuggled into the United States, as well as being 
the predominant staging area for drugs' subsequent distribution 
throughout the country. This area is particularly vulnerable to 
drug smuggling because of the enormous volume of people and 
legitimate goods crossing the border between the two countries 
each day. Disrupted supply routes along the southwest border 
translate into intense competition manifested in violence 
between the drug trafficking organizations.
    The drug trade in Mexico has been rife with violence for 
decades. Incidents of violence and murder, much of which is 
drug-related, have remained at elevated levels in Mexico for 3 
years since the Calderon administration initiated a 
comprehensive program to break the power and impunity of the 
drug cartels.
    The violence in Mexico can be organized into three broad 
categories: Intracartel violence that occurs among and between 
members of the same criminal syndicate; intercartel violence 
among and between rival cartels; and cartel versus government 
violence.
    It is significant to note that intra and intercartel 
violence have always been associated with the Mexican drug 
trade. Cities like Ciudad Juarez and Tijuana in particular have 
witnessed escalating violence since 2006. In 2007, the number 
of drug-related killings in Mexico doubled that from the 
previous year. Of the estimated 2,471 drug-related murders, 
approximately 10 percent were Mexican military and law 
enforcement officials. In 2008, estimates increase to 
approximately 6,263 drug-related killings, with 8 percent of 
those being Mexican military and law enforcement.
    DEA estimates----
    The Chairman. What percent?
    Mr. Arabit. 8 percent, sir.
    DEA estimates that approximately 95 percent of the 
officials killed in both 2007 and 2008 were corrupt officials 
who either failed to do the bidding of their controlling cartel 
or who were targeted for assassinations by a competing cartel. 
Around 1,000 people have died this year in Mexico, about 10 
percent of whom are public officials.
    In the past year, United States intelligence and law 
enforcement agencies have worked diligently to reach a 
consensus view on spillover violence and United States 
vulnerability to the Mexican cartels' violent tactics. The 
interagency has defined spillover violence to entail 
deliberate, planned attacks by the cartels on U.S. assets, 
including civilian, military, or law enforcement officials, 
innocent U.S. citizens, or physical institutions such as 
government buildings, consulates, or businesses. We assess with 
medium confidence that in the short term there will be no 
significant increase in spillover violence as the Mexican 
trafficking organizations understand that intentional targeting 
of United States persons or interests unrelated to the drug 
trade would likely undermine their own business interests.
    In response, the DEA continues to work vigorously in 
cooperation with its Federal, State, local, and foreign 
counterparts to address the violence through the sharing of 
intelligence and joint investigations. DEA has the largest 
United States drug law enforcement presence in Mexico and is 
primed to mount and attack these drug trafficking organizations 
at all levels with the Calderon administration. The disruption 
and dismantlement of these organizations, the denial of 
proceeds, and the seizure of assets significantly impacts the 
drug trafficking organizations' ability to exercise influence 
and further destabilize the region. Project Reckoning and 
Operation Xcellerator are recent examples of this United 
States-Mexico collaboration. While these collaborative 
operations are intended to break the power and impunity of the 
cartels, in the short term they also exacerbate the violence in 
Mexico.
    In short, guided by intelligence, DEA is working diligently 
on both sides of the border to stem the flow of illicit drugs 
and assist our Mexican counterparts in curbing the violence 
associated with the drug trade. DEA recognizes that interagency 
and international collaboration and coordination is fundamental 
to our success. DEA will continue to closely monitor the 
security situation in Mexico and ensure that rampant violence 
does not spill over our border by continuing to lend assistance 
and support to the Calderon administration.
    Chairman Kerry and members of the committee, Congressman 
Reyes, I thank you again for the opportunity to testify and I 
will be happy to address any questions you may have.
    [The joint prepared statement of Mr. McMahon and Mr. Arabit 
follows:]

Joint Prepared Statement of Joseph M. Arabit, Special Agent in Charge, 
 El Paso Division, Drug Enforcement Administration, U.S. Department of 
 Justice, El Paso, TX, and William McMahon, Deputy Assistant Director, 
Field Operations, Bureau of Alcohol, Tobacco, Firearms and Explosives, 
               U.S. Department of Justice, Washington, DC

    Chairman Kerry, Senator Lugar, and members of the committee, we 
appreciate the opportunity to appear before you today to discuss the 
Department of Justice's (the Department) role in addressing the 
alarming rise of violence perpetrated by warring Mexican drug 
trafficking organizations in Mexico and the effects of that violence on 
the United States, particularly along our Southwest border. We want to 
share with you the Department's strategy systematically to dismantle 
the Mexican drug cartels, which currently threaten the national 
security of our Mexican neighbors, pose an organized crime threat to 
the United States, and are responsible for the scourge of illicit drugs 
and accompanying violence in both countries.
     overview of department of justice's mexico and border strategy
    The explosion of violence along the Southwest border is being 
caused by a limited number of large, sophisticated, and vicious 
criminal organizations, not by individual drug traffickers acting in 
isolation. Indeed, the Department's National Drug Intelligence Center 
has identified the Mexican drug trafficking organizations (DTOs) as the 
greatest organized crime threat facing the United States today. That 
insight drives our response. There is much to do and much to improve 
upon. But the Department's strategy--built on its proven track record 
in dismantling transnational organized criminal groups, such as the 
mafia in the 1980s and 1990s--confronts the Mexican cartels as criminal 
organizations, rather than simply responding to individual acts of 
criminal violence. Pursued vigorously, and in coordination with the 
efforts of other U.S. Government agencies like the Departments of State 
and Homeland Security and with the full cooperation of the Government 
of Mexico, this strategy can and will neutralize the organizations 
causing the violence.
    The Department's strategy to identify, disrupt, and dismantle the 
Mexican drug cartels has five key elements. First, the strategy employs 
extensive and coordinated intelligence capabilities. The Department 
pools information generated by our law enforcement agencies and 
Federal, State, and local government partners, and then uses the 
product systematically to direct operations in the United States and 
assist the efforts of the Mexican authorities to attack the cartels and 
the corruption that facilitates their operations. Second, led by 
experienced prosecutors, the Department focuses its efforts on 
investigation, extradition, prosecution, and punishment of key cartel 
leaders. As the Department has demonstrated in attacking other major 
criminal enterprises, destroying the leadership and financial assets of 
the cartels will undermine the entire organizations. Third, the 
Department pursues investigations and prosecutions related to the 
smuggling of guns, cash, and contraband for drugmaking facilities from 
the United States into Mexico. The violence and corruption in Mexico 
are fueled by these resources that come from our side of the border. 
Fourth, the Department uses traditional law enforcement approaches to 
address spillover effects of cartel violence in the United States. 
These effects include the widespread distribution of drugs on our 
streets and in our neighborhoods, battles between members of rival 
cartels on American soil, and violence directed against U.S. citizens 
and government interests. Fifth, the Department prosecutes criminals 
responsible for the smuggling, kidnapping, and violence in Federal 
court. The ultimate goals of these operations are to neutralize the 
cartels and bring the criminals to justice.
    Attorney General Holder is committed to taking advantage of all 
available Department resources to target, disrupt, and dismantle the 
Mexican cartels. Last month, the Attorney General announced the arrest 
of more than 750 individuals on narcotics-related charges under 
Operation Xcellerator, a multiagency, multinational effort that began 
in May 2007 and targeted the Mexican drug trafficking organization 
known as the Sinaloa Cartel. This cartel is responsible for bringing 
tons of cocaine into the United States through an extensive network of 
distribution cells in the United States and Canada. Through Operation 
Xcellerator, Federal law enforcement agencies--along with law 
enforcement officials from the Governments of Mexico and Canada and 
State and local authorities in the United States--delivered a 
significant blow to the Sinaloa Cartel. In addition to the arrests, 
authorities seized over $59 million in U.S. currency, more than 12,000 
kilograms of cocaine, more than 1,200 pounds of methamphetamine, 
approximately 1.3 million Ecstasy pills, and other illegal drugs. Also 
significant was the seizure of 169 weapons, 3 aircraft, and 3 maritime 
vessels.
    Similarly, the Department's Project Reckoning, announced in 
September 2008, was a 15-month operation that severely damaged the Gulf 
Cartel. It was one of the largest and most successful joint law 
enforcement efforts between the United States and Mexico. Project 
Reckoning resulted in over 600 arrests in the U.S. and Mexico, plus the 
seizure of nearly 20,000 kilos of cocaine, tens of thousands of pounds 
of marijuana, thousands of pounds of methamphetamine, hundreds of 
weapons and $71 million in currency. Perhaps most importantly, Project 
Reckoning led to the indictment against a triumvirate of Gulf Cartel 
leaders.
    Operation Xcellerator and Project Reckoning were tremendous 
successes in the U.S. Government's battle against the Mexican cartels 
and illustrate the strengths of the Department's strategy. These 
operations applied the classic law enforcement tools that the 
Department has successfully wielded against other large and 
sophisticated criminal enterprises to target the largest threats from 
the cartels. Neither would have been possible without the development 
and effective sharing of tactical and strategic intelligence between 
and among Federal agency partners and the Government of Mexico and its 
law enforcement and special military components. They reflected 
multiagency, multinational efforts. Although both were led by the Drug 
Enforcement Administration (DEA), the Department worked closely with 
the Department of Homeland Security and included the active 
participation of the Federal Bureau of Investigation (FBI), the Bureau 
of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Marshals 
Service (USMS), Immigration and Customs Enforcement (ICE), U.S. Customs 
and Border Protection (CBP), and the Internal Revenue Service (IRS). In 
all, more than 200 Federal, State, local, and foreign law enforcement 
agencies contributed to the success of Operation Xcellerator and 
Project Reckoning. And these multiyear investigations will result in 
Federal prosecutions in numerous States by various U.S. attorneys' 
offices and the Criminal Division's Narcotics and Dangerous Drug 
Section.
    We believe that we have the right strategy for stopping the 
violence spawned by the cartels. But despite recent successes, we also 
recognize that we have much more work to do to implement it 
effectively. The cartels remain too powerful and able to move too many 
drugs into the United States. Too many guns and too much cash are 
moving south across the border into Mexico, where they fuel the cycle 
of violence. As a result, the Attorney General is working to allocate 
additional resources to address this threat.
                  the dimensions of the current threat
    The Mexican drug cartels pose a national security threat to Mexico 
and an organized crime threat to the United States. Drug-related 
violence, including kidnappings and increasingly gruesome murders, has 
skyrocketed in recent years in Mexico, particularly along the border 
with the United States. Drug-related murders in Mexico doubled from 
2006 to 2007, and more than doubled again in 2008 to 6,200 murders. 
Almost 10 percent of the murders in 2008 involved law enforcement 
officers or military personnel. Mexican drug traffickers and their 
enforcers are also engaging in other violent crimes, including 
kidnappings and home invasion robberies--primarily in Mexico but 
increasingly in U.S. communities as well. Although violence in Mexico 
has existed over the years, the bloodshed has escalated in recent 
months to unprecedented levels as the cartels use violence as a tool to 
undermine public support for the government's vigorous counterdrug 
efforts. Traffickers have made a concerted effort to send a public 
message through their bloody campaign of violence by leaving the bodies 
of their tortured victims out for public display to intimidate 
government officials and the public alike.
    A significant portion of this increase in violence actually 
reflects progress by the Governments of Mexico and the United States in 
disrupting the activities of the drug cartels. After President Felipe 
Calderon and Attorney General Eduardo Medina-Mora took office in 2006, 
and with support from the United States, the Government of Mexico 
undertook a comprehensive program to break the power of the 
narcotraffickers, making record seizures of drugs, clandestine 
laboratories, and cash. Mexican law enforcement agencies have arrested 
many high level drug cartel members who are then being extradited to 
face prosecution in the United States in record numbers. This 
unprecedented pressure from the Government of Mexico has led to the 
increased violence directed at Mexican law enforcement and the Mexican 
Government as a whole. As the Department and our Federal agency 
partners have worked with Mexican authorities to disrupt and dismantle 
successive iterations of the most powerful cartels, their successors 
have escalated the fighting among themselves for control of the 
lucrative smuggling corridors along the Southwest border.
    The violence in Mexico has direct and serious effects in the United 
States. According to the ``2009 National Drug Threat Assessment 
(NDTA)'' by the Department's National Drug Intelligence Center, Mexican 
drug trafficking organizations represent the ``greatest organized crime 
threat to the United States,'' with cocaine being the leading drug 
threat. Mexican and Colombian drug trafficking organizations generate 
and launder between $18 billion and $39 billion in wholesale drug 
proceeds in the United States annually, a large portion of which is 
believed to be smuggled in bulk across the border back into Mexico; 
this cash further fuels the drug trade and its attendant violence. 
Similarly, firearms trafficking from the United States to Mexico 
contributes to escalating levels of violence on both sides of the 
border, as groups armed with military weapons and U.S.-based gangs 
serve as enforcement arms of the Mexican drug cartels. According to 
ATF's Tracing Center, 90 percent of the firearms about which ATF 
receives information are traceable to the United States.
    intelligence-based targeting is the foundation for a successful 
                                response
    For more than a quarter-century, the principal law enforcement 
agencies in the United States have recognized that the best way to 
fight the most sophisticated and powerful criminal organizations is 
through intelligence-based, prosecutor-led task forces that leverage 
the strength, resources, and expertise of the complete spectrum of 
Federal, State, local, and international investigative and 
prosecutorial agencies. It was this approach, for example, that fueled 
the ground-breaking Mafia prosecutions in the United States and Italy 
in the late 1980s and 1990s. The Department is applying these same 
intelligence-driven tactics that broke the back of the Mob to fighting 
the Mexican drug cartels.
    The Department works through several programs to develop a full 
range of strategic, operational, and tactical intelligence against the 
Mexican cartels.
    First, since 2003, the Department has worked with the drug 
enforcement community to develop the Attorney General's Consolidated 
Priority Organization Target (CPOT) list of international ``Most 
Wanted'' drug kingpins. Of the approximately 50 worldwide cartels 
currently on the list, 19 of them are Mexican enterprises. This list 
helps the Department and our Federal agency partners focus critical 
resources on the greatest threats.
    Second, the Department leads two multiagency intelligence centers 
and an operational center that provide tactical and operational support 
in targeting the largest and most dangerous Mexican cartels and 
focusing law enforcement resources. The El Paso Intelligence Center 
(EPIC) is led by the DEA with participation of more than 20 agencies. 
It provides critical, case-specific tactical intelligence. For example, 
if a highway patrol officer stops a vehicle in the middle of the night, 
EPIC may have information about the vehicle, driver, or passengers that 
can be provided in real time. EPIC focuses specifically on the 
Southwest border but tracks broader tactical data. The ATF's ``Gun 
Desk'' at EPIC serves as a central repository for all intelligence 
related to firearms along the Southwest border. The FBI will shortly 
join the facility through a Southwest Intelligence Group (SWIG), which 
will be used to coordinate information and intelligence relating to the 
Southwest border and to better disrupt and dismantle the ongoing 
violent criminal activity.
    The Special Operations Division (SOD) is a DEA-led multiagency 
operational center, but its functions go beyond the gathering and 
processing of intelligence. The SOD provides strategic support and 
coordination for long-term, multiagency investigations. It passes leads 
that have been developed from intelligence sources to field 
investigators and coordinates the resulting investigations. It targets 
the command and control communications of major drug trafficking and 
narcoterrorism organizations. Special emphasis is placed on those major 
drug trafficking and narcoterrorism organizations that operate across 
jurisdictional boundaries on a regional, national, and international 
level. Operation Xcellerator was initiated as a SOD investigation. The 
transnational nature of narcotics trafficking results in numerous 
agencies from Federal, State and local departments involved in the 
fight to stop the flow of narcotics into our communities. Working 
through the Organized Crime Drug Enforcement Task Force Fusion Center, 
SOD serves a critical role in the deconfliction of investigative 
efforts to prevent the occurrence of law enforcement from targeting one 
another.
    The Organized Crime Drug Enforcement Task Force (OCDETF) Fusion 
Center, an intelligence center colocated with SOD, is a comprehensive 
data center containing drug and related financial data from DEA, ATF, 
FBI, IRS, the USMS, the U.S. Coast Guard, National Drug Intelligence 
Center (NDIC), EPIC, the Financial Crimes Enforcement Network (FinCEN), 
the Department of State's Bureau of Consular Affairs, and other key 
players in the international drug enforcement world. Like the SOD, it 
provides critical support for long-term and large-scale investigations. 
It conducts cross-agency and cross-jurisdictional integration and 
analysis of drug-related data to create comprehensive pictures of 
targeted organizations. The Fusion Center passes actionable leads to 
field investigative units.
                  focused law enforcement initiatives
    The Department's efforts are focused on three underlying aspects of 
the problem: Drugs, guns, and cash; and are part of an integrated and 
coordinated operational response from Department law enforcement 
components in coordination with one another and Federal agency 
counterparts.
1. Movement of Drugs
    DEA has the largest U.S. drug enforcement presence in Mexico with 
11 offices in that country. DEA Mexico primarily focuses its resources 
at the command and control infrastructure of the Mexican cartel leaders 
with the goal of removing the top layers of cartel leadership, who are 
essential to the operation of these criminal enterprises. To achieve 
this goal, DEA Mexico supports and/or facilitates operations by both 
the Mexican Federal Police and Military Special Forces to locate and 
capture cartel leaders and their associates. Project Reckoning and 
Operation Xcellerator are recent examples of this successful 
partnership. DEA also sponsors the Sensitive Investigative Units (SIU), 
elite vetted units of Mexican law enforcement and military which 
undergo robust background investigations and polygraph examinations, 
resulting in trusted counterparts throughout Mexico.
    DEA also targets the cartels through its ``Drug Flow Attack 
Strategy'' (DFAS), an innovative, multiagency strategy, designed to 
significantly disrupt the flow of drugs, money, and chemicals between 
the source zones and the United States by attacking vulnerabilities in 
the supply chains, transportation systems, and financial infrastructure 
of major drug trafficking organizations. DFAS calls for aggressive, 
well-planned and coordinated enforcement operations in cooperation with 
host-nation counterparts in global source and transit zones around the 
world.
    Department law enforcement components cooperate with the Department 
of Homeland Security and other Federal agencies on EPIC's ``Gatekeeper 
Initiative.'' A ``Gatekeeper'' is a person or group whose role is ``to 
facilitate the taxation and protection of contraband loads (including 
illegal aliens) and to enforce the will of the cartel through bribery, 
intimidation, extortion, beatings, and murder.'' These Gatekeepers 
control territory along the border and are key to cartel smuggling 
operations in both directions. The Gatekeeper Initiative, combines the 
statutory expertise and authorities of its multiagency members--DEA, 
FBI, the U.S. Marshals, IRS, ICE, ATF, and CBP to: (1) Establish 
multidistrict investigations of the Gatekeepers and their organizations 
operating along the Southwest border, including the identification and 
investigation of corrupt law enforcement officials on both sides of the 
border; (2) identify additional activities of the Gatekeepers in other 
regions and pass investigative leads to those jurisdictions; (3) 
disrupt drug trafficking patterns along the Southwest border by 
attacking the smuggling of major cartels; and (4) target the illegal 
purchase and distribution of firearms by Gatekeepers.
    Within the United States, DEA has worked with the Department of 
Homeland Security to implement its ``License Plate Reader Initiative'' 
in the Southwest border region to gather intelligence, particularly on 
movements of weapons and cash into Mexico. The system uses optical 
character recognition technology to read license plates on vehicles in 
the United States traveling southbound toward the border. The system 
also takes photographs of drivers and records statistical information 
such as the date, time, and traffic lane of the record. This 
information is then compared with DEA and CBP databases to help 
identify and interdict vehicles that are carrying large quantities of 
cash, weapons, and other illegal contraband toward Mexico.
2. Trafficking of Guns
    Given its statutory mission and authority, ATF is principally 
responsible for stopping the flow of weapons from the United States 
south to the cartels. Merely seizing firearms through interdiction will 
not, by itself, stop firearms trafficking to Mexico. ATF, in 
collaboration with other law enforcement entities, seeks to identify, 
investigate, and eliminate the sources of illegally trafficked firearms 
and the networks for transporting them.
    Since 2006, Project Gunrunner has been ATF's comprehensive strategy 
to combat firearms-related violence by the cartels along the Southwest 
border. It includes special agents dedicated to investigating firearms 
trafficking on a full-time basis and industry operations investigators 
(IOIs) responsible for conducting regulatory inspections of Federal 
Firearms Licensees (FFLs) along the Southwest border. Since 2007, ATF 
has inspected approximately 95 percent of the FFLs in the region.
    Congress has recently allocated an additional $15 million in 
support of Project Gunrunner. These funds will allow ATF to open five 
new field offices staffed with Special Agents and IOIs. With these 
additional resources, ATF can identify and prioritize for inspection 
those FFLs with a history of noncompliance that represents a risk to 
public safety, as well as focus on primary retailers and pawnbrokers 
who sell the weapons of choice for drug cartels. In addition, the funds 
will be used to send additional Special Agents to consulates in Mexico.
    The tracing of firearms seized in Mexico and the United States is 
an essential component of the strategy to curtail firearms trafficking 
along the Southwest border. When a firearm is traced, specific 
identifying information--including the make, model, and serial number--
is entered in the ATF Firearms Tracing System
(e-Trace), which is the only Federal firearms tracing system. Using 
this information, ATF can establish the identity of the first retail 
purchaser of the firearm and then investigate how the gun came to be 
used in a crime or how it came to be located in Mexico. Furthermore, 
analyses of aggregate trace data can reveal trafficking trends and 
networks, showing where the guns are being purchased, who is purchasing 
them, and how they flow across the border. Without tracing data, 
Federal officials would be forced to rely solely on interdiction 
efforts to gain investigative leads, an often ineffective use of 
Federal resources. As part of the Merida Initiative, discussed below, 
ATF received $4.5 million to initiate a Spanish version of ATF's e-
Trace to Mexico. ATF is working with Mexican officials to increase 
their current usage of the gun-tracing system, with deployment to nine 
U.S. consulates in Mexico set for December of this year.
3. Bulk Currency Shipments and Money Laundering
    The spike in violence in Mexico among the cartels stems from fights 
over market share and profits as the Mexican and U.S. Governments have, 
by working together, succeeded in applying greater pressure against 
them. In addition to removing, the leadership ranks of the cartels, the 
Department is waging a war to take their assets too. Again, as with any 
other criminal enterprise, the Department places a high priority on 
attacking and dismantling the financial infrastructure of the Mexican 
drug trafficking organizations.
    For example, the Department has established a ``Bulk Currency Money 
Laundering Initiative,'' which investigates bulk currency movement 
along transportation routes in the Southwest. Although we do not know 
the exact amount of bulk cash flowing back across the U.S. border to 
the Mexican DTOs, the National Drug Intelligence Center estimates that 
Mexican DTOs generate approximately $17-$38 billion annually in gross 
wholesale proceeds from their distribution of illicit drugs in the 
United States. State and local agencies, which encounter the vast 
majority of currency seizures on the highways, often lack the resources 
necessary to conduct followup investigations that will lead to the 
identification and prosecution of the major drug organizations that own 
the smuggled cash. Again we have worked in partnership with the 
Department of Homeland Security, the component agencies of which have 
primary responsibility for securing the U.S. border. This Strategic 
Initiative is designed to enhance all the Federal, State, and local 
agencies' efforts through coordination and cooperative investigation. 
Federal agencies currently participating in this initiative include 
ATF, DEA, FBI, ICE, IRS, the USMS, and the U.S. attorneys' offices.
    Between 2007 and 2008, $2.9 billion were forfeited under the 
Department of Justice Asset forfeiture program. Under the National 
Asset Forfeiture Strategic Plan, asset forfeiture is integrated into 
every appropriate investigation and prosecution, recognizing that asset 
forfeiture is a powerful law enforcement tool that strips criminals of 
their illicit wealth.
    Finally, under the Merida Initiative, discussed below, the 
Department is sharing its expertise with Mexican investigators and 
prosecutors to strengthen Mexico's own asset forfeiture laws and 
authority.
                  federal prosecution along the border
    The U.S. attorneys have over 540 prosecutors in the five Southwest 
border districts, handling national and district-level priorities 
involving narcotics trafficking, gun-smuggling, violent crimes, and 
immigration offenses. Each of the Southwest border U.S. attorneys' 
offices works closely with Federal, State, and local investigative 
agencies on the initiatives described above. The U.S. attorneys' 
offices are on the front lines of the national effort to prosecute both 
large-scale criminal enterprise cases involving significant trafficking 
organizations as well as other criminal offenses arising at the border 
with Mexico. The U.S. attorneys also coordinate with Mexican 
prosecutors to share evidence in appropriate cases to ensure that 
justice is achieved either in U.S. or Mexican courts.
    During the past 3 years, U.S. attorneys' offices and the 
Department's Criminal Division have seen a significant increase in the 
number of international fugitives returned to face justice in the 
United States through international extradition. Colombia and Mexico 
have extradited fugitives to the United States during this time in 
unprecedented numbers. Some of those extradited were significant cartel 
leaders, including major figures of the Tijuana and Gulf Cartels. For 
example, Osiel Cardenas Guillen, leader of the Gulf Cartel, was 
extradited in January 2007. Last December, Mexico extradited Juan Diego 
Espinosa Ramirez, ``El Tigre,'' a Colombian associate of the Sinaloa 
Cartel wanted by the DEA. Last month Mexico extradited Miguel Caro-
Quintero to the United States to face Federal narcotics trafficking and 
racketeering charges brought by the Department; Caro-Quintero is the 
former head of the now-defunct Sonora Cartel and was responsible for 
trafficking thousands of metric tons of cocaine and marijuana to the 
U.S. in the 1980s and 1990s. (Caro-Quintero is also the younger brother 
of Rafael Caro-Quintero who was the mastermind behind the kidnapping, 
torture, and murder of DEA Special Agent Enrique ``Kiki'' Camarena in 
1985.) Just last week, the Mexican Government announced the arrest of 
Vincente Zambada, a top Sinaloa Cartel leader, who has been indicted on 
Federal narcotics charges in the United States.
    To build on these successes, and to handle the growing number of 
cases involving international extraditions and foreign evidence more 
effectively, the Department is in the process of establishing an OCDETF 
International Unit within the Criminal Divisions Office of 
International Affairs (OIA), which will focus on mutual legal 
assistance to other countries. The Unit will expand the current level 
of cooperation with our foreign counterparts in the arrest, 
extradition, and successful prosecution of cartel leaders and their 
subordinates.
           responding to the threat with additional resources
    Although the elements of the Department's proven prosecutor-led, 
intelligence-based strategy are in place, we have much work to do to 
implement it effectively to combat the Mexican cartels. The Department 
has taken the following steps to buttress our law enforcement resources 
along the Southwest border.

  <bullet> Increased DEA presence on the border. DEA is forming four 
        additional Mobile Enforcement Teams (METs) to specifically 
        target Mexican methamphetamine trafficking operations and 
        associated violence, and anticipates placing 16 new positions 
        in its Southwest border field divisions. Twenty-nine percent 
        (1,171) of the DEA's domestic agent positions are now allocated 
        to the DEA's Southwest border field divisions.
  <bullet> Reallocation of 100 ATF personnel to Southwest border within 
        the next 45 days. ATF is redeploying 100 employees, including 
        72 agents, under Project Gunrunner, primarily to Houston and 
        south Texas based on ATF intelligence on drug trafficking 
        patterns. The FY 2009 budget and Recovery Act include 
        additional new funding for Project Gunrunner as well. In 
        particular, $10 million in American Recovery and Reinvestment 
        Act funding is being used to hire 37 ATF employees to open, 
        staff, equip, and operate new Project Gunrunner criminal 
        enforcement teams (in McAllen, TX; El Centro, CA; and Las 
        Cruces, NM), and to assign two special agents to each of the 
        U.S. consulates in Juarez and Tijuana to provide direct support 
        to Mexican officials on firearms-trafficking-related issues. 
        ATF will also open new Gunrunner field offices in Phoenix, AZ, 
        and Houston, TX, under the FY 2009 budget and will add 30 
        additional ATF personnel in those areas.
  <bullet> OCDETF is adding to its Strike Force capacity along the 
        Southwest border. OCDETF is expanding the staffing of its joint 
        interagency Strike Forces along the Southwest border (in San 
        Diego and Houston); within the last year, OCDETF has also 
        established two new Strike Forces, one in Phoenix and one in El 
        Paso. In addition, OCDETF is adding one full-time financial 
        analyst contractor for each of the Strike Forces and placing an 
        intelligence analyst team from the National Drug Intelligence 
        Center with each Strike Force, following a model currently in 
        place with the Houston Strike Force. The Department intends to 
        roll out additional teams across the Southwest border.
  <bullet> Increased FBI focus. The FBI is enhancing its efforts to 
        disrupt drug activity and to dismantle gangs that may have 
        connections to the violent Mexican drug cartels by 
        participating on Organized Crime and Drug Enforcement Task 
        Forces. In addition, to address the surge in kidnappings, the 
        FBI is working closely with Mexican police officials on a 
        Bilateral Kidnapping Task Force. This task force investigates 
        cases along the border towns of Laredo, TX, and Nuevo Laredo, 
        Mexico. Aside from operational task forces, each of our border 
        offices has Border Liaison Officers who travel to Mexico on a 
        weekly basis to liaison and coordinate with law enforcement 
        partners. These tools provide local law enforcement on both 
        sides of the border with a rapid response force to immediately 
        pursue, locate, and apprehend violent crime fugitives who 
        commit their crimes and flee across the international border to 
        elude capture.
  <bullet> Increased funding to combat criminal narcotics activity 
        stemming from the southern border. The American Recovery and 
        Reinvestment Act includes $30 million, to be administered by 
        the Department's Office of Justice Programs, to assist with 
        State and local law enforcement to combat narcotics activity 
        along the southern border and in High Intensity Drug 
        Trafficking Areas, including the $10 million that is required 
        by statute to be allocated to Project Gunrunner.
  <bullet> Public relations campaign. ATF is doing a public education 
        campaign in Houston and San Antonio, TX, this summer on illegal 
        straw purchasing. This will include press conferences, radio, 
        TV, billboards, and seminars with people who have Federal 
        licenses to sell firearms.
                         the merida initiative
    Let me conclude with a brief mention of the Merida Initiative. The 
Department strongly supports the Merida Initiative, which provides an 
unprecedented opportunity for a highly coordinated, effective bilateral 
response to criminal activity on our Southwest border. The Department 
has been and continues to be actively involved in the Merida Initiative 
planning and implementation both on an interagency and bilateral basis. 
One of the first Merida Initiative programs in Mexico is a ministerial-
level Strategy Session on Arms Trafficking, funded by the Government of 
Mexico and the U.S. State Department, and developed and designed by the 
Department in conjunction with DHS and the U.S. Embassy in Mexico City, 
to be held in Mexico on April 1 and 2. Attorney General Holder and 
Secretary Napolitano are scheduled to attend, joining their Mexican 
counterparts for the second day of the conference.
    The Department's Criminal Division and law enforcement agencies 
already are working with our Mexican counterparts to enhance and 
strengthen Mexico's operational capacities to effectively combat 
narcotrafficking, firearms trafficking, and other organized criminal 
enterprises, including trafficking in persons. The Merida Initiative 
provides increased support for our joint efforts with Mexico in these 
and other areas of mutual concern. These efforts have focused on the 
development of intelligence-based targeting and prosecutor-led 
multiagency task forces, collection of evidence, and extradition. The 
Department has been and continues to be an active participant and 
partner in the Merida Initiative interagency planning and 
implementation both in Washington, DC, and as an integral member of the 
country team at Embassy Mexico City.
                               conclusion
    Thank you for your interest in the Department's efforts to combat 
the alarming rise of violence in Mexico along the Southwest border, as 
well as our views about the most effective ways to address the current 
threat. In order to attack the full spectrum of the drug cartels' 
operations--drug trafficking, kidnapping, bribery, extortion, money 
laundering and smuggling of profits, and trafficking and use of 
dangerous weapons--we must employ the full spectrum of our law 
enforcement agencies' resources, expertise, and statutory authorities. 
By continuing to work together, building on what we have done well so 
far and developing new ideas to refresh our strategies, we can rise to 
the current challenge. Again, thank you for your recognition of this 
important issue and the opportunity to testify here today. We will be 
happy to answer any questions you may have.

    The Chairman. Thank you very much, Mr. Arabit. We, indeed, 
will have a lot of questions of all of you. We want to get 
right at it.
    Mr. Esparza, as the district attorney--and you have been 
there now 16 years?
    Mr. Esparza. Yes, sir.
    The Chairman. This is a problem that has been ongoing. How 
would you describe it today relative to where it was 5 years 
ago, 10 years ago, and when you began?
    Mr. Esparza. Well, it is night and day. It has never been 
like this before. I think the reality of the drug trade is that 
there is violence, and we have seen that in the past and we 
have seen that not just in Mexico but also in the United 
States. But what has happened recently is extraordinary. The 
number of deaths and murders in Juarez is extremely high.
    The Chairman. And what is it that has suddenly prompted 
this in your judgment? Is this just intercartel, intracartel 
warfare, or is it more than that?
    Mr. Esparza. Well, I do think that it probably started as 
the result of the efforts of President Calderon to push the 
cartels, but now we see violence within the cartels and cartel 
to cartel, and now we see cartel versus the government. And 
that whole triangle is a result of the increase in violence.
    I am very happy to tell you, as I told you in my opening 
statement, that the violence has not spilled over, but I do not 
see--at least at the moment, we see a decrease. But I have to 
wonder, as a State official on this side, how long will it 
last. We are in the early phases of this. It is good news that 
the violence has decreased, but will it stay at this level?
    The Chairman. Well, let me ask you and any of the witnesses 
on this panel. Is this increase in violence the result of the 
trade becoming so much more lucrative because the demand is so 
much higher and therefore they are willing to go all out, or is 
it because it has diminished and they are fighting for a 
smaller pot? What is the reason that all of a sudden the 
cartels are going at each other with such ferocity?
    Mr. Arabit. Thank you for the question, Mr. Chairman.
    DEA believes that the reason that the cartels are fighting 
the way that they are is that they are vying lucrative 
corridors. The Mexican Government has done a phenomenal job of 
shutting down some of the corridors on the Mexican side and 
putting pressure on the cartels. Therefore, the existing 
corridors are what is being contested.
    All the while, we still have the intracartel violence, and 
the intracartel violence is being caused by some of the upper 
echelon members of these organizations getting arrested and 
extradited.
    Aside from that, we have got the pressure on the U.S. side. 
U.S. law enforcement is doing a very, very good job of 
containing these drug cartels and affecting their trade on the 
U.S. side.
    So when you have all these forces simultaneously occurring, 
it makes for a very volatile situation.
    The Chairman. To what degree--when you pointed out, I 
think, some 6,000--we went from 2,400 to 6,200-plus murders 
last year. Is that correct?
    Mr. Arabit. Yes, sir. That is correct.
    The Chairman. What percentage of those were innocent 
civilians caught in either a cross-fire and/or targeted?
    Mr. Arabit. Sir, I do not have that number. I think it is 
safe to say that it is a very small percentage.
    The Chairman. So most of the people who were victims were 
themselves involved in the trafficking. Is that what you are 
saying?
    Mr. Arabit. Yes, sir. That is correct. Many of these 
killings are targeted killings. They are very well planned out, 
very well executed killings.
    The Chairman. If they are fighting that hard over the 
corridors and they are fighting that hard in Juarez, it seems 
to suggest that more is getting through and this is more 
worthwhile to them and worth fighting for.
    Mr. Arabit. Well, what is worthwhile to them, sir, is the 
actual corridors. They want the corridor. That is exactly what 
they are fighting for.
    The Chairman. I understand that, but what I am saying is it 
seems to suggest that that is mighty worth the fight. 
Therefore, they know that that is valuable because a high level 
of drugs are coming through.
    Mr. Arabit. That could be one way of looking at it, sir.
    The Chairman. The other way is to suggest that less is 
getting through and therefore it is worth fighting for? I mean, 
what is the----
    Mr. Arabit. Well, sir, I can tell you that we are in a 24-
month sustained period of higher prices and lower purity on 
cocaine, and so that is encouraging. That means that there is a 
limited amount of cocaine actually hitting the streets of the 
United States.
    The other point I would like to make is that 90 percent of 
the cocaine that comes out of Colombia to the United States in 
the past has passed through Mexico. Within the last year, 47 
percent of that 90 percent is actually stopping in Central 
America, and what that indicates to me and to DEA is that the 
Calderon administration is truly having an impact.
    The Chairman. From the law enforcement perspective, after a 
while, if your intel is good enough and your groundwork is good 
enough, you get a pretty good bead on who the bad guys are. And 
mounting the proper kind of law enforcement effort--we have the 
tools today to really go after them. Does this absence of a 
targeted prosecution effort and capture effort by the 
government indi-
cate that there is a gap in their intelligence or simply 
difficulties and/or inability to go after them after this 
period of time? As you said, you have been at it for 2 decades. 
I think you said that, Mr. McMahon.
    Mr. McMahon. Yes, sir.
    The Chairman. So I mean, after 2 decades, you ought to have 
a pretty good bead on who they are.
    Mr. Arabit. Yes, sir. I believe it is safe to say we have a 
good bead on who they are.
    The Chairman. So what is the restraint on appropriately 
being able to go after them and make life pretty miserable?
    Mr. Arabit. Mr. Chairman, I believe that in collaboration 
with the Mexican Government, we are, in fact, going after them. 
DEA currently has 100 employees in Mexico, 62 of whom are 
special agents. We have 11 offices in Mexico. We work hand in 
hand day by day, oftentimes hour by hour, with the Mexican 
Government in order to go after these major drug trafficking 
organizations.
    Mr. Esparza. I would add that the infrastructure--I do not 
hear this very often in the public discussion, but the 
infrastructure along the southern border--and I know that 
Congressman Reyes is very aware of this--is very well developed 
over the years. I mean, we have a high-intensity drug 
trafficking area which is all the southern border of the 
country, and there are five parts to it. You sit in the west-
Texas high-intensity drug trafficking area. It was one of the 
first HIDTAs that was funded by the Federal Government quite a 
few years ago. And that infrastructure allows for Federal, 
local, and State officials to work together.
    In order to continue to protect us, I think you have to be 
smart about how you use your resources, and that HIDTA effort, 
which not only gathers operational intelligence, also works so 
that the agencies work together as they protect us along the 
southern border.
    HIDTA is not usually a term that I hear very often in the 
national discussion, but the Federal Government has invested 
lots of money in order to ensure that Federal, local, and State 
agencies work together to protect us. As DEA was saying, I 
mean, we are working hard to protect us on this side and chase 
them at the same time, and that infrastructure is here.
    The Chairman. Well, our Latin American partners in these 
efforts sometimes ask us why we are able to show them charts 
about how these guys operate right under their noses, but we 
are not able to show them charts about how they are operating 
here in our country under our noses. What is the deal?
    Mr. Arabit. Mr. Chairman, thank you for the question.
    What I would say to that, sir, is the two most recent 
examples of how we are able to demonstrate how these vast 
networks operate in the United States are Project Reckoning--
along with our Mexican counterparts, the DEA and the 
interagency made over 600 arrests. That was back in September. 
And then more recently under Operation Xcellerator, there were 
about 700 arrests and millions upon millions of dollars seized. 
Most of the people that were arrested in both of those 
operations were the domestic networks of the Mexican drug 
trafficking organizations.
    Now, there were some folks arrested in Mexico as well as a 
result of the extensive collaboration with the Mexican 
Government, but we are able to demonstrate how the Mexican 
cartels are operating in Mexico and then how their distribution 
networks are operating in the United States. Again, I would 
submit that Operation Xcellerator and Project Reckoning were 
two perfect examples of how we were able to disrupt and 
dismantle Mexican drug trafficking organizations on both sides 
of the border.
    The Chairman. I am going to turn to Senator Barrasso, but 
what is your greatest frustration now? You are a law 
enforcement officer. You are struggling to make this work. What 
do you say when you wake up in the morning? God, I wish we 
could do this or I wish we had more of this or this is 
frustrating me because we actually get in our own way. What are 
the things we have to do to make this work more effectively so 
citizens on both sides of the border can feel more confident 
that we are on top of it?
    Mr. Arabit. Sir, I think the first thing we have to do is 
that we have to manage our expectations with respect to Mexico. 
Mexico right now is in a national security crisis, and they are 
in the process of trying to take that crisis and transform it, 
if you will, into a traditional law enforcement situation where 
law enforcement can deal with it. So I think that we have to be 
patient with the Mexican Government. I think that we have to 
stand by them as they make this transformation.
    With respect to what we can use more of, obviously, vetted 
units and better trained Mexican police would be something that 
would certainly enhance how we do our jobs. And I know that the 
Merida Initiative addresses those particular points.
    The Chairman. I will come back to that. I want to follow up 
on that in a minute.
    Mr. Esparza.
    Mr. Esparza. I do not get that question asked very often, 
and I am very glad that you asked me that.
    I can tell you that on this side of the border, obviously, 
as a State official, my jurisdiction ends at the river. But one 
of the busiest Federal courthouses in the country is in this 
city. You have four Federal judges, but it has three additional 
judges just recently. Forever, you had one Federal judge here 
handling the volume of work, and we have a judge now taking 
senior status. So hopefully, that position will be filled soon.
    I can tell you that we have a very good partnership between 
the Federal prosecutors and my office. The problem is that that 
responsibility on the border is a Federal responsibility, and 
we are glad to be partners in that effort. We gladly take cases 
that the Federal prosecutors are unable to handle due to volume 
or because the threshold level is low, and thus we take those 
cases.
    Congressman Reyes has been extremely helpful and Senator 
Hutchison was extremely helpful in gaining money so that we 
could keep that partnership, that relationship going. I think 
that needs to be relooked at because the amount of money--the 
fund, I believe, is at $30 million, which frankly is, I think, 
a drop in the bucket. But that allows Federal prosecutors to 
send State prosecutor cases that are lower, not as serious, and 
allow the Federal prosecutors to handle really the more complex 
cases. And I am hoping that you take a look at that initiative, 
which allows us to keep that partnership going because the 
Federal prosecutors ought to be handling those complex cases.
    The Chairman. Well, I can promise you we will do that, and 
it is important. But certainly, part of my reaction to that is, 
that is shutting the door after the horses are out. It is good 
to prosecute and I think it is very important for the system. I 
believe this as a former prosecutor and lawyer. You have got to 
have deterrence and that comes by enforcing the law. And people 
have to know there is a consequence. So it is very important.
    But we need to do a better job on the upfront, earlier law 
enforcement pieces of this with both the interdiction and the 
prevention of it flowing and reduction in the cartels' ability 
to traffic. And we need to talk about that a little more.
    Senator Barrasso.
    Senator Barrasso. Thank you.
    Following to the district attorney, 16 years you said. You 
have obviously done a great job keeping this community and El 
Paso safe. You know district attorneys around the State from 
your friendship over the years. You go to meetings around the 
State and around the country. What about spillover violence in 
other communities that are not right on the border? If you talk 
to your colleagues from other communities, what are they seeing 
related to this, as you hear about this cartel and this network 
and this pipeline that is now spreading out all across the 
Nation?
    Mr. Esparza. Senator, I am the former president of the 
statewide Association of Prosecutors, and I know my border 
colleagues from Brownsville to El Paso very well. I recently 
was in Austin with them and others. We are not seeing the 
violence increase that, frankly, I hear on the national TV. 
What I reported to you on El Paso I believe the prosecutor in 
Laredo would say the same thing and in Brownsville would say 
the same thing. And when you look further up in Austin, 
Houston, and Dallas, I do not hear their numbers increasing at 
a rate that you would say is comparable to what is happening in 
Mexico in Juarez.
    Senator Barrasso. I do not think you are going to see 
anything comparable to what is happening in Mexico. I just 
wondered, are they seeing their numbers up, though, as you look 
at----
    Mr. Esparza. They are not seeing their numbers up, which is 
only several weeks ago when we met as a group and this topic 
came up. Their numbers are not going up.
    Senator Barrasso. Mr. McMahon, you talked about the Project 
Gunrunner and the 12,000 firearms. You also talked about trace 
data. Is Mexico sharing with you the information that you need 
on trace data to help give you additional information? Are you 
getting everything you need there?
    Mr. McMahon. Well, that is something we are definitely 
working on. We know we are not getting access to all of the 
firearms that are recovered down there, and we know it is 
important. Gunrunner is an intelligence-driven investigative 
tool. Tracing is a big part of that. We had a big seizure in 
Reynosa recently where we had access within a couple of days, 
and we were able to put leads together of guns that were within 
a month being purchased in the United States and then being 
recovered in Reynosa. So the quicker we have access to the 
recoveries in Mexico, the quicker we can put investigations 
together here in the United States.
    Senator Barrasso. What suggestions would you have in terms 
of the border heading south with the guns? Obviously, people 
trying to traffic these are sophisticated. You come up with a 
technique to detect, and then they can come up with a technique 
to try to circumvent, whether it is an extra gas tank under the 
truck which is loaded with 40 or 50 firearms. What 
recommendations do you have for us when we try to look at ways 
to police the border heading south?
    Mr. McMahon. Obviously, more southbound inspections will 
help a great deal. What we are seeing is you do not see large 
shipments of firearms being secreted in a tractor-trailer, let 
us say. You are seeing what we call in-trafficking where you 
might have one or two individuals with one or two firearms on 
them sneaking across the border that way. But I think 
southbound inspections would help a great deal.
    Senator Barrasso. It seems, at least from what I have been 
able to see, that the movement of the drugs and individuals is 
coming up not through the border checks but cross-country, 
whereas the movement of money and drugs heading south is going 
right across through the regular highways. Is that your 
impression?
    Mr. McMahon. That is what we are seeing. That is exactly 
what we are seeing.
    Senator Barrasso. So if they did more to slow things down 
at the border crossings, that may just move that problem more 
to the open fields, but it is a smaller number of weapons and 
bundled cash that would move.
    Mr. McMahon. Yes, it could. I know ATF's focus is more--we 
try to make our case before they even get to the border, but we 
have been pretty successful. But yes, I think the tighter you 
put on the roads, yes, it could spread out to other parts 
because, obviously, it is a large border.
    Senator Barrasso. From the DEA standpoint, you talked about 
the violence within a cartel, as you said, as arrests are being 
made. So has it been a struggle or a fight within the cartel 
for leadership of that cartel and for the profits? That is No. 
1?
    Mr. Arabit. Yes, sir. That is correct.
    Senator Barrasso. And then cartel versus cartel, looking to 
control some of the pathways, if you will, or the ways that 
people who move the drugs into this country, so you have fights 
there. And then the cartels versus the country of Mexico.
    Mr. Arabit. Yes, sir. That is correct.
    Senator Barrasso. How large are the troops? I mean, I heard 
numbers yesterday going as high as cartels having 50,000 armed 
soldiers working for the cartel. Is that a real number? Is 
there some kind of a number that you would put on it? How big 
is the army, if you will, of the cartel that is fighting the 
Mexican Army--the major cartels?
    Mr. Arabit. The numbers are in the thousands, sir. It would 
be very, very difficult to say whether it is 10,000, 20,000, or 
30,000, but I think it is safe to say the numbers are in the 
thousands.
    Senator Barrasso. And they are well-armed with things that 
you do not necessarily just find. I mean, we hear these numbers 
of the number of guns coming from the United States into 
Mexico, but from what I have been reading of some of the things 
they are armed with, those are things you get from an 
international arms dealer maybe coming from Korea, coming from 
Israel, Russia, wherever that are not things that are 
necessarily going across from the United States. Are you seeing 
some of that in the interactions in the cartel versus the 
country of Mexico military violence?
    Mr. Arabit. Yes, sir. We are seeing that they are using 
military-grade weapons.
    Senator Barrasso. And then that is made possible by the 
money heading south?
    Mr. Arabit. Yes, sir. We believe so.
    Senator Barrasso. The Governor of Texas has asked for 1,000 
troops to be sent in terms of the National Guard. Is that the 
right number or is it the wrong number? How do you determine 
what kind of additional help you need to be able to continue 
with the success that you have been able to generate over the 
last 2 years?
    Because it seems that you need to actually interrupt the 
drug trafficking organization. If you cannot take down the 
network, if they are not moving drugs which, as you said, are 
now less pure and higher money, which shows that you are 
interrupting that flow, are those same kind of bad guys not 
heading into the kidnapping, holding people for ransom, 
extortion of businesses in Mexico, holding up those folks 
because they are going to go to try to get money illegally. If 
they cannot do it in drugs, they are going to try for something 
else.
    Mr. Arabit. Well, many of these armed gangs--they are very 
opportunistic. If they see an opportunity to kidnap someone, 
rob someone, they will do that. That is a small percentage of 
the havoc that they wreak in Mexico, but they do that because 
they are very opportunistic.
    Senator Barrasso. And then what about the total number of 
additional--the manpower that the Governor has asked about?
    Mr. Arabit. Sir, I do not know that we are there yet at 
this point. I can tell you that in El Paso the numbers are very 
telling. There has been approximately 413 murders in Juarez for 
this year, and there have been 2 in El Paso. And so I think it 
is safe to say that right now the violence has not spilled 
over.
    Senator Barrasso. Do either of you want to comment on any 
of those?
    Mr. Esparza. I actually agree. I do not believe we have 
reached the point where the National Guard is necessary.
    I frankly think that the smart approach is that we have a 
coordinated response like we have had over the years. We have 
been fighting this drug battle for many years. HIDTA is a well-
developed, coordinated system so that we can attack the drugs 
and interdict the drugs coming into the country. And I would 
make sure, with the use of EPIC, the intelligence that we get 
from EPIC, and the operational intelligence that we gather from 
HIDTA, and the coordinated efforts of the Federal, local, and 
State agencies, I think that effort has had a real effect in 
keeping the violence from spilling over. And I would continue 
to fund that effort before we got to the extreme measure of 
bringing the military to the border.
    Senator Barrasso. Mr. McMahon, anything else to add on 
that?
    Mr. McMahon. No, sir.
    Senator Barrasso. Mr. Chairman, I would just ask unanimous 
consent that statements both from Senator Cornyn, as well as 
from Sheriff West, be included in the record.
    The Chairman. Absolutely. Without objection, they will be.

[Editor's note.--The statements for the record of Senator 
Cornyn and Sheriff West were never submitted to the committee 
and therefore could not be included in this printed hearing.]

    The Chairman. Senator Wicker.
    Senator Wicker. Thank you and thanks to all three of you.
    First to Mr. Esparza, you have been district attorney for 
how long?
    Mr. Esparza. I am in my 17th year.
    Senator Wicker. Great. OK.
    And I think your testimony, if I could summarize, is that 
there has always been drug-related violence across the border 
in Mexico.
    Mr. Esparza. I believe that to be true, yes, Senator.
    Senator Wicker. And that you have never seen it as bad as 
you did in 2008.
    Mr. Esparza. That is true.
    Senator Wicker. But that it has gotten a little better 
recently. Is that also your testimony?
    Mr. Esparza. That is true.
    Senator Wicker. Could you sort of explain what you mean 
there? When did you notice that it was better?
    Mr. Esparza. Well, just within the month. When the troops 
came in, when President Calderon sent the troops to Juarez, and 
the number of troops that came--I am certainly not privy to the 
effort that they have ongoing in Juarez, but I can tell you, 
just if you look at the numbers, the number of killings has 
dropped dramatically. And so as a result, we now see some 
progress in trying to reduce the violence in Juarez.
    Senator Wicker. So the article that I quoted from, ``Hopes 
Rise as Violence Recedes''--the quote from Mr. Raul Martinez 
Soto is relatively accurate in your opinion.
    Mr. Esparza. I think it is accurate. I think the caption is 
more accurate. I think hopes do rise, but I think the long-term 
effect of the decrease in violence is a story still to be told.
    Senator Wicker. Right, and that is where we hope to help.
    And then also, with regard to spillover violence, we have 
not seen it in El Paso, and from your conversations and the 
statistics that you have seen from your colleagues in Texas, 
there has not been one bit of increase of spillover violence 
anywhere in Texas.
    Mr. Esparza. I can tell you that along the southern border, 
Brownsville to El Paso, we have not seen the spillover 
violence. And that was a really good question. I do not, from 
my colleagues around the State, see any indication that the 
violence has increased as a result of the violence between the 
cartels.
    Senator Wicker. And your principal request of us, from the 
Congress, at this point is that there is a partnership program 
which Senator Hutchison and Mr. Reyes have helped fund, and you 
believe some additional funds for that partnership program 
would be your No. 1 request of this panel today.
    Mr. Esparza. Actually, I have two requests. I think that 
the coordinated effort that happens through HIDTAs--there are 
many HIDTAs throughout the country. There is one in Houston. 
There is the Southwest border HIDTA which El Paso belongs to. 
The effort along the southern border--that effort I think is a 
well-coordinated effort. It has history. It has discipline. 
There are protocols on how we spend money, making sure it is 
budgeted and people are accountable for what they do. And I 
think that program should be looked at as one way to continue 
the fight and to protect us.
    And I also think there should be--my other request is the 
initiative that allows Federal prosecutors really to work on 
those crimes that require long-term investigations. As State 
prosecutors, we do not really have the tools available to us to 
do that. And I think a better partnership would allow them to 
do more in that area.
    Senator Wicker. What do you say to people who are looking 
to visit Ciudad Juarez? What do you say to potential tourists?
    Mr. Esparza. Unfortunately, today I would say you need to 
be careful. We see our tourist dollars here in El Paso dropping 
as a result of the violence. I also think the rhetoric has been 
escalated and exaggerated to the point that it is not really 
true. I mean, I can tell you, as you sit here, you are safe. If 
you go to visit Juarez this afternoon, I think you should be 
careful. Violence has occurred. I think you have to be smart 
about where you go and what you choose to do. But we are safe 
here in El Paso. It is a safe city, and we are hoping Juarez 
will get back to that.
    Senator Wicker. And you are not asking that the U.S. 
Congress act to bring the National Guard into this area of 
Texas.
    Mr. Esparza. I do not think that bringing the military to 
the border is actually the solution at this time. Maybe if 
things were to break down and we see a radical change, I would 
tell you differently, but based on our history, based on our 
numbers, knowing the violence that occurs on this side versus 
in Juarez, I think bringing the military one, would be unsafe. 
What a soldier does is different than what a police officer 
does or a Federal agent does, and I think bringing that 
combination to the border I think would actually make things 
more dangerous at this time.
    Senator Wicker. It would make it more dangerous.
    And I have not heard you advocate additional gun control 
laws in the United States. Do you have an opinion about that?
    Mr. Esparza. Well, I think that the inspections of vehicles 
going south into Mexico--that is an effort that I think we 
should proceed on. We need to actually expand that effort and 
make sure that we do our part because we see not only weapons 
going south, we also see money going south. And checkpoints--if 
we were to stop the traffic going south, if we were to examine 
that, I think that would help Mexico's effort in their fight 
against the drug cartels.
    Senator Wicker. OK, inspections at the border. But I do not 
hear you advocating additional gun control laws on U.S. 
citizens inside the United States.
    Mr. Esparza. You do not.
    Senator Wicker. The other two witnesses can jump in if they 
would like, but let me ask Mr. Arabit and Mr. McMahon. The 
chairman has mentioned this treaty and the ranking member in 
his prepared statement, which was not read in its entirety, 
also shares that opinion. Mr. Lugar says we should consider 
ratifying during this Congress the Inter-American Convention 
Against Illegal Manufacturing and Trafficking of Firearms, 
Ammunition, Explosives, and Other Related Material, which is a 
mighty long name for a treaty. They are calling it the CIFTA 
Treaty.
    The chairman and the ranking member have considered this 
for years. People will tell you that the NRA was at the table 
when this treaty was negotiated and signed by the United 
States. That is, the officials of the National Rifle 
Association. And yet, for whatever reason, we have not ratified 
this.
    You may not be here able to advocate. I do not mind if you 
do. But we are a signatory to this treaty already. Would there 
be any practical effect for how you two gentlemen do your job 
if we went ahead and ratified this treaty, or are we already 
abiding by the terms as a signatory? Either one of you can jump 
in there.
    Mr. McMahon. Well, ATF has worked very closely with the 
State Department on this treaty. We are already in compliance 
with it. We mark our firearms and that helps us trace firearms. 
Obviously, if other countries were to mark their firearms the 
same way, it would help us to trace them even better.
    Senator Wicker. But what you do would not change in any 
respect.
    Mr. McMahon. No, it would not, sir.
    Senator Wicker. Mr. Arabit, is that correct?
    Mr. Arabit. Sir, I do not know much about the treaty, so I 
just would not be qualified to answer that.
    Senator Wicker. OK. Mr. Arabit, let me ask you what you are 
qualified to tell me then. You say there is less illicit drug 
volume overall in the United States today. Is that correct?
    Mr. Arabit. Yes, sir. What I said, sir, is that the price 
of cocaine is up and the purity is down, and that is----
    Senator Wicker. When the price is up, it is harder for 
Americans to buy it and fewer purchase it. Is that correct?
    Mr. Arabit. That is correct, sir.
    Senator Wicker. And what is the effect of the purity being 
down?
    Mr. Arabit. What the purity being down signals is just the 
cocaine's availability on the streets of the United States, and 
to some degree in Mexico. For example, a couple weeks ago, 
there was a search warrant executed in Ciudad Juarez where the 
police found--I do not want to call it a laboratory, but they 
found a room where cocaine was being repackaged. It was being 
diluted with some vitamins in order to repackage it and resell 
it. And that is an indicator of the availability being down, 
and I think it is real important to note that, along with the 
price increase and the purity reduction.
    Senator Wicker. That is in Juarez itself.
    But the reason I am asking about availability inside the 
United States, as a whole is there this sort of feeling among 
many Americans that, OK, we may stop it in Colombia or we may 
stop it from Mexico, but it is going to come in from somewhere, 
and so we just should throw our arms up in resignation. But 
what I am hearing you say is that from all sources inside the 
United States, drug volume is down. Therefore, the price is up. 
Therefore, it is harder to get, and the quality is not as good. 
Therefore, it is not as desirable for Americans who might want 
to experiment with this to do so. Is that your testimony?
    Mr. Arabit. Yes, sir. That is accurate.
    Senator Wicker. And so we must be doing something right in 
our overall international drug control policy, and to that 
extent, the Federal officials such as you and Mr. McMahon 
should be commended for that.
    Is it fair to say that there are fewer drug users in the 
United States today than in recent years?
    Mr. Arabit. I believe in certain categories, sir, in 
certain drugs, that would be accurate. But I do not have that 
specific data in front of me now, but I could certainly provide 
that for the record.
    Senator Wicker. OK, please do that.
    And then finally, any of the three of you, why have there 
been no massive refugee flows, and because there have not been, 
can we feel relatively confident that there is unlikely to be 
huge refugee flows because of the drug violence situation 
across the border?
    Mr. Esparza. I do not really know the answer to that, but I 
am glad you asked the question because, as I monitor what the 
national news is saying--and we recently had a visit from an 
expert who said that the Mexican Government was a failed 
government and that soon there would be mass emigration. We 
have not seen that. Now, that probably has to do a lot with the 
economics and the stability of Mexico, and it may have 
something to do with what we do in protecting the southern 
border. But the reality is that--I am certainly not the person 
smart enough to tell you that answer other than we are not 
seeing it.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Let me follow up a little bit on a couple of those tracks, 
if I can, because I think it is important to try to clarify the 
record a little bit.
    Mr. Arabit, I trust you are qualified as DEA Chief down 
here to have a sense of the trend patterns. But it is my 
understanding, having followed this, as I said, since the 1970s 
when I started a task force and used to prosecute it, that we 
have seen fluctuations in price. Sometimes it is up; sometimes 
it is down. But as a general rule, over the last 35 years, we 
have seen a continued flow of demand and a continued flow of 
narcotics coming into the country. Is that accurate?
    Mr. Arabit. That is accurate, yes, sir.
    The Chairman. And the price may be down a little bit right 
now because there is a small interruption, et cetera, but they 
have usually found a way to meet the demand at some point.
    Mr. Arabit. That is accurate, yes, sir.
    The Chairman. Furthermore, the supply of heroin is at an 
all-time high on the streets of the United States, and it is 
very cheap. Is it not?
    Mr. Arabit. That is correct, sir.
    The Chairman. Methamphetamine usage among our young people 
is at record-high levels, and meth labs across many parts of 
our country are still being uncovered, discovered, and 
prosecuted.
    Mr. Arabit. Meth use is high, sir. Meth labs are being 
discovered, but there is a lot less meth labs being discovered 
today than there were, say, 2 years ago.
    The Chairman. Agreed. And that is partly because other 
drugs have been available and people are moving into various 
usages, including marijuana. I mean, there are various things 
available.
    Mr. Arabit. Yes, sir.
    The Chairman. I think the DEA would say at a national level 
that drug use as a whole in the United States has not abated in 
any kind of significant manner. In fact, it is up because the 
population is higher.
    Mr. Arabit. That is correct, sir.
    The Chairman. So here we are at 30 years later, 35 years 
later after we are all sort of struggling with this issue--and 
I am asking this--again, I have always been troubled that we 
have had the rhetoric of the war on drugs and we have not 
really had the resources and commitment to a, ``comprehensive, 
legitimate war on drugs.''
    I mean, just last year I tried to add an additional 1,000 
border agents here. For various reasons, that particular 
legislation was blocked. But I think most of us know we do not 
have enough people on the border. Is that not accurate? Do you 
want to speak to that, both of you?
    Mr. Arabit. Yes, sir. That is accurate.
    Mr. McMahon. Yes, sir.
    The Chairman. So we have got a problem, but we are not 
addressing it fully. We are doing it sort of piecemeal, a 
little bit here, a little bit there. But if this is a war and 
if it has all the implications that we say it does, it seems to 
me we have never stepped up, either party, either 
administration, no matter who it is. This is not partisan. We 
just, as a country, never made a full commitment.
    Do you want to speak to that? I mean, you must have some 
resource frustrations in your jobs.
    Mr. McMahon. Sir, for ATF, I know for 10 years, we have 
been the same size as we are now. Over the past 3 years, we 
have doubled our agent population and tripled our investigator 
population along the border out of our own budget. It is a 
flat-line budget.
    The Chairman. So what has suffered to do that?
    Mr. McMahon. Well, obviously, we are pulling resources from 
other parts of the country that, obviously, are in need of them 
as well.
    This year is the first time that we have actually gotten 
some direct funding for our Gunrunner initiative. We received 
$10 million in the stimulus money to open up three new offices 
along the border, plus four new positions in Mexico, and then 
we also received another $5 million in our 2009 budget for two 
additional groups, one in Phoenix and one in Houston, to focus 
on gunrunning.
    The Chairman. Mr. Arabit.
    Mr. Arabit. Sir, with respect to DEA's situation, in the 
2009 budget, we received four mobile enforcement teams 
comprised of eight agents per team. We are going to place those 
teams in El Paso, in Phoenix, in Chicago, and in Atlanta; 
Chicago and Atlanta because they have such a connection to drug 
trafficking organizations in Mexico.
    We also have an additional 16 positions that are under 
consideration right now in terms of where they are going to be 
placed along the Southwest border, but they will be placed 
along the Southwest border.
    So we are getting a plus-up on resources. We will be 
looking to do the same thing in 2010 with your support.
    The Chairman. Well, if I were in the business of trying to 
move that stuff from another country, I would sort of be 
laughing at our efforts, to some degree, because they have got 
to know that they can find the weapons, they can terrorize 
people. They are moving with a relative level of impunity, and 
it is worth the price. Some of the lower levels get caught, you 
know, the mules, the folks that they hire to do the border 
crossing and so forth. They do not care about them. And then 
they find five other ways to bring the load in. Is that not the 
way it works?
    Mr. Arabit. Yes, sir, to some degree, it does work that 
way.
    The Chairman. So in your judgment, Mr. District Attorney 
and Mr. Arabit, what would make you feel like, wow, we are 
really going at this?
    Now, it seems to me we have got to do more on the Mexican 
side, and not just Mexico, Central America, Colombia. Plan 
Colombia is doing pretty well. President Uribe has also been 
very courageous, and Colombia has taken them head on and I 
think we have made a little progress there. But we still have a 
distance to go.
    Do we need to do more intertraining? Do we need to do more 
joint operations? Do we need to do better intelligence-sharing? 
It seems to me there is a lot of buildup here yet to be done.
    Mr. Esparza. Well, Senator, I do think you are right that 
the effort requires many more resources and it takes a 
coordinated effort. I also think that when you send Federal 
agents down to the southern border, you need to send the full 
complement, which means an agent comes with whatever staff it 
requires for them to completely do their job and not just 
Federal agents.
    I also think that if we are--as you say, the challenge and 
the struggle has been ongoing for many years and as a result, 
we have to continue the education and we have to be smart about 
whether or not we are going to spend money in the drug 
treatment area, an area that I think is lacking when the 
Federal Government decides to spend money on the drug war.
    I mean, for instance, you have a real success in those drug 
courts. We have a drug court here in El Paso in the State 
court. Those drug courts are an excellent program. The Federal 
Government has done--I can tell you the one in El Paso has been 
well trained, and their success is documented. And somebody 
watches exactly what that judge does and what that team does in 
order to make sure we have some success in the drug treatment 
area. And I think we are going to have to spend more in that 
area.
    The Chairman. I appreciate that.
    Congressman, you wanted to just make a comment?
    Mr. Reyes. Yes, Mr. Chairman. Again, thank you for bringing 
this hearing here because you get an opportunity to hear from 
the experts here, and I think you know that before coming to 
Congress, I spent 26\1/2\ years on border enforcement in the 
Border Patrol.
    The comment I wanted to make was it is important to 
separate facts from fiction. Over the course of my tenure as 
the chairman of the Intelligence Committee, we have 
investigated a number of reports that have been debunked, that 
there were al-Qaeda training camps in the northern part of 
Mexico. That was debunked. That there were military groups that 
were actively smuggling north into our country. That was also 
debunked.
    I think when we hear figures like the drug cartels have 
armies of 50,000, that to me is an incredible statement to make 
and one that I think will be easily refuted.
    When we talk about Mexico being potentially a failed state, 
that has huge implications not just as a trade partner, but for 
the rest of the world as well.
    When we are talking about the interdictions and the price 
of narcotics on the street, there are a couple of things that 
we have to remember. One, President Uribe from Colombia has 
done a great job in taking on the FARC and putting pressure 
there, and second, President Calderon with his efforts against 
the cartels.
    The Governor of Texas asked for 1,000 troops. We met with 
him in Washington, DC, and I asked him, What are you going to 
do with those thousand troops? He did not know. He just wanted 
to have a request out there for 1,000 troops. First of all, 
troops are very expensive. Second, they bring along 
consequences because they are trained for combat, not for law-
enforcement-type duty. And we should not put them in that 
position.
    Finally, when we hear the experts here, which they have 
been asked repeatedly about not only troops on the border, but 
what is the ultimate solution, we need to remember that to be 
successful, not only do we need to focus on resources, which we 
have not--and you are right--anybody that is in that business 
looking at us with the capability to spend almost $700 billion 
in Iraq and Afghanistan and helping Mexico with $1.4 billion--
that sends a very bad message about our seriousness to help our 
second market and third trade partner.
    So the solution is to look at it as a three-legged stool. 
Do enforcement, which we all agree we need to focus on. 
Education and treatment. And that is why you bringing this 
hearing here to El Paso is so valuable. So thank you once 
again.
    The Chairman. Thank you very much, Congressman.
    We are going to wrap up this panel and move to the next 
panel in a minute. But I am going to come back to a couple more 
questions from colleagues and just finish up one thing.
    What kind of guns are you tracking and finding that have 
been illegally taken over to Mexico?
    Mr. McMahon. Sure, Senator. The weapons of choice that we 
are finding for the drug traffickers are your high-caliber, 
high-capacity rifles, semiautomatic rifles, as well as your 
high-caliber, high-capacity handguns, your AK-47 variants, your 
AR-15 variant rifle.
    The Chairman. Those are what we call assault weapons. Are 
they not military weapons basically?
    Mr. McMahon. They are semiautomatic rifles that resemble 
the AK-47 and the M-16, yes, as well as your high-capacity 
handguns, the 5.7 millimeter, the .40 caliber to .45 caliber.
    The Chairman. And they are being sold by--are they sold 
under the table or by dealers?
    Mr. McMahon. We are seeing a variety. Obviously, we have 
almost 60,000 Federal firearms licensees across the country. 
The majority of the guns that were being trafficked into Mexico 
are by straw purchasers, individuals with a clean record that 
will walk into a----
    The Chairman. You are not seeing bulk? You do not see bulk 
transfers?
    Mr. McMahon. No. Our investigations reveal, as I said in my 
testimony, that over a period of time, an individual will maybe 
buy 50, 60, maybe up to 100 firearms, get them across the 
border.
    The Chairman. One individual.
    Mr. McMahon. One individual.
    Obviously, if we uncover a corrupt dealer which, as I said, 
in Phoenix--they have access to a large number of firearms, and 
they can put a lot of guns on the street in a very short time. 
But we are seeing, as I said, straw purchasers come in buying 
two or three guns at a time, maybe three or four of those, and 
then trafficking them that way.
    The Chairman. Senator Wicker.
    Senator Wicker. Well, I am just not sure, Mr. Chairman, if 
Mr. Arabit and Mr. McMahon had a chance to answer a very 
important question that you asked at the very end of your 
followup, and that is this, that the chairman suggested that 
maybe the people were fighting in these cartels or sort of 
laughing at us because we are not serious. And as I understood 
the question, what--and I know you cannot speak for the 
Department. So I think we are asking you yourselves--and you 
might want to think about this and put it on the record.
    But what Federal action by the House and Senate would make 
you say now they are getting it right this time? They really 
are serious. Wow, they are giving us what we need.
    Mr. McMahon. As I said earlier, we did recently receive 
some funds this year for the first time in quite a long time 
directly at our Gunrunner initiative. That is key.
    As I said earlier, we doubled our agent population and 
tripled our IOI population along the border over 3 years, but 
we are still talking 148 agents and 59 IOIs.
    The Chairman. What does the agency demand? What has been 
asked for? Have you gotten what has been asked for?
    Mr. McMahon. I know in different hearings they have asked 
for an additional 1,000 agents and additional 400 IOIs.
    The Chairman. And that has not come through.
    Mr. McMahon. Not yet, sir, no.
    Mr. Arabit. Sir, simply stated, with additional resources, 
we can all do more. That is the bottom line with respect to 
that.
    One thing that I would stress just to sort of follow up on 
what Mr. Esparza said is just the coordination. Gosh, we can 
get so much done if there is interagency and international 
coordination. And as Mr. Esparza pointed out, we have the high-
intensity drug trafficking area task forces based throughout 
the country, and that is an outstanding venue for coordination. 
We also have the organized crime drug enforcement task force 
strike forces, and we have one here in El Paso. And that is 
also a perfect venue for coordination. We have got the entire 
interagency participating in that.
    With respect to our coordination with our Mexican 
counterparts, as I mentioned earlier, DEA has 100 people on the 
ground in Mexico. So we have been coordinating with the Mexican 
Government for decades. I would ask that the Merida Initiative 
be fully supported and that we get the money and the endgame 
tools that they need to them as quickly as possible. And 
specifically what I am referring to with regard to the endgame 
tools are the helicopters, the x-ray machines, you know, the 
pieces of equipment that are truly going to make a difference. 
The institution-building, the training for the police and the 
judicial reform and the training for the prosecutors. That is 
all in the works right now.
    So I think a couple years from now, we are going to see a 
totally different Mexico in terms of their judicial reform and 
their police agencies and services than we see today. And I 
would just ask the committee to continue to support that 
effort.
    The Chairman. Well, I am sure we will, and I appreciate 
your candor. I think it has been very helpful to have you sort 
of lay out what is real here and what we need to do.
    Just one final question. On the corruption issue within 
Mexico that we read about and hear about, are there specific 
things that we could do to help them with respect to that?
    Mr. Arabit. Sir, I think that Plan Merida specifically 
addresses that. As soon as President Calderon took over, he 
initiated a program called ``operacion limpieza,'' which 
translates into Operation Clean Sweep, and he went in and 
started doing a number of things to address corruption.
    The Chairman. He has changed a lot of personnel, has he 
not?
    Mr. Arabit. He absolutely has.
    The Chairman. He has moved a lot of people in and out.
    Mr. Arabit. He absolutely has, sir, and he has taken a very 
proactive approach in order to root out the corruption himself 
within his own government.
    The Chairman. Well, once again, I want to emphasize our 
respect for the efforts that President Calderon and others are 
undertaking. I know personally in Colombia, for instance, how 
really difficult it was for a government to stand up at the 
height of the power of the drug dealers and to take on FARC and 
the drug dealers simultaneously. It took a lot of courage. This 
is a place where one day, I think about nine or a significant 
number of members of their Supreme Court were all assassinated 
in one fell swoop. They have had unbelievable attacks on the 
institutions of government.
    So we need to stand with Mexico. We do stand with Mexico. 
There is more that we can do, and that is one of the reasons 
why we have come down here is to hear your firsthand testimony 
as to what would make a real difference.
    And we respect what you are doing in the field. We want to 
thank you and your officers, the people in the district 
attorney's office, the folks at ATF, and the folks at the DEA, 
particularly some of those agents who are working in 
cooperation in Mexico. That can be very, very dangerous duty, 
and we have great respect for their efforts. So thank you for 
being here today.
    And we will move, hopefully seamlessly, into the next 
panel, if the next panel could come forward. We are going to 
have an opportunity now to hear about the convention from one 
of the people who negotiated it, Hattie Babbitt, and other 
experts. We look forward to their testimony.
    While they come up, let me introduce them. Ambassador 
Hattie Babbitt was the U.S. Ambassador to the Organization of 
American States from 1993 to 1997, and she was our lead 
negotiator on the Inter-American Convention Against Illicit 
Arms Trafficking. And she and former OAS Assistant Secretary 
Luigi Einaudi organized an unprecedented bipartisan letter 
urging ratification of the convention, and we will put that 
letter in the record.
    The Chairman. Ricardo Garcia Carriles is a corporate 
security expert who served as head of the Public Security 
Secretariat in Juarez in 2005, and he also served as Internal 
Affairs Director for the city from 2001 and 2002 and then 2004-
05.
    Dr. Howard Campbell is an anthropology professor at UT here 
in El Paso who has done groundbreaking research into the impact 
of violence in Mexican cities.
    So we request again that you keep your opening comments, as 
the first panel did, to the time limit of 7 minutes, and then 
we will have a chance to ask some questions.
    Thank you very much for being here. Ambassador Babbitt, if 
you would lead off. Thank you so much.

    STATEMENT OF HON. HARRIET BABBITT, FORMER AMBASSADOR TO 
        ORGANIZATION OF AMERICAN STATES, WASHINGTON, DC

    Ambassador Babbitt. Thank you very much, Chairman Kerry, 
Senator Barrasso, Senator Wicker, Congressman Reyes. I am very 
pleased to have been asked today to testify about this treaty, 
and I welcome the opportunity for various reasons.
    I grew up on this border in Brownsville, TX. I went to 
college in Mexico, and I lived for 25 years in the border State 
of Arizona. As a teenager growing up in Brownsville, TX, guns 
to me meant the 20-gauge shotgun I used to go white-wing dove 
hunting with my father. It had none of the meanings of these 
high-caliber rifles and high-caliber arms that the preceding 
witnesses testified about, which are used by drug cartels to 
kill each other and terrorize border communities.
    My engagement with Mexico has continued all of my adult 
life. I serve as the special adviser to the United States-
Mexico Bar Association, and until recently I chaired the 
American Bar Association Rule of Law Committee with regard to 
Latin America and the Caribbean.
    Both the United States and Mexico are in need of enhanced 
mechanisms with which to face unprecedented levels of violence 
perpetrated with illegally obtained arms in the hands of 
organized criminal gangs. I am here today to urge the 
ratification of an important tool in our common fight. Senator 
Wicker is right. It has a very long title, and that is why we 
refer to it, as I will today, with the Spanish acronym of 
CIFTA.
    It was during the time that I was privileged to serve as 
the United States Ambassador to the Organization of American 
States that this treaty was negotiated and signed. The treaty 
was signed by 33 countries in the hemisphere and ratified by 
29. The United States was one of the original signers in 1997.
    In the mid-1990s, the member countries of the OAS developed 
a consensus about the need for additional hemispheric tools to 
combat crime, corruption, narcotrafficking, and the illicit 
trafficking of firearms. Following a conversation between the 
then-President Zedillo of Mexico and President Clinton, the 
United States and Mexico together entered into a multilateral 
negotiation which resulted in the treaty that we now know as 
CIFTA.
    There were three major principles advocated by the United 
States negotiating team in the course of the negotiations which 
became embodied in CIFTA.
    The first principle was that every country should mark for 
identification all weapons at the time of manufacture and at 
the time of import from another country.
    The second principle was that every exported weapon had to 
be legal in the place of origin, legal in the places of 
transit, and legal in the recipient country to lawfully cross 
borders.
    And the third principle was that every country had a 
responsibility to help other cooperating countries in 
investigating the violations of firearms laws of those 
countries.
    The United States had long had in place systems under our 
national law which embodied each of these three principles.
    The U.S. negotiating team stood firmly for the principle 
that each country has the sovereign right to enact its own 
domestic laws and regulations, but that every country should 
help others in enforcing the laws against criminals who violate 
their laws. What CIFTA did was to bring on board the other 
countries in the hemisphere to the same approach, making 
possible a new level of cooperation.
    When we entered into these negotiations, we understood that 
the convention would affect a broad range of interests in the 
United States, and accordingly we put together an interagency 
negotiating team which included the Department of Justice, 
including the FBI and the DEA, representatives of Treasury, 
including the Secret Service and ATF--the ATF witness just 
testified about the impact at a certain level of this--which 
included U.S. intelligence and national security agencies and 
included diplomats and lawyers of the Department of State.
    The administration also understood that this treaty would 
be of interest to various domestic interests, and we were 
instructed to consult widely with affected domestic interests. 
We had consultations with Congress and outreach was undertaken 
with the National Rifle Association.
    The NRA had very strong views on the negotiation of the 
convention and took the position that no international 
instrument should require the United States to change its laws 
regarding the ownership or sale of firearms. And this is a 
sentence I would like to underscore here. U.S. officials 
involved in the negotiations strongly agreed.
    In the course of the negotiations, representatives of the 
NRA were repeatedly consulted and repeatedly confirmed that 
CIFTA commitments did not violate any of the NRA's own core 
principles.
    As Senator Kerry has pointed out, there is a consensus 
among those involved with both diplomacy and with regard to 
security in the hemisphere that this is a very important time 
for the ratification of CIFTA. CIFTA sets consistent standards 
for the hemisphere--those are U.S. standards that it sets--the 
implementation of which will be extremely helpful in tracking 
weapons and illicitly diverted shipments. Greater cooperation 
in the hemisphere is something which is sorely needed and is 
the bottom line, in effect, of CIFTA.
    The convention is a convention, but it will complement the 
very important commitment and resources approved by Congress 
last year under the Merida Initiative.
    Just 2 weeks ago, a letter with 27 signatures urging 
ratification of CIFTA was delivered to you, Senator Kerry, and 
to Senator Lugar. With the exception of one Assistant Secretary 
currently back in Government service, the signatories include 
all former Assistant Secretaries of State for the Western 
Hemisphere since 1976, nearly all the Ambassadors to the OAS 
since 1989, all Chairmen of the Inter-American Defense Board 
since 1989, and two-thirds of the commanders of SOUTHCOM, the 
U.S. Southern Command, since 1983. Mr. Chairman, it is not a 
common occurrence to have such letters signed by so many 
civilian and military officials with such an extraordinary 
depth of experience.
    Ratification now will signal to President Calderon and to 
the Mexican people that this new Congress and this new 
President are committed to cooperating with the fight against 
organized crime and the related violence in a very concrete 
way. It would also enable both countries to send an important 
message of this commitment at various upcoming hemispheric 
meetings.
    I thank you for inviting me to be part of this hearing 
today, and I would be pleased to respond to any questions that 
you have.
    [The prepared statement of Ambassador Babbitt follows:]

  Prepared Statement of Hon. Harriet C. Babbitt, Former Ambassador to 
            Organization of American States, Washington, DC

    Chairman Kerry, Senator Corker, members of the committee, 
Congressman Reyes, I am pleased to have been asked to testify today on 
the Inter-American Convention on the Illicit Trafficking in Firearms. I 
welcome the opportunity for various reasons.
    I grew up on the border in Brownsville, Texas; I went to college in 
Mexico; and lived for 25 years in the border State of Arizona. As a 
teenager growing up in Brownsville, ``guns'' meant the 20-gauge shotgun 
I used to hunt white wing doves with my father, not the massive 
arsenals of illegal heavy weapons used by drug cartels to kill each 
other and terrorize communities all along the border.
    My engagement with Mexico has continued throughout my adult life: I 
have traveled regularly to Mexico professionally, both as a diplomat 
during my time at the Department of State and at USAID, and more 
recently in a nongovernmental capacity.
    I currently serve as a special advisor to the United States-Mexico 
Bar Association and until recently chaired the American Bar 
Association's Latin America rule of law program.
    Both the United States and Mexico are in need of enhanced 
mechanisms with which to face unprecedented levels of violence 
perpetrated with illegally obtained arms in the hands of Mexican drug 
cartels and organized criminal gangs.
    I am here today to urge ratification by the Senate of what can be 
an important tool in our common fight, the Inter-American Convention 
against the Illicit Manufacturing of and Trafficking in Firearms, 
Ammunition, Explosives, and Other Related Materials. This convention is 
commonly referred to by its Spanish acronym, CIFTA, and I will refer to 
it as CIFTA today.
    It was during the time that I was privileged to serve as the United 
States Ambassador to the Organization of American States that CIFTA was 
conceived, negotiated, and signed. The Convention has been signed by 33 
countries in the hemisphere and ratified by 29. The United States was 
one of the original signers in 1997.
    In the mid-1990s, member countries of the OAS developed a consensus 
about the need for new hemispheric tools to combat crime, corruption, 
narcotrafficking and the illicit trafficking of arms. Following a 
conversation between President Clinton and Mexico's President Zedillo, 
the U.S. and Mexico entered into the multilateral negotiations which 
lead to the agreement now known as CIFTA. Three major principles 
advocated by the United States interagency team charged with the 
negotiation became embodied in CIFTA.
                  the three major principles of cifta
    First, the principle that every country should mark for 
identification all weapons at the time of manufacture and at the time 
of export to another country.
    Second, the principle that every country put into place a system to 
ensure that no weapons be exported, transited, or imported to that 
country if such export, transit, or import is in violation of any the 
laws of the countries involved. A weapon had to be legal in its place 
of origin, legal in the transit countries, and legal in the recipient 
country to lawfully cross those borders. Thus, each country signing 
onto the Convention would be helping itself and helping the other 
countries enforce its own laws first, and other countries' laws in the 
process.
    Third, the principle that every country should help others in 
investigating violations of firearms laws of the other countries. Like 
the first two principles, this third principle was designed to help 
each country better enforce its own laws through processes of 
reciprocal, mutual cooperation when laws involving firearms are broken.
              cifta's respect for and support of u.s. law
    The United States has long had a system in place under our national 
law embodying each of these three principles. The U.S. negotiating team 
stood firmly for the principle that each country has the sovereign 
right to enact its own domestic gun laws and regulations, but that 
every country should help other cooperating countries in enforcing laws 
against criminals who violate their laws.
    The U.S. already required the marking of firearms at manufacture 
and at export. The U.S. already prohibited exports of weapons to other 
countries in violation of their laws. And the U.S. already had in place 
mutual legal assistance agreements allowing for bilateral cooperation 
to make cases against criminals. What CIFTA did for the first time was 
to bring on board the other countries in the hemisphere to this same 
approach, making possible a new level of cooperation against criminals 
involved in firearms trafficking. CIFTA united countries in protecting 
one another's sovereignty, and also provided new practical tools to 
combat such threats as cross-border weapons shipments to terrorist 
groups in countries such as Colombia and Peru.
             an open, transparent, and consultative process
    When the Clinton administration worked at the OAS to develop an 
agreement embodying the three principles, it recognized that such a 
convention could affect a broad range of interests in the U.S. 
Accordingly, an interagency negotiating team was put together which 
included representatives of the Justice Department, Federal Bureau of 
Investigation, and Drug Enforcement Administration, of the Treasury 
Department, including the Secret Service and the Bureau of Alcohol, 
Firearms and Tobacco, consultants with U.S. intelligence and national 
security agencies, and diplomats and lawyers from the State Department.
    The Clinton administration instructed this team to consult widely 
with affected domestic interests. Consultations were carried out with 
Congress, and outreach was undertaken to the largest domestic 
association representing firearms owners, the National Rifle 
Association (NRA).
            participation of the national rifle association
    The NRA had strong views on the negotiation of the Convention and 
took the position that no international instrument should require the 
U.S. to change its laws regarding firearms. Officials involved in the 
negotiation on behalf of the United States agreed with the NRA's 
position and took steps to ensure throughout the negotiating process 
that no convention would emerge that compromised in any way the ability 
of the U.S. to decide for itself how to treat domestic ownership and 
sale of firearms.
    In the course of the negotiations, representatives of the NRA were 
repeatedly consulted, and expressed appreciation to the U.S. 
negotiating team for taking NRA concerns into account in designing the 
three principles. Throughout the process, the NRA repeatedly affirmed 
that CIFTA commitments did not violate any of its own core principles.
                       impact of ratification now
    Ratification will bring diplomatic benefits with genuine practical 
consequences.
    CIFTA sets a consistent standard for the hemisphere in marking 
weapons--the U.S. standard--the implementation of which will be 
extremely helpful in tracking weapons and illicitly diverted shipments. 
It is the cross-border violations of our law pertaining to the shipment 
and tracking of weapons that is exacerbating this most serious 
situation, here in El Paso and all along the border. Greater 
cooperation is what is sorely needed, and is the bottom line of CIFTA.
     The Convention will amplify current methods of cooperation to 
combat gun-related violence along the United States-Mexican border and 
will compliment the important commitment and resources approved by 
Congress last year under the Merida Initiative.
    Just 2 weeks ago, a letter with 27 signatories urging ratification 
of CIFTA was delivered to you, Chairman Kerry, and to Senator Lugar. 
With the exception of one currently in government service, the 
signatories include all Assistant Secretaries of State for the Western 
Hemisphere since 1976, nearly all Ambassadors to the OAS since 1989, 
all Chairmen of the Inter-American Defense Board since 1989, and two 
thirds of the Commanders of U.S. Southern Command since 1983. Mr. 
Chairman, it is not a common occurrence to have one letter signed by 
civilian and military officials who served over 30 years.
    There are many reasons why those officials most directly 
responsible for our diplomatic and security relationship with the 
hemisphere believe ratification will enhance our national security and 
that of our neighbors:
    Mexico and almost every other nation in Latin America and the 
Caribbean have repeatedly asked us to ratify, both bilaterally and at 
the related OAS meetings. Once our neighbors see that we are prepared 
to join them in CIFTA, it makes clear that cooperation against illegal 
trafficking in firearms is not a favor to the U.S. or to any one 
country, but a common international commitment to the rule of law.
    The U.S. will have added standing to challenge parties to implement 
enforcement measures in the Convention. Many have signed and ratified 
but are not yet implementing the measures as effectively as they could.
    Extradition is one of the most effective tools we have in the 
battle to control illicit arms trafficking. CIFTA extradition 
provisions will bolster old list extradition treaties.
    Many countries in the region need significant legal assistance to 
comply with CIFTA. The Mutual Legal Assistance (MLA) provisions may 
provide for MLA where none now exists.
    Ratification now will signal to President Calderon and the Mexican 
people that this new Congress and this new President are committed to 
cooperating in the fight against organized crime and related violence 
in a very concrete way. It would enable both countries to send an 
important signal of that enhanced security cooperation at a series of 
upcoming hemispheric meetings.
    Thank you again for inviting me to be part of this hearing. I would 
be pleased to respond to any questions you may have.

    The Chairman. We look forward to that. I know there will be 
some.
    Mr. Carriles, can you go next, and then I would like you to 
wrap up, Mr. Campbell. Thanks. Thank you for being with us, Mr. 
Carriles. We appreciate it.

 STATEMENT OF RICARDO GARCIA CARRILES, FORMER POLICE CHIEF OF 
                   CIUDAD JUAREZ, EL PASO, TX

    Mr. Garcia. Mr. Chairman, distinguished Senators and 
Congressman, El Pasoans, Juarenses, Juarez used to be a port 
through which an important quantity of drugs were introduced to 
the U.S. market. Local drug consumption was fairly incipient. A 
little more than a decade, Juarez became a big consumer of 
drugs. There are more than 1,500 local drug points of sale at 
this point, besides X number of pushers in every manufacturing 
and assembly plant, city streets, and bars.
    Violence had not really been a big issue in Juarez, even 
counting drug-related violence. There used to be no more 
violence than there is in any city around the world that 
happens to have a half-million-plus population.
    Extreme violence started a little more than a year ago when 
compromised policemen and gangs, guardians for cartel 
territories who started taking over local drug points of sale 
suddenly found themselves being part of the different crime 
organizations, now at odds with each other. The war started 
with the armies used before as guards for their turfs and later 
joined by gunmen brought in from outside Juarez.
    For the first 11 months, the joint efforts at the three 
levels of government, which started last March 27, 2008, failed 
terribly. In complete contrast, after 12 months of public 
security department strong and determined corrupt police weed-
out operation, solicited by Juarez mayor which, by the way, is 
not completely over, was greatly fortified this February 2009 
by the deployment of 5,000 more Mexican Army troops added to 
the 2,000 existing soldiers already patrolling Juarez.
    Violence has been reduced dramatically, and judging from 
the polls, fear has all but left the city for now. The 
remaining fear is what is going to happen when the soldiers 
leave.
    In my opinion, troops should be reduced gradually according 
to results of a well thought-out short-, medium-, and long-
range plan to fight corruption, drugs, arms, and ammunition 
traffic, crime, as well as the violence that derives from them.
    Also in my opinion, a plan that can accomplish the desired 
needs besides the sufficient funding, its accountability, and 
its proper surveillance. It needs the funding to acquire 
adequate high-tech communication interception devices; drug and 
money, weapons, ammunition and explosive devices detection 
equipment; and dogs that can perform the same such tasks; 
personal protective armor equipment and vehicles; sophisticated 
means available in order to deplete the remaining corruption at 
local, State, and Federal police departments, as well as the 
corruption that exists in certain judiciary areas. Immunity is 
at 90 percent at this point.
    The means to perform through background check and training 
of every element that will replace those weeded out will also 
be needed.
    All the aforementioned is without any doubt indispensable 
to acquire success, but not more important nor by itself the 
integral solution needed for a long-range successful outcome.
    The budget should also contemplate the expenditure for an 
external, functional, and strict performance accountability 
based not on the number of arrests in each policeman's 
individual areas of responsibility, his patrol zone, but 
instead on the number of criminal citizen complaints filed: 
Stolen car dismantling outfits, ammunition and drug warehouses, 
and points of sale, stolen goods dealers, as well as people 
smuggling and kidnapping safe houses in the individual 
officer's area of responsibility. As an example, there should 
be two policemen per each hour-shift on each of the 156-plus 
patrol zones which would be the minimum police patrol force 
needed.
    Check and balances should also be done for each sergeant in 
charge of X number of patrol zones. For each area, it should 
contain Y number of quadrants, one lieutenant per shift per 
area, for each police station coordinator and his two relief 
coordinators, and finally for the chief of police and his 
superior, the secretary of public safety.
    Changes should be proposed by the city council and approved 
by the state congress in the existing public security 
department's regulations in the sense that any policemen, 
regardless of rank, can not only be suspended and demoted, but 
also fired from the force based on the performance in his 
individual area of responsibility, patrol zone, quadrant, area, 
station, whatever, as well as cannot be promoted only because 
of his service longevity and recertification courses. 
Nevertheless, they should not be put aside but should be 
established also that an indispensable decision factor also be 
having a good performance in his present and past individual 
areas of responsibility.
    Records should be kept not only in the police department 
but also stored by the external intelligence network. Records 
have been known to get lost.
    And finally, said budget should contemplate a very strong, 
well-trained and funded external human high-tech intelligence 
network to assure a trustworthy check and balances evaluation. 
Check and balances evaluation, internal check and balances 
evaluation, have been shown to be lost.
    To obtain thorough periodic background checks of existing 
and prospective individuals who are and will be in any area of 
public security or judiciary branches responsible for keeping 
law and order and administering justice so that the dangerous 
criminals--also the intel network--so that the dangerous 
criminals and other situations can be geographically located 
and pointed out to specialized riot and/or assault teams with 
the proper sophisticated training and arms and protective 
devices who can many times act without having to risk less-
equipped and capable policemen and because, by being smaller 
groups, will require less volume of specialized weapon and 
protective equipment for such difficult situations. And a more 
thorough video and audio monitoring of each individual can be 
done to be sure in each operation of his noncompromised 
actions.
    Each operation strategy should be made known to members of 
said groups only on their way to the side in question and then 
an armored vehicle also blocked to any kind of outside 
communication. Most of the time when the operations get there, 
when the groups get there, they will not find either the 
criminals nor the drugs.
    Other. No communication other than strictly necessary to 
the central operations centers in order to avoid leaks. In said 
central operations center bunker, there should be an anonymous 
judge on duty full 24 hours, same who would pass sentence on a 
flagrant situation after having viewed all actions performed in 
the case in question through the closed circuit TV system and 
for better judgment having received the arresting policemen 
reports. This way we will let regular police take care of 
regular police work and crimes to avoid them becoming victim 
or, even worse, compromised and protectors of organized crime 
business, be it because of fear or greed.
    Permanent external parallel police emergency phones and 
street surveillance cameras monitoring and recording should be 
implemented. And I will repeat, external surveillance. Since 
many calls have been purposely lost and none of the criminal 
acts committed where cameras exist have been detected, nor 
recorded. Every time cameras were supposedly not working or 
pointing in the wrong direction.
    Thank you.
    The Chairman. Thank you very much, Mr. Garcia. I appreciate 
it.
    Dr. Campbell.

 STATEMENT OF DR. HOWARD CAMPBELL, PROFESSOR OF ANTHROPOLOGY, 
                UNIVERSITY OF TEXAS, EL PASO, TX

    Dr. Campbell. I have a statement about the impact of drug 
violence on Mexican border communities. I would like to read 
this statement about the impact of drug violence on Mexican 
border communities.
    First, I thank the committee for inviting me to testify on 
these important issues. I speak as an American who loves both 
the United States and Mexico.
    A cooperative, binational approach is the only way to deal 
with the complex drug problem.
    That said, clearly Mexico has suffered the worst 
consequences of the illegal drug trade. More than 1,600 people 
died in Juarez drug violence in 2008. The violence continued at 
this pace until the recent Mexican military surge.
    These homicides, the result of a power struggle between the 
Juarez and Sinaloa cartels, have occurred in broad daylight. 
They included acts of horrific torture, decapitation, and 
mutilation. Policemen, laborers, lawyers, college students, 
journalists, housewives, and children are among the victims. 
Massacres have taken place on main streets, in bars and 
restaurants, and close to the international bridges between El 
Paso and Juarez. Dozens of El Pasoans, that is, American 
citizens, have died or disappeared as a result of the drug war.
    The damage to Mexican society is profound. The cultural 
trauma is equivalent to that experienced by residents of war 
zones in Iraq or Afghanistan.
    Day after day, average Juarenses have been exposed to 
shootouts, piles of bodies and severed heads left on street 
corners, and cadavers hanging from bridges.
    The drug war completely disrupted law and order. Cartel 
criminals and other organized crime groups exploited the 
situation by:
    Kidnapping hundreds of people, including even working-class 
border residents. Large ransoms were paid and some victims were 
tortured or killed.
    Extorting large and medium-sized businesses and medical 
doctors.
    Torching night clubs and other businesses of those who 
would not pay extortion money, and threatening or attacking 
schools, international factories known as maquilas, and drug 
rehab centers. Moreover, armed commandos robbed and kidnapped 
people in the streets and even made off with ATM machines.
    Call centers of crime emerged, and this is a real 
innovation. Thousands of people received phone calls from 
criminals claiming to be Zetas, a ruthless hit squad linked 
with the Gulf Cartel, who threatened kidnappings and demanded 
money.
    The Juarez economy suffered terribly. Maquilas laid off 
thousands of workers. Hundreds of businesses closed. Others 
fired staff and shortened working hours. Juarez streets were 
empty after dark. People stayed home. Tourism died. 
Restaurants, bars, and hotels were empty. Shopping centers 
withered.
    As the bodies accumulated in the Juarez morgue, thousands 
of Mexicans fled to the United States.
    The impact on the psychology of border people witnessing 
daily violence, threats, and terror is a kind of collective 
post-traumatic stress disorder.
    In addition to the actual violence, the warring cartels 
have waged a propaganda battle--again, there is a certain 
innovation to this--involving threats to the mayor, governor, 
and police force and the placement of intimidating signs and 
banners along major streets, also the wide distribution of 
graphic, threatening YouTube videos, narcoblogs, and procartel 
musical ballads. It is important to note that for the cartels, 
this is not only a kind of violent struggle for control of drug 
markets, but it is a struggle to control the hearts and minds 
of people. So it is a kind of intellectual, ideological 
campaign that is waged especially through YouTube videos. In 
this aggressive media campaign, the cartels claim to be the 
legitimate rulers of Juarez.
    This is the bloody context in which the Mexican Government 
sent 9,000 troops to the city. Previously, 3,000 soldiers did 
little to quell the violence. So far, the current surge has 
dramatically lessened the homicide and general crime rate.
    But the military takeover of Juarez, though the lesser of 
two evils, has brought its own share of problems such as, one, 
human rights violations. Hundred, if not thousands, of people 
have been picked up apparently by the military and 
interrogated. Some claim to have been tortured; some have 
disappeared.
    Two, there are numerous reports of soldiers stealing from 
local residents or bullying them.
    Three, there have been a few cases of the military killing 
individuals that they wrongfully suspected of being drug 
traffickers or other types of criminals.
    The military has taken control of the Juarez police 
department and will eventually run the local prisons and 
enforcement of traffic laws.
    The growing power of the military in Mexican society, 
though reducing drug homicides, is harmful to Mexican 
democracy. Military control of border cities like Juarez is not 
a long-term solution to the United States-Mexico drug trade. 
When the military leaves Juarez, what will stop the cartels 
from returning to business as usual?
    The most effective ways the United States can help Mexico 
with the drug problem are by, first of all, cutting our demand 
for illegal drugs; second, slowing the flow of guns from the 
United States to Mexico; third, fighting drug organizations 
within the United States; and fourth, we can also make it 
easier for poor Mexicans to work legally in the United States 
and thus help them avoid the Faustian bargain of working for 
drug cartels.
    Fifth, I would also like to add that we need to consider 
ending prohibition of marijuana. At this university, we are 
trying to organize a conference for September of this year to 
discuss the 40 years of the war on drugs' policies and discuss 
the successes and failures of those policies and specifically 
try to open up new terrain for new policies that may be more 
effective.
    I just want to add to end my testimony by saying that the 
Mexican Government faces major challenges. They can best attack 
their drug problem and our drug problem by, one, strengthening 
the formal economy; two, reducing corruption in the political 
system; three, furthering the reform of law enforcement and the 
judicial system; and four, cutting the growing drug consumption 
in Mexican cities.
    Thank you very much.
    [The prepared statement of Dr. Campbell follows:]

  Prepared Statement of Dr. Howard Campbell, Professor, University of 
                     Texas at El Paso, El Paso, TX

    First, I thank the committee for inviting me to testify on these 
important issues. I speak as an American who loves both the U.S. and 
Mexico. A cooperative, binational approach is the only way to deal with 
the complex drug problem.
    That said, clearly Mexico has suffered the worst consequences of 
the illegal drug trade. More than 1,600 people died in Juarez drug 
violence in 2008. The violence continued at this pace until the recent 
Mexican military surge.
    These homicides--the result of a power struggle between the Juarez 
and Sinaloa Cartels--have occurred in broad daylight. They included 
acts of horrific torture, decapitation, and mutilation. Policemen, 
laborers, lawyers, college students, journalists, housewives and 
children are among the victims. Massacres have taken place on main 
streets, in bars and restaurants, and close to the international 
bridges between El Paso and Juarez. Dozens of El Pasoans, i.e., 
American citizens, have died or disappeared as a result of the drug 
war.
    The damage to Mexican society is profound. The cultural trauma is 
equivalent to that experienced by residents of war zones in Iraq or 
Afghanistan. Day after day, average Juarenses have been exposed to 
shoot-outs, piles of bodies left on street corners, and cadavers 
hanging from bridges.
    The drug war completely disrupted law and order. Cartel criminals 
and other organized crime groups exploited the situation by kidnapping 
hundreds of people including even working-class residents of the border 
(huge ransoms were paid and some victims were tortured or killed); 
extorting large and medium-sized businesses and medical doctors; 
torching bars and restaurants of those who would not pay extortion; 
schools, international factories (known as maquilas), and drug rehab 
centers were all threatened or attacked.
    Virtual Call Centers of copycat crime emerged. Thousands of people 
received phone calls from criminals claiming to be Zetas (a ruthless 
hit squad linked with the Gulf Cartel) who threatened kidnappings and 
demanded money.
    The Juarez economy suffered terribly. Maquilas laid off thousands 
of workers. Hundreds of businesses closed. Others fired staff and 
shortened working hours. Juarez streets were empty after dark. Tourism 
died. Shopping centers withered and thousands of Mexicans fled to the 
U.S.
    The impact on the psychology of border people witnessing daily 
violence, threats and terror is a kind of collective post-traumatic 
stress disorder.
    In addition to the actual violence, the warring cartels have waged 
a propaganda battle involving threats to the mayor, governor, police 
force and the placement of intimidating signs and banners near body 
dumps and along major streets; burned, beheaded and otherwise mutilated 
cadavers left in public plazas and roads; the wide distribution of 
graphic, threatening YouTube videos, narcoblogs and musical ballads.
    In this aggressive media campaign, the cartels proclaimed 
themselves the legitimate rulers of Juarez. This is the bloody context 
in which the Mexican Government sent 9,000 troops to Juarez. 
Previously, the arrival of 3,000 soldiers did little to quell the 
violence. So far the current surge has dramatically lessened the 
homicide and general crime rate.
    But the military takeover of Juarez--though the lesser of two 
evils--has brought its own share of problems, namely: (1) Human rights 
violations--hundreds if not thousands of Juarez residents have been 
picked up (apparently) by the military and interrogated (some claim to 
have been tortured, some have disappeared); (2) there are numerous 
reports of soldiers stealing from local residents or bullying them; (3) 
there have been a few cases of the military killing individuals that 
they (wrongfully) suspected of being drug traffickers or other types of 
criminals.
    The military has taken control of the Juarez police department and 
will eventually control the local prisons and enforcement of traffic 
laws. The growing power of the military in Mexican society, though 
reducing drug homicides, is harmful to Mexican democracy. Military 
control of border cities like Juarez is not a long-term solution to the 
United States-Mexico drug trade. When the military leaves Juarez, what 
will stop the cartels from returning to business as usual?
    The most effective ways the U.S. can help Mexico with the drug 
problem is by cutting our demand for drugs, slowing the flow of guns 
from the U.S. to Mexico, and fighting drug trafficking organizations 
within the U.S.

    The Chairman. Well, thank you for that crisp clarity.
    [Applause.]
    The Chairman. Let me pick up, if I can, with your 
testimony, which is very important in a lot of regards.
    First of all, you seem to describe a very different Juarez 
from the one that was in the newspaper or even that we were led 
in the first panel to sort of an assumption that it is quieting 
down a bit. What you describe is a Juarez that is under siege. 
I want to try to understand that a little bit better, if we 
can. Is that Juarez you described several months ago presurge 
or is this battle with the cartels themselves and that kind of 
violence still as ongoing? It may have been reduced somewhat, 
but is it ongoing?
    Dr. Campbell. It is presurge, but I believe it is ongoing 
in the sense that the cartels have pulled out of Juarez 
essentially. They are waiting. They are watching the Calderon 
administration. They are watching the Obama administration. 
They are waiting to see what happens next, but the business 
itself has continued essentially unabated. I think that in the 
long term the cartels will continue to be strong, and that is 
why we need to seek long-term solutions.
    The temporary solution of sending the military has worked 
in this month that 9,000 soldiers have been in Juarez, but the 
problem with that is the Mexican Government does not have the 
resources to do that in every hot drug point such as Sinaloa, 
such as Nuevo Laredo, such as Michoacan. There are just so many 
places in which the cartels are strong. We need to think about 
a long-term solution to these problems. The short-term military 
solution looks good, and there is a lull in the action, but I 
do not think the drug war is over.
    The Chairman. Well, nobody does but you have to first gain 
control, if you will. I mean, you cannot allow--the lawlessness 
that you described earlier was a campaign of terror, and left 
to its own devices, that would have been a city in total ruin. 
So I think sending the military in in order to stop the carnage 
and begin to rebuild is critical.
    The rebuilding is now the challenge. Would you agree with 
that? It seemed to me that you were a little light on the 
Mexican side of what might be done to try to rebuild here 
because the key is not only that you build an institutional 
capacity in Juarez to prevent that from resurging, but also 
that you build--or that we help Mexico to be able to deal with 
these cartels that you say are just in waiting.
    Dr. Campbell. Right, and I think that is the problem. If 
essentially the drug war is not over, the cartels are still 
very strong, sending the military is a very short-term 
temporary solution. So clearly, the long-term solution involves 
lowering drug consumption in both countries. As one of the 
previous speakers mentioned, Juarez has as many as perhaps 
1,500 tienditas, drug-selling spots. Every major Mexican city 
has those as well. That has not changed. The cartels' capacity 
to bring drugs to the United States has not changed. So what 
Mexico needs to do is continue to reform its institutions and 
try to weed out corruption, but also think about the source of 
the problem, which is drug demand in the United States and 
Mexico. So we need to work on those problems and we need to 
think about is it possible to change the laws to, for example, 
legalize or decriminalize marijuana and try to take the 
organized crime elements out of this business.
    So I agree with your point that, yes, the military has been 
successful, there has been some progress. And you made comments 
earlier about how for 35 years we have been doing this, but we 
do not see much change in the supply or demand. And that is why 
I really think we need to study this and think about, to some 
extent, radical changes in current policy and not think that 
these little increments, such as what happened right now in 
Juarez, are basically in some ways the definitive action.
    The Chairman. Well, I agree.
    [Applause.]
    The Chairman. Folks, if we could ask everybody not to be 
demonstrative at the end of questions. We want to just kind of 
probe the facts here.
    There are about four or five major issues that are laid on 
the table, one of which would consume the rest of the day if we 
began to sort of really debate it or explore it here.
    But part of addressing that debate, which I have been 
involved in for all of the time I have been in Congress, goes 
to this question of the seriousness of purpose. We have changed 
behavior dramatically in the United States with respect to 
smoking. Smoking is an addiction. And we got serious about it 
because we did a cause and effect. We connected the dots and we 
did a major effort at education and the law and so forth.
    We have also changed behavior with respect to drinking. 
Drinking habits have changed dramatically in the United States. 
Drinking is a drug and it is addictive.
    So the question remains, Why have we not succeeded in 
perhaps changing behavior with respect to other addictive 
possibilities in life? And I am not going to take us down that 
journey right now because it is not where we want to spend all 
our time, but many people believe it is the lack of 
concentrated effort in a comprehensive way on the demand side, 
on the treatment side, as well as on the enforcement side that 
has precluded us from reducing it to the kind of effort that 
does not tear your fabric of society apart the way it is in 
Mexico and in some other places.
    That said, let us come back for a moment. The reducing of 
consumption is a longer term effort. It seems to me the more 
immediate steps that we can and should think about which would 
have a dramatic impact are going after folks, as well as 
dealing with enforcement with borders and with transit routes, 
et cetera. Those can have perhaps the most immediate 
significant return, as you resolve those other issues.
    We once had organized crime running crazy in parts of 
America, and it was not until law enforcement and the FBI and 
others stepped up and we began to weed out corruption--and we 
had corrupt police officers and we had corrupt law enforcement 
people and we had politicians on the payroll too. This is not 
new to a lot of countries. But they fought back and they 
changed the structure.
    And the question here for me, to get the fastest return on 
investment is, What can we do in your judgment to empower the 
Mexican Government to be able to go after the known leaders of 
these entities and the cartels themselves, as well as to 
continue weeding out the corruption, while we strengthen our 
side of the affairs, which are the transit of weapons and the 
borders themselves. Is that a fair bargain, do you think?
    Dr. Campbell. I think as you have laid out the situation, 
it is extremely complex. I would just advocate that we support 
democratic elements in Mexico that are trying to strengthen the 
economy and weed out the systemic corruption.
    I do not think that in the long term we are ever going to 
stop drug cartels exactly. That is, you knock off Chapo Guzman 
or some other top leader and someone else will take his place. 
I think in Colombia what happened was they knocked off Pablo 
Escobar and other big people and then the drug business 
diversified. I would expect something like that to happen in 
Mexico.
    That is why I think, yes, we need to go after the top drug 
cartel leaders, but the larger problem is fixing the corruption 
and the problems in the Mexican law enforcement system and 
strengthening the economy such that people have options to not 
go into cartels.
    The Chairman. But the difference is that it is not running 
rampant and as wildly loose and as forcefully as it was 
previously. It has, as you said, diversified. But so is 
gambling in America. So is prostitution. So are a lot of other 
crimes. We have not been able to, ``stamp them out,'' but we 
reduced the balance in our society to a point where they are 
not tearing at the fabric of it and the spillover violence is 
not ripping apart lives. The question is whether or not you can 
at least move to get to that place and then you can resolve 
some of these other questions.
    Dr. Campbell. Yes, and I think it is terribly complicated 
and there has to be a compromised solution going after the key 
cartel leaders, but not assuming that you are going to wipe out 
the drug trafficking business. So the longer term focus needs 
to be on strengthening the formal economy, lowering consumption 
of drugs in Mexico, and trying to attack this endemic problem 
of corruption in the very weak law enforcement authorities that 
they have.
    The Chairman. Mr. Garcia, you have laid out some very 
specific ways. And we appreciate the detail, and those are very 
solid recommendations, which we are certainly going to forward 
to our ATF and DEA folks and others as we think about the 
relationship with Mexico and how we talk about this.
    But share with us on a personal level. You were the 
director of security there for a year, and you have been an 
internal affairs director for the city. So you have got a very 
good sense of the power of these cartels and their ability to 
move. Do you believe that if we have a cooperative effort in 
doing many of the things you recommended and more, can you make 
life very difficult for the ability of the cartels to have as 
direct a negative impact as they have?
    Mr. Garcia. I believe you can, sir.
    The Chairman. And the key to that is?
    Mr. Garcia. I believe you can because the greatest part of 
the armies that the cartels are using are the policemen. In 
this case, 700 policemen have been weeded out. It is about half 
the force of Juarez, and it is still not finished.
    The Chairman. How do you stop the next policeman from being 
corrupted? There is a lot of money on the table.
    Mr. Garcia. Well, as I said in my presentation, what you 
need to do is have external check-and-balances evaluation of 
each and every individual.
    When I started for a very short time as a chief of 
policemen, the first thing we did is say, OK, which one of the 
stations did not go down in crime this month. So of the five 
stations there were, one of them had gone up 10 percent and the 
others had gone down 2, 3, 4 percent. So what we did, we 
brought down the chief of that station, which really made a big 
scandal out of it. But that was only in a way to show his 
lieutenants, his captains, his sergeants, and his agents that 
everybody was going to go. Everybody was going to be measured 
and not on the number of arrests that they made because, 
anyway, most of them are let go.
    The Chairman. Why were you only the chief for the 1 year?
    Mr. Garcia. That is a very hard question to answer 
publicly, sir.
    The Chairman. OK, fair enough. I can understand that.
    Ambassador, could you share with us--and this will be my 
last question. Then I will turn to Senator Barrasso. What is 
the value added--I saw you writing a note when the issue was 
being asked by one of the Senators about we are following this 
routine now, why would we have to do the--is there a difference 
with the ratification. And I wondered if you could speak to 
that.
    Ambassador Babbitt. I would be happy to. I do not know that 
I can speak for all 27 signatories on this letter because they 
include, of course, commanders from SOUTHCOM and people 
involved directly from various levels of various agencies. But 
I can tell you that there are many reasons why the officials 
who have been most directly responsible for both the diplomatic 
and the security relationships with the hemisphere have joined 
in this effort.
    Mexico and almost every other country in Latin America and 
the Caribbean have repeatedly asked us to ratify this 
convention. They have asked us in a bilateral context, and they 
have asked us in the ongoing OAS committee that deals with 
CIFTA.
    Part of it simply is that our neighbors see our joining in 
ratifying CIFTA as meaning that the United States takes 
seriously its obligations in a hemispheric-wide context; that 
is, that the cooperation that we seek is not a favor to a 
certain nation, but that we are part of a common international 
commitment to the rule of law.
    Another reason is that ratifying would give us standing to 
say to other countries--and this is a hemispheric convention. 
This is not just a Mexico convention. It gives us added 
standing to talk to other countries about their sometimes very 
ineffective ongoing commitment to implementing CIFTA.
    The main element of CIFTA with respect to the issue with 
which we are dealing today is an enhancement of the marking for 
identification, that is, that every country will mark for 
identification all weapons at the time of manufacture and at 
the time of import. That is a very important tool. The 
identification of the arms is a very important tool, as we 
heard from the ATF colleague who testified earlier.
    The Chairman. And that is not happening now?
    Ambassador Babbitt. It is happening but it is not happening 
nearly broadly enough. And it is a key tool to managing the 
flow.
    If I could interrupt here to say, again, from the policy 
standpoint, from the diplomacy standpoint, one of the points 
that caused us to enter into this negotiation in 1996 or 1997 
was that the hemisphere said to us--we had a unilateral drug 
certification law in the United States. And the hemisphere came 
back and said to us, we understand your concern about the 
amount of drugs flowing into your country. You need to 
demonstrate to us that you understand our concern about the 
arms that are flowing into our countries and about the 
laundered money that is flowing back.
    There are many more people more qualified to testify about 
the money with respect to both the bulk transfers that have 
been alluded to and with regard to the electronic transfers of 
money. But that money, of course, fuels--I mean, that is why 
the drug cartels are in this, is for the money. If the money 
did not flow back, the incentive to traffic the drugs would not 
be there.
    CIFTA does not deal with money laundering, but it does deal 
with a very important issue to other countries in the 
hemisphere and that is illicitly trafficked arms. We have a 
very mature democracy with a very mature set of institutions 
that still struggle with dealing with the illegal sale of arms 
across borders. And certainly Mexico and also most of the 
countries in the hemisphere have many fewer institutions and 
many fewer mature institutions. And so they really said to us, 
we want to help you with regard to the drugs flowing north, but 
you really need to help us more with arms flowing south.
    Some of the signers, I think, feel that the extradition 
part of CIFTA--to continue with the signatories to the letter 
that you Senator Lugar recently received, some of the signers, 
I think, believe that our current, old-list extradition 
treaties would be bolstered by the extradition portion of 
CIFTA. Many countries--I would say all of the countries in the 
hemisphere, but certainly many need significant legal 
assistance to comply, and this would provide perhaps some 
mutual legal assistance in areas where it currently does not 
exist.
    The Chairman. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Just in following up, Ambassador Babbitt, if I could, in 
Wyoming, as well as in Texas--you talked about your time 
growing up going hunting with your dad. We have a lot of folks 
who do reloading of ammunition and have gone to the range 
picking up the shells afterward.
    I had concerns with CIFTA, the Article 1, illicit 
manufacturing, the manufacture or assembly of firearms--
ammunition is listed right there--without a license from the 
government. My reading of this says that for the people that 
reload at home without a license from a competent governmental 
authority, that that would then be illegal or a violation of 
CIFTA.
    Ambassador Babbitt. My best answer to that--and I think, 
sir, it is a good answer--is that when we entered into these 
negotiations, we understood that the National Rifle Association 
was the largest and most influential representative of folks in 
the United States who cared particularly about the second 
amendment and their rights under the second amendment. So the 
range of consultations with the NRA was immediate and ongoing 
and repeated. The day-to-day negotiations consisted of 
consistent consultations with NRA representatives to make 
certain that the language that went into CIFTA was language 
that was consistent with their understanding of Americans' 
rights under the second amendment.
    I am a lawyer, but I am not a second amendment lawyer and I 
am not the person who has the most credibility in terms of 
analyzing each section and the long history of interpretations 
of that constitutional amendment and those issues.
    Senator Barrasso. And I am just bringing it to you from the 
standpoint of what I am hearing at home and what I know local 
concerns are specifically of that part of this for lots of 
folks who are members of the NRA but focus on this as an issue, 
kind of how it affects the person back home in our State.
    Ambassador Babbitt. Certainly.
    The Chairman. Is there a way, just if I could interrupt, to 
get some clarification so that that is not--I mean, is there 
some way just to simply have an understanding or a formal legal 
opinion rendered so that we can eliminate that kind of a worry 
that some people may have?
    Ambassador Babbitt. I think that would simplify everybody's 
life certainly and would bring some clarity to the situation. 
The representative of the NRA who was most involved with this 
and with whom I have not spoken about this--and Senator Kerry's 
idea is a good one, that it would be useful to have some kind 
of update, if you will--was a man named Tom Mason who was a 
longtime, very experienced representative of the National Rifle 
Association and who worked on a regular basis with the full 
negotiating team.
    Senator Barrasso. Thank you.
    If I could go now to Professor Campbell. I was fascinated 
by your comments on the propaganda battle, the threats, the 
billboard, the YouTube, to control the hearts and the minds of 
the people. Could you talk a little bit more about that and 
then to what ends were they trying to control the hearts and 
the minds of the people? To get them to leave town? To sign up 
and become a member of a cartel? If you could kind of give just 
a bigger, broader picture of that if you would not mind.
    Dr. Campbell. There are some analysts that say as much as 8 
to 10 percent of Mexican territory is more or less controlled 
by drug cartels. So I think we have to look at this not only as 
a business issue but one involving politics and power.
    What I was trying to say about the narcovideos and so on is 
it is a battle to say we are the legitimate authorities in this 
region, this territory, and I think it is especially an appeal 
to youth because there is a kind of drug cartel culture that is 
disseminated through narcocorridos, which is a very popular 
genre of music. And these YouTube videos are striking, showing 
people being decapitated, murdered on camera. And then 
oftentimes these YouTube videos contain statements or 
manifestos by drug cartel leaders or members saying we are the 
ones in charge here. These other groups are illegitimate, 
including the politically elected authorities. In that way, I 
consider this a kind of civil war that involves violence, 
control of economic markets, but also this propaganda campaign 
to convince people that the drug cartels are OK. And that is 
something we should be very concerned about, is them having a 
growing power to influence people, young people especially, in 
Mexico and the United States, to say what they are doing is 
legitimate and OK.
    Senator Barrasso. I do not know if you were here for the 
entire testimony of the first panel. They talked about 
different kinds of terror and different kinds of warfare. One 
was within a cartel where somebody may have been arrested, and 
then there was kind of a power struggle within the cartel. A 
second is cartel against cartel, and then the third was cartel 
versus government.
    Are cartels working together as part of this, or is it just 
one cartel that is against the government? I am trying to 
figure out where these lines are drawn and if there is a 
unified effort to say let us just fight the government now and 
then we will fight for our own power base and leadership later.
    Dr. Campbell. No, exactly. The reason why Mexico is not a 
failed state is because the cartels are primarily interested in 
fighting each other for control of these drug markets. So the 
cyber campaign of videos and blogs and all the rest are 
directed mainly by one cartel against a rival cartel.
    But there is also some attacking of President Calderon and 
high government officials, but a lot of this has to do with the 
attempts of one cartel to make inroads within the government 
and attack those that are opposing them within the government.
    Senator Barrasso. And if I could ask Mr. Carriles. Is this 
pretty much in keeping with your understanding of this and what 
you have seen and what you have lived? You have lived this 
life. Is what Professor Campbell is saying something that rings 
true to what you have been experiencing and seeing?
    Mr. Garcia. Some years ago, most cartels were not working 
together. They did work without bothering each other. They have 
got to a point where some cartels----
    The Chairman. Could you get a mike over there?
    Mr. Garcia. Oh, sorry.
    They have got to a point to where----
    Senator Barrasso. Could you start over with your answer 
just so people in the back of the room can better hearing?
    Mr. Garcia. Yes.
    Some years ago, if cartels were not working together, they 
were working without bothering each other, without getting in 
each other's way. They more or less had their territories well 
designed.
    They have got to a point to where two of the principal 
cartels started fighting each other. And I am sorry if I have 
to get specific or detailed, but it is happening almost in 
every city. I will put the example of Juarez because that is 
where I know the situation better than any other city.
    The thing is that, as I said, a great part of the armies 
were the local policemen, city policemen, but the other part--
they started recruiting gangs. And those gangs and the 
policemen were the ones that would keep their territories in 
the city safe from each other and without a lot of fights. 
There were certain deaths, but nothing as excessive or as 
scandalous as it is right now. Those cartels were using the 
same routes. They had no problem with it most of the time.
    Now they are really fighting each other and they are 
using--until last February 25 in Juarez, they were using 
policemen and gang members in order to wage that war. At this 
point when the army came in, it is true, there are many 
complaints about the army, but mostly of the federales, the 
federal police, more than even the army. But if you ask people 
in Juarez, I would say that 80 percent agree that the soldiers 
should stay until something can be found in order to return 
Juarez at least to the position where it was.
    Senator Barrasso. So there are these threats and this 
battle for the minds and hearts of the people.
    Mr. Garcia. Yes, there is. There is a type of a 
Colombiazation. I remember going to Colombia in 1973 where a 
state representative told me, Ricardo, we have lost the last 
two generations. Kids turned to see doctors that have 2-year-
old cars, and they turn to see the drug dealers that have a new 
Mercedes or even a Ferrari. And they say, why should I be a 
doctor? I would rather be a drug dealer.
    Anyway, with the immunity, that is the same thing that is 
happening in Mexico. Nothing happens. I can have it and nothing 
will happen to me. This is what has been happening in many ways 
in Mexico with the 97 percent immunity. People say, well, I 
only have a 3-percent chance of getting caught.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Good questions.
    Senator Wicker.
    Senator Wicker. Thank you.
    Dr. Campbell, you are working on a book, I understand, 
concerning the war on drugs.
    Dr. Campbell. Yes, sir.
    Senator Wicker. When is it due?
    Dr. Campbell. It is coming out in September, I hope, in the 
University of Texas Press.
    Senator Wicker. What will the name of it be?
    Dr. Campbell. The name of the book is ``Drug War Zone: 
Front Line Dispatches From the Streets of El Paso and Juarez.''
    Senator Wicker. I look forward to having a chance to look 
at that.
    Do you agree with Mr. Carriles that 80 percent of the 
people in Juarez are glad the troops are there and support it 
at least for the time being?
    Dr. Campbell. Yes, I think that is right. I have spent 
quite a bit of time recently walking around the streets of 
Juarez trying to get a feel for what is going on, and I think 
most people in general are happy that the soldiers have come 
because they have stopped the rampant killing in the streets.
    But there is a concern, though, about human rights 
violations of the soldiers exceeding their powers, especially 
when they grab people to interrogate them without warrants or 
anything like that and in the process steal everything in the 
house of the person that was being picked up, and then 
sometimes torture the person. And there have been people that 
have never come back. So there is a problem of human rights 
violations. The human rights officer for the state of 
Chihuahua, Gustavo de la Rosa, has statistics about this.
    Senator Wicker. Well, you mentioned that in your testimony. 
It would be helpful if you would help the committee document 
that and those particular underlying citations would be 
helpful, if you would just submit them in the record.
    It surprises me sometimes that polling is done on so many 
things in so many locations. Are you familiar with any polling 
that is being done in Juarez or nationwide in Mexico about the 
Merida Initiative? Have you seen any----
    Dr. Campbell. I have not seen any. I believe there 
certainly are polls about how the Mexican population feels 
about the Merida Initiative or Calderon's fight against the 
drug cartels. And I think if you looked at the Reforma 
newspaper or Proceso magazine in Mexico, they would have 
information about that.
    Senator Wicker. OK. Well, how do you think the initiative 
is being received nationwide in Mexico?
    Dr. Campbell. Honestly, I do not have full knowledge of 
that. I believe it would be a mixed response. I think that 
there is always in Mexico a wariness about the power of the 
United States vis-a-vis Mexican sovereignty. So there are 
concerns about that. There is also this tremendous worry about 
the drug cartels and the desire to end the killing and 
violence.
    Senator Wicker. How is the President's popularity?
    Dr. Campbell. I do not know for a fact. I believe the 
popularity would be in the range of 60 percent.
    Senator Wicker. President Calderon.
    Dr. Campbell. President Calderon.
    Senator Wicker. To both Dr. Campbell and Mr. Carriles, will 
the July elections send any signal that we will be able to 
decipher about the Merida Initiative, or are there so many--
such a multiplicity of issues that we will not be able to 
figure out where the population is going on that issue?
    Mr. Garcia. At this point, a dirty political war is on the 
rampage. Candidates and parties are looking for faults in 
candidates. That is what probably will decide elections, 
whatever people believe to be the truth.
    Senator Wicker. Well, is there a perception that a vote for 
the PAN represents support for the Merida Initiative and that 
correspondingly, a vote for the PRI or either of the other two 
opposition parties is a protest vote? If we will not be able to 
get a signal there, tell me.
    Mr. Garcia. I believe that up here north, people do not 
think very much of the Merida situation. At first, it was said 
that it was not enough, one. Two, it was said that United 
States intervention was sought by the United States trying to 
get into Mexican sovereignty. Also, many of the southern States 
felt that way.
    I believe that with some changes that have been made, the 
press has been a little bit more favorable to the Merida plan. 
I believe that with Calderon's efforts, it has been a little 
bit more accepted. But I do think that a better public 
relations program of the Merida program should be done.
    Senator Wicker. Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Wicker.
    Mr. Garcia, you have been very candid, and I salute you for 
that.
    When you say a dirty political war is on the rampage, can 
you fill that out a little bit for us?
    Mr. Garcia. There is a PRI candidate for representative 
that is probably a future candidate for governor, and they are 
finding faults that he had during his administration as a mayor 
of Chihuahua of certain supposedly shady deals that went on. 
They have not been proven, but they are coming out.
    The Chairman. So in other words, it is politics as usual.
    Mr. Garcia. Yes, sir. [Laughter.]
    Mr. Garcia. On the other side, for the PRI candidate also 
to a federal representative position as a candidate, they are 
trying to peg him with the situation that one of the cartels 
paid his campaign. So a dirty war, I think, is what is really 
taking hold of the decision that the Mexicans will be----
    The Chairman. Now, I want both you and Dr. Campbell to try 
to--I just want to understand a little bit better the 
psychology of this war for the minds, so to speak, hanging 
people from lampposts and public executions, et cetera. Is that 
the dual purpose of trying to intimidate the other cartel as 
well as intimidate the public in order to be supportive of all 
of them? Can you explain to us more the nature of taking this 
as public?
    Because normally, these kinds of fights are better fought 
under the radar screen. But I assume that this is not because 
of the just abject lack of lawlessness. So they feel they can 
terrorize the whole community with impunity. Is that a fair 
statement?
    Mr. Garcia. Yes, I believe it is intimidate all, intimidate 
even the drug buyers. You are buying from this cartel, and you 
should be buying from me. So either you buy from me or you are 
dead. And the other one says, either you buy from me or you are 
dead. Intimidating policemen that will work with one cartel or 
the other, intimidating gangs that will work with one cartel or 
the other.
    This is, I think, the most important point. Sending a 
message to the government, you are not going to have any more 
tourism. A lot of businesses, even small businesses--we do not 
care. They are going to shut down so you will not be able to 
get taxes. People with money are going to run and leave Mexico. 
Investments in business is going to go down. Your beaches are 
not going to be points of tourism. So your taxes will not be in 
your treasury, and you will have a very big problem. I think 
those are the messages that are being sent.
    The Chairman. Well, that is well articulated.
    Dr. Campbell.
    Dr. Campbell. I think he addressed most of the main points 
there. I think the statements made in these dramatic, horrific 
killings are to say that the people committing them are the 
real de facto powers in a particular plaza, particular drug 
market, and that anyone that interferes with them, whether it 
be policemen or rival cartels or politicians, will be murdered. 
So it is a kind of political statement saying they are the real 
powers.
    The Chairman. Well, I want to thank you. What strikes me, 
in listening to this this morning, is that we have the Taliban 
in Afghanistan and we have various sectarian groups in Iraq and 
there are different struggles in different places on this 
planet, but our next door neighbor, it seems to me, is 
experiencing what is essentially a narcoinsurgency. And because 
of the implications for our own society, in terms of drug use--
and you have talked about that, Dr. Campbell--but also because 
of the importance to all of us of stability and of having a 
strong neighbor that is able to enhance its democracy and 
enhance the rule of law, this important to us.
    I speak for myself. I think the committee has learned a lot 
this morning. It has been very instructive. It certainly rings 
a number of alarm bells about resources and commitment, as well 
as some policy questions that we need to tackle. And so I am 
very, very grateful to all of you for being part of this 
morning.
    Before I ask my colleagues if they have any wrap-up 
comments, which I will, let me ask our host, the Congressman, 
the distinguished chair, I might add, of the Intelligence 
Committee, if he wants to just make any last comment.
    Mr. Reyes. Well, only to express appreciation again to you 
and the members of the committee. I look forward to continuing 
to work with you and do some followup so that there is a clear 
understanding of both the situation and the implications of 
policy decisions that we might make at the Federal level. So 
thank you again.
    The Chairman. We pledge to work with you, and we thank you 
for your leadership.
    Senator Barrasso.
    Senator Barrasso. Well, first, I want to thank you, Mr. 
Chairman, for your leadership in bringing us all together and 
bringing us to be here in El Paso to see firsthand the needs 
and to hear the stories of those who are living this life every 
day.
    I want to, again, thank Sheriff West, thank the Texas 
National Guard for their efforts in helping with this education 
for me.
    I want to thank our hosts at the University of Texas-El 
Paso for being such wonderful hosts, and thank you, Mr. 
Congressman, for being a perfect host to all of us here.
    So thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Wicker.
    Senator Wicker. Well, I will simply echo the other three 
and say thank you very much and we have, indeed, learned quite 
a lot. We appreciate it.
    The Chairman. Again, we are very grateful to the University 
of Texas-El Paso and to El Paso. We are going out now. We are 
going to get a chance to view operations at the border itself 
and be able to ask some questions of some of our law 
enforcement folks. So we are not finished. We will do a little 
more on the field hearing.
    But, Ambassador, thank you very, very much. Your testimony 
was very important. And I want to pursue this question with 
you. If we can get the clarification, I think it would be 
really helpful to people.
    And we are grateful to everybody for taking time to help 
the committee. Thank you.
    We stand adjourned.
    [Whereupon, at 11:04 a.m., the hearing was adjourned.]
                              ----------                              


                   Material Submitted for the Record


 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator From Indiana

    Mr. Chairman, thank you for chairing this important hearing on 
United States-Mexico border violence.
    Since entering office in December 2006, Mexican President Felipe 
Calderon has moved to improve public security in his country and has 
recast United States-Mexico relations on the basis of equality and 
mutual respect. The Mexican Government has committed billions of 
dollars to combat drug trafficking, launched aggressive antidrug 
operations, replaced numerous high-ranking federal police officers in 
anticorruption campaigns, and created a unified national crime 
database.
    In addition, the Calderon government has strengthened law 
enforcement cooperation with the United States, extradited drug 
suspects to the U.S. and made record seizures of cocaine, 
methamphetamine precursors, cash, and other assets.
    The Merida Initiative signed into law by the administration of 
President George W. Bush is an attempt to seize the opportunity created 
by Mexico's invigorated anticrime campaign by funding key programs and 
building stronger cooperation between Mexico and the United States. It 
recognizes that 90 percent of the cocaine entering the United States 
transits Mexico and that our efforts to combat this drug flow and 
associated criminal activities depend on a partnership with the Mexican 
Government. In Mexico, President Calderon has laid the groundwork for 
the upcoming visit of President Barrack Obama, on April 16-17, 
articulating a message that makes clear that coordination in sensitive 
areas will require more compromise, mutual trust, and respect for each 
nation's sovereignty. One area that requires more cooperation is arms 
trafficking.
    As much as 90 percent of the assault weapons and other guns used by 
Mexican drug cartels are coming from the United States, fueling drug-
related violence that is believed to have killed more than 7,000 people 
since January 2008, according to estimates by Mexican and U.S. law 
enforcement officials.
    In the runup to the passage of the Merida Initiative last year, the 
Mexican Government officials I met with consistently relayed their 
concerns about the flow of guns and explosives from the United States 
into Mexico. American Embassy officials confirmed that the U.S. was a 
major source of weapons for Mexican gangs and drug runners, as well.
    If we are going to effectively fight drug cartels and prevent 
violence from spilling into the United States, one very important 
element is to curb the flow of guns from the United States to Mexico. 
Last year, in an op-ed I coauthored with the Mexican Ambassador to the 
United States, Arturo Sarukhan, we highlight the importance of this 
issue [Politico, May 15, 2008]. In addition to supporting efforts to 
manage firearms under the Merida Initiative, we should consider 
ratifying, during this Congress, the Inter-American Convention against 
the Illicit Manufacturing of and Trafficking in Firearms, Ammunition, 
Explosives and other Related Material (CIFTA), which calls for 
cooperation among members of the Organization of American States (OAS) 
to control illegal weapons. CIFTA has been signed by 33 countries in 
the Western Hemisphere and ratified by 29. The U.S. was an original 
signer in 1997, but ratification is still pending.
    I am encouraged by Secretary Clinton's pledge to seek $80 million 
from Congress to provide Mexican authorities with three Black Hawk 
helicopters to help the police track drug runners and deploy 450 more 
law enforcement officers at the border. I am concerned, however, by 
statements made by Secretary Clinton regarding withholding funds for 
the Merida Initiative--conditions on the border and in Mexico demand 
that we put our best efforts forward to help fight drug cartels and 
prevent violence from spilling over into the United States. Funding the 
Merida Initiative at previously agreed levels strengthens the 
institutional framework for effective, long-term cooperation on 
safeguarding the security of both countries. I encourage Secretary 
Clinton to support funding the Merida Initiative at previously agreed 
levels.
    The basis of United States-Mexico ties is a strategic relationship 
that goes far beyond the problems of drugs and violence. Our Nation is 
inextricably intertwined with Mexico historically, culturally, and 
commercially. The flow of goods and people across our borders helps 
drive our economy and strengthen our culture. But our land borders also 
serve as a conduit for illicit activity. This is a problem that bears 
shared responsibility and requires cooperative action. I am glad to see 
serious commitment from both governments to confront these difficult 
challenges.
    I look forward to the insights of witnesses on these and other 
issues related to this initiative.
                                 ______
                                 

   Bipartisan 27-Signature Letter in Support of Ratification of CIFTA

Hon. John F. Kerry,
Chairman, Senate Foreign Relations Committee,
Washington, DC.
    Dear Chairman Kerry: We--diplomats, military leaders, and senior 
officials who have been responsible for U.S. relations with Latin 
America and the Caribbean over the past 30 years--write to urge 
bipartisan support for Senate ratification of a treaty that creates a 
framework to combat illegal trafficking in the kinds of weapons used by 
the drug gangs and criminal enterprises in Mexico. Ninety percent of 
these weapons are illegally shipped into Mexico from the United States. 
This treaty creates a foundation for cooperation without requiring any 
changes to U.S. gun laws.
    The Inter-American Convention Against the Illicit Manufacturing of 
and Trafficking in Firearms, Ammunition, Explosives, and Other Related 
Materials (known as CIFTA from its Spanish acronym), calls for marking 
firearms, licensing gun exports, criminalizing illicit trafficking and 
strengthening international information exchange and law enforcement 
cooperation. Operating specifics are left up to individual countries to 
determine in accordance with their own laws, programs and sovereignty. 
The treaty makes clear that ``enhancing international cooperation to 
eradicate illicit transnational trafficking in firearms is not intended 
to discourage or diminish lawful leisure or recreational activities 
such as travel or tourism for sport shooting, hunting, and other forms 
of lawful ownership and use.''
    CIFTA has been signed by 33 countries and ratified by 29. The U.S. 
was an original signer in 1997, and although ratification is still 
pending, Executive Agencies make the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF)'s E-Trace system available to Central 
America and Mexico, assist efforts to manage firearms under the Merida 
Initiative, and provide some modest training for customs and border 
authorities through the Organization of American States (OAS), which 
staffs CIFTA's Consultative Committee.
    With the recent spillovers of drug violence into the United States, 
our ratification of CIFTA is now urgently needed to help protect the 
domestic safety and security of the United States itself. Ratification 
would also respond to the security concerns of our Mexican and other 
hemispheric partners about the upsurge in violence and criminality 
caused by the transnational cartels that produce, ship, and sell 
illegal drugs in our neighborhoods.
    The Summit of the Americas in April and the OAS General Assembly in 
June will be good opportunities to convey the clear and irrefutable 
message that, with CIFTA ratification, the United States is part of 
critical efforts to reduce the illegal flows of weapons that threaten 
hemispheric stability.
    We appreciate your attention to this urgent issue.
            Sincerely,

Hon. Elliott Abrams, Assistant Secretary of State for Inter-American 
        Affairs, 1985-1989.
Hon. Bernard Aronson, Assistant Secretary of State for Inter-American 
        Affairs, 1989-1993.
Hon. Harriet C. Babbitt, U.S. Ambassador to the OAS, 1993-1997.
Hon. William G. Bowdler, Assistant Secretary of State for Inter-
        American Affairs, 1979-1981.
Carl H. Freeman, Major General, U.S. Army (Ret.), Chairman, Inter-
        American Defense Board, 2000-2004.
Hon. Luigi R. Einaudi, U.S. Ambassador to the OAS, 1989-1993; Assistant 
        Secretary General, OAS, 2000-2005; Acting Secretary General, 
        OAS, 2004-2005.
John C. Ellerson, Major General, U.S. Army (Ret.), Chairman, Inter-
        American Defense Board, 1995-1996.
John R. Galvin, General, U.S. Army (Ret.), Commander in Chief, U.S. 
        Southern Command, 1985-1987.
Paul F. Gorman, General, U.S. Army (Ret.), Commander in Chief, U.S. 
        Southern Command, 1983-1985.
James R. Harding, Major General, U.S. Army (Ret.), Chairman, Inter-
        American Defense Board, 1992-1995.
James T. Hill, General, U.S. Army (Ret.), Combatant Commander, U.S. 
        Southern Command, 2002-2004.
Hon. Carla A. Hills, United States Trade Representative, 1989-1993.
George A. Joulwan, General, U.S. Army (Ret.), Commander in Chief, U.S. 
        Southern Command, 1990-1993.
Bernard Loeffke, Major General, U.S. Army (Ret.), President, Inter-
        American Defense Board, 1989-1992.
Hon. John F. Maisto, U.S. Ambassador to the OAS, 2003-2007.
Hon. Victor Marrero, U.S. Ambassador to the OAS, 1997-1999.
Barry R. McCaffrey, General, U.S. Army (Ret.), Commander in Chief, U.S. 
        Southern Command, 1994-1996; Director, White House Office of 
        National Drug Policy, 1996-2001.
Hon. J. William Middendorf II, U.S. Ambassador to the OAS, 1981-1985.
Hon. Langhorne A. Motley, Assistant Secretary of State for Inter-
        American Affairs, 1983-1985.
Hon. Roger F. Noriega, U.S. Ambassador to the OAS, 2001-2003; Assistant 
        Secretary of State for Western Hemisphere Affairs, 2003-2005.
Hon. Otto J. Reich, Assistant Secretary of State for Western Hemisphere 
        Affairs, 2002.
Hon. Peter F. Romero, Assistant Secretary of State for Western 
        Hemisphere Affairs, 1999-2001.
Hon. Harry W. Shlaudeman, Assistant Secretary of State for Inter-
        American Affairs, 1976-1977.
John Thompson, Major General, U.S. Army (Ret.), Chairman, Inter-
        American Defense Board, 1996-2000.
Hon. Terence A. Todman, Assistant Secretary of State for Inter-American 
        Affairs, 1977-1978.
Hon. Viron P. Vaky, Assistant Secretary of State for Inter-American 
        Affairs, 1978-1979.
Hon. Alexander F. Watson, Assistant Secretary of State for Inter-
        American Affairs, 1993-1996.
Fred F. Woerner, General, U.S. Army (Ret.), Commander in Chief, U.S. 
        Southern Command, 1987-1989.
                                 ______
                                 


   Prepared Statement of D. Rick Van Schoik, Director, and Erik Lee, 
   Associate Director, of the North American Center for Transborder 
             Studies at Arizona State University, Tempe, AZ

    Esteemed members of the Senate Foreign Relations Committee, as the 
only multipurpose, transdisciplinary North American research center in 
the United States, the North American Center for Transborder Studies 
(NACTS, headquartered at Arizona State University and including four 
top-ranked universities in Mexico and two in Canada) has the broad 
perspectives on security and borders to provide contemporary and 
balanced information, insights, and innovations to both the public and 
private sectors. NACTS applauds the committee's hearing on cross-border 
violence in the historic border city of El Paso, a strategic city for 
the United States economy, its security and its sustainable future with 
the Mexican Republic.
    As a policy-focused, trinational and university-based center 
looking at the United States management of its borders and its 
relationship with Mexico and Canada, we strongly believe that regional 
organizations are critical assets in building a relationship with our 
neighbors that is more secure and prosperous. Furthermore, we believe 
that when policy relating to Canada and Mexico are viewed from a 
multifunctional framework that looks at the highly interconnected 
issues of security, competitiveness, and sustainability in North 
America, citizens of all three countries will clearly be better off.
    background on the north american center for transborder studies
    NACTS coordinates ASU's active participation in the U.S. Department 
of Homeland Security's University Center of Excellence based at the 
University of Arizona and the University of Texas at El Paso. NACTS 
also coordinates ASU's participation with the Southwest Consortium for 
Environmental Research and Policy, a binational, 10-university 
consortium that carries out applied research on United States-Mexico 
border environmental problems together with the U.S. Environmental 
Protection Agency. In addition, NACTS will soon begin working with the 
Border Legislative Conference/CSG-West on a United States and Mexican 
border state legislative analysis of binational issues. In June, NACTS 
will host a meeting of a border task force convened by the Mexican 
Council of Foreign Affairs and the Pacific Council of International 
Affairs and provide policy papers and expertise.
    In February, NACTS released ``North America Next: A Report to 
President Obama on Building Sustainable Security'' at the National 
Press Club in Washington which we released at the National Press Club 
on February 10 of this year. The Governments of the United States, 
Canada, and Mexico each sent representatives to respond to the broad 
issues raised by our report. (Significantly, at the event the State 
Department declared unequivocally that Mexico is not a failed state.) 
This document (attached) serves as our principal framework for how we 
believe the United States should increase and enhance its overall 
engagement with Mexico and Canada.
    Following the Press Club event, the North American Center for 
Transborder Studies organized an event, ``Cross Talk II: Building 
Common Security in North America'' in conjunction with the Mexico and 
Canada Institutes at the Woodrow Wilson International Center for 
Scholars in Washington, DC. Senior-level academics, government 
practitioners from the United States, Canadian, and Mexican Governments 
(including representatives from the U.S. Department of Homeland 
Security and the Department of State), representatives from local 
governments and NGOs attended Cross Talk II for two days of closed-door 
discussions on the impacts of border security in North America, local 
and regional solutions; implementing and measuring joint risk 
assessment and joint borders management in North America; and 
evaluating joint border management in North America. The draft findings 
of these discussions are attached, but what stood out most of all from 
the two days of discussion was the insistence on cleaning up our 
conceptual vocabulary on border security, specifically, ``risk'' does 
not equal ``threat.'' We need better perspective and a better way to 
measure our efforts with Mexico and Canada in a way that the broader 
public can understand.
    To round out this snapshot of our engagement on these issues, NACTS 
recently convened meeting of local experts on cross-border crime and 
related issues in Tempe for this committee in preparation for this 
meeting.
                                our take
    The North America Center for Transborder Studies does a lot of 
listening, thinking and acting on issues related to border security. In 
our intense engagement with the groups above and many other partners 
throughout North America, our thoughts on the ``new'' issue of 
potential spillover of violence from key Mexican border cities into the 
United States can be summarized in the following bullet points:

  <bullet> The issue is politicized to a degree that is quite 
        unhelpful.
  <bullet> As even many media reports have made plain, we have still 
        not seen significant ``spillover'' of violence into the United 
        States, and there are good reasons for this.
  <bullet> Overall crime rates in U.S. cities such as San Diego, 
        Phoenix, and El Paso are low and falling.
  <bullet> Both the United States and Mexico need to continue to 
        reinforce their efforts at interdicting southbound arms and 
        cash. The United States has had minor southbound inspections in 
        the past but they were discontinued post-9/11 as funds were 
        shifted elsewhere. We need to commit to vigorous southbound 
        inspection for the long term.
  <bullet> There are significant differences and levels of success in 
        how cross-border communities deal with cross-border crime and 
        criminality.
  <bullet> We need to avoid a fixed image of how drug trafficking works 
        in the United States.
  <bullet> The Mexicanization of narcotics trafficking in the United 
        States is not a new phenomenon and indeed has been going on 
        since the late 1980s with the successful closure by the United 
        States of the Caribbean as a principal narcotics trafficking 
        route.
  <bullet> The criticism of the slow implementation of the Merida 
        Initiative is warranted; essentially the United States is 
        playing ``catch up'' against a decades-long process of 
        underfunding of Mexican police forces, particularly at the 
        local and state levels, and our Nation needs to move much more 
        quickly to work with Mexico on bringing these local forces up 
        to speed.
  <bullet> We want to reiterate that Mexico is not a failed state nor 
        will it become a failed state.
  <bullet> The intensification of the drug and human smuggling business 
        through the Arizona corridor is a result of Operations 
        Gatekeeper and Hold the Line, which were implemented by the 
        Clinton administration in San Diego and El Paso, respectively, 
        in 1994.
  <bullet> The wage differential between the United States and Mexico 
        is still about 10:1.
  <bullet> North American governments have NO overall human security 
        framework with which to address this problem, which is, among 
        other things, really a mental health problem in the United 
        States and an issue of uneven development in Mexico.

    These points--arrived at, again, through intense discussions and 
engagement with a wide variety of governmental and nongovernmental 
partners--are significant, because they are often directly at odds with 
the political discussion over perceived levels of spillover violence, 
the need for sending troops to the border, the need for the United 
States to pay as much attention to violence in Mexico as it does to 
Afghanistan, and so on.
    As we have said before, although the uptick in violence in border 
cities in Mexico is alarming and requires our attention, the United 
States, Mexico, and Canada need to place our attention to the even more 
pressing long-term policy issues at hand:

  <bullet> Deficits in United States-Mexico border infrastructure;
  <bullet> Deficits in how the two countries jointly manage natural 
        resource;
  <bullet> Effectively managing the already felt human effects of 
        climate change on Mexico and the United States, etc.
  <bullet> Deficits in development policy in Mexico (and Central 
        America); and
  <bullet> Overall deficits in the United States policy framework(s), 
        implementation and evaluation of efforts in working with 
        Mexico.

    We address all of these issues in the attached report to President 
Obama, the attached draft findings of ``Cross Talk II: Building Common 
Security in North America,'' and an article on Mexican development 
which myself and our center's associate director, Erik Lee, wrote for 
Canada Watch and Foreign Affairs Latinoamerica.
    We urge the Senate Foreign Relations Committee to take a leadership 
role in recognizing the drug violence in Mexico as a risk to border 
communities rather than as an existential threat to the United States 
essential security. In turn, we also hope the committee will urge the 
relevant Federal agencies to more fully and rapidly engage with 
colleagues in Mexico to engage the most pressing, and interrelated 
human security (not just law enforcement) issues which are at the 
essence of the United States and Mexico's shared challenges.

[Editors note.--The complete report ``North America Next: A Report to 
President Obama'' was too voluminous to include in this hearing. It 
will be maintained in the permanent record of the committee. The other 
three above mentioned attachments follow.]
                                 ______
                                 

   A Report to President Obama on Building Sustainable Security and 
                   Competitiveness--Executive Summary

                  the challenges are the opportunities
    A number of significant economic challenges for the United States 
have created unprecedented North American opportunities for enhancing 
our nation's--and our neighbors'--competitiveness, security and 
sustainability.
    History has shown us that expanding our engagement with Canada and 
Mexico helps expand the U.S. economy. Almost 40 million jobs were 
created in Canada, the United States and Mexico between 1993 and 2007, 
and today, Canada and Mexico are the first- and third-ranked foreign 
suppliers of petroleum to the United States and our first- and third-
most significant trading partners, respectively.
    However, challenges remain, particularly at our extremely congested 
borders. This congestion, which is partly a consequence of a desire to 
thwart another major terrorist attack on the United States, has left us 
in many ways poorer, less secure, and with major environmental 
challenges at our borders. Yet smart infrastructure investments at our 
borders can simultaneously enhance U.S. and North American security, 
competitiveness and sustainability by creating jobs, enhancing outdated 
infrastructure, and facilitating faster and ``greener'' trade.
    The North American Center for Transborder Studies--in a year-long 
effort with input from numerous key partners throughout North America--
has developed a set of recommendations for the Obama Administration. 
The following eight top-level recommendations can be implemented in the 
near- and medium-term and will also encourage greater collaboration in 
a number of other areas.
                          key recommendations
1. Build upon and expand the Merida Initiative in a way that maximizes 
        bipartisan U.S. support and multi-partisan Mexican consensus 
        and buy-in
    Mexico currently faces its most significant security challenges in 
decades. These shared challenges threaten to complicate efforts to 
build a new, more secure future for U.S.-Mexico border communities and 
North America more generally. The United States needs to expand its 
strategic and financial investment in the Merida Initiative. Build on 
the foundation of current binational cooperation on security by 
implementing the recommendations of the 2008 Joint Declaration of the 
Border Governors' Conference on border security, particularly regarding 
improved cooperation on tracking the cross-border movement of firearms 
and enhancing binational exchange of information on criminal activity 
on both sides of the border.
2. Energize and expand the North American Trilateral Leaders' Summit
    The Summit is the highest profile example of North American 
cooperation and should continue with greatly increased participation 
from a number of key stakeholders. Draw on the work of existing 
regional entities--governors, legislators, NGOs, academics, advocacy 
groups--for solutions to needs throughout North America. These include 
the private sector and public-private partnerships that would perhaps 
interact at pre-Summit meetings of NGOs, trade unions, academics, and 
think-tanks. Involving the three federal legislatures as well as state, 
county, tribal, and municipal governments within the Summit structure 
will deepen and strengthen collaboration among the United States, 
Mexico and Canada. Academic and public policy organizations could 
function at the center of a reinvigorated cross-border network.
3. Designate a North America/Borders authority to coordinate 
        sustainable security
    A senior deputy at the National Security Council should be 
appointed to deal with and to resolve the competing, complementary, and 
overlapping border management, national security, law enforcement, 
commerce, transportation, environment, water, regional development, and 
other infrastructure and political issues that comprise today's border 
area realities. A singular focus on traditional security does not 
address all of the critical functions of our borders.
4. Expand joint risk assessment and preparedness with Canada and Mexico
    Much of the security effort in North America is focused on the 
prevention of another major terrorist attack. But this effort can be 
bolstered by more effectively engaging our North American neighbors as 
collaborators through enhanced joint defense of North America to 
minimize, mitigate, and manage natural and human-caused catastrophes in 
North America.
5. Create an effective North American trade and transportation plan 
        with Canada and Mexico
    Common transportation infrastructure challenges in all three 
countries--congestion, bottlenecks, infrastructure deficits--are an 
opportunity for concerted investment that will bring concrete, highly 
visible improvements to the trinational public. Build upon examples 
such as the existing Arizona-Sonora infrastructure plan and 
California's unique new port of entry at Otay Mesa. Economic stimulus 
packages going forward should include funds for bolstering border-
region infrastructure.
6. Create a joint, revolving fund for infrastructure investments in 
        North America
    Infrastructure in the United States, Canada and Mexico is rapidly 
deteriorating and in urgent need of broad and deep investment. By 
pooling resources, the three countries can maximize the competitive 
benefit vis-a-vis Asia and Europe and jump-start our collective 
economic engine.
7. Implement a North American Greenhouse Gas Exchange Strategy
    A North American Greenhouse Gas Exchange Strategy (NAGES, modeled 
on the Clean Development Mechanism to create a North American clean 
energy fund) could ensure the United States continues to have priority 
access to Canada's wealth of hydro-electricity, natural gas, light 
petroleum and uranium in exchange for offsets for the greenhouse gases 
created by their development. Mexico, as the seller of the offsets, 
could then develop the infrastructure to clean its energy, 
transportation, housing, and industrial sectors. This arrangement would 
improve U.S. energy interdependence and continental climate security.
8. Establish joint and practical assessments of North American policy 
        effectiveness
    We are in great need of practical and meaningful ways to guide and 
track progress on a number of key North American issues. Such an effort 
should include tools such as a Cross-Border Collaboration Scorecard and 
an annual State of North America Report (SoNAR) to be developed by 
North American academic and public policy organizations. The scorecard 
and report would inform the annual Trilateral Leaders' Summit.
                partnering on a road map for the future
    The Obama Administration has a unique opportunity to focus not only 
on trinational challenges in continental relations but also internal 
challenges with a public that is highly skeptical about competitiveness 
and security issues. In the current media environment, clearly the more 
daunting task is establishing a frank and productive conversation with 
relevant public and private institutions and the U.S. public on complex 
issues of regional competitiveness and security. North America's 
universities are particularly well-positioned and have an obligation to 
address these issues with their specialized expertise; a long-term 
perspective; increasingly more holistic and sophisticated approaches to 
solving complex problems; and a long history of productive cross-border 
collaboration.
    The North American Center for Transborder Studies urges the new 
Administration to adopt these recommendations at this critical though 
opportune moment for the nation.
                                 ______
                                 

 Cross Talk II: Building Common Security in North America, February 10-
                11, 2009, Washington, DC--Draft Findings

                               background
    The objective of Cross Talk II was to take North American border 
realities--information, insights and innovations--inside the Beltway in 
order to engage public and private sector officials and key policy 
networks in Canada, the United States and Mexico. This diverse group of 
experts was asked to discuss and then develop policy options and, 
ultimately, recommendations toward building more sustainable security 
in North America. One of the particular objectives of the event was to 
enhance our appreciation for the local impacts, implications and 
unintended consequences of security policy.
    The broader context of the event comprised several key events:

  <bullet> Former Arizona Governor Janet Napolitano became President 
        Obama's Secretary of Homeland Security on January 20 and 
        promptly requested a number of reviews of key DHS activities 
        initiated by the previous administration;
  <bullet> The developing global recession continued to affect cross-
        border flows and interactions of all kinds;
  <bullet> A surge in violence associated with organized crime groups 
        continued across northern Mexico and caused growing unease in 
        U.S. policy networks, the news media and the public discussion 
        more broadly; and
  <bullet> NACTS released ``North America Next: A Report to President 
        Obama on Building Sustainable Security and Competitiveness.''

    The terrorist attacks of September 11, 2001, brought about an 
unprecedented administrative consolidation in the United States with 
the creation of the Department of Homeland Security, a collection of 22 
different and often divergent U.S. Federal Government agencies. In 
addition, 9/11 served to accelerate the ``thickening'' of the border; 
strongly impacted governmental agencies that work in the border 
regions; and failed to significantly advance cross-border risk 
assessment in the face of a number of additional potential threats, 
such as pandemics and intensifying effects of climate change.
    However, the North American security panorama has shifted 
radically, particularly in the past 12-18 months. Specifically, the 
rapidly evolving U.S. strategic concern with worsening drug-related 
violence in Mexican border cities is driven by three principal causes: 
(a) Persistent demand for illegal substances in the United States, (b) 
chronic southward flows of cash and arms from the United States to 
Mexican organized crime groups; and (c) the potential for violence 
associated with the Mexican federal government's continuing pressure on 
organized crime groups along with increasingly violent competition 
between these groups in Mexico to spill over to the United States.
                     key findings of cross talk ii
    Senior-level academics, government practitioners from the United 
States, Canadian, and Mexican governments, representatives from local 
governments and NGOs attended Cross Talk II for two days of closed-door 
discussions on the impacts of border security in North America, local 
and regional solutions, and implementing and measuring joint risk 
assessment and joint borders management in North America, and 
evaluating joint border management in North America. The key findings 
of these discussions are summarized below.
Illuminating the Impacts of Border Security in North America
    1. The United States can take positive steps on common security and 
joint border management with a clear vision of the myriad and strategic 
roles of its over 7,000 miles of shared borders with Canada and Mexico, 
namely, security, competitiveness, energy supply, and sustainability.
    2. Challenges to broader cooperation on security were enumerated by 
the panelists and included the following:

  <bullet> A complex political context that made serious debate on 
        shared security interests difficult;
  <bullet> Significant challenges understanding common interests and a 
        collaborative approach;
  <bullet> The concept of security itself, which has varying 
        definitions and connotations in English, Spanish and French;
  <bullet> Problems with articulating different aspects of security: 
        ``The government lacks messaging capabilities to better 
        communicate different definitions of security.''

    3. North American cooperative entities do exist (IJC, CEC, etc.) 
but are generally quite small and built to address narrow concerns 
rather than being set up in a broader, multifunctional fashion to 
tackle interrelated phenomena.
    4. Canada needs to find ways to engage more robustly with Mexico to 
advance the Canadian agenda in D.C. The broader North American agenda 
would benefit from a closer Canada-Mexico engagement.
    5. U.S. security concerns can and often do create acute, unintended 
consequences, particularly for Mexico. U.S. drug interdiction efforts 
have combined with what one panelist termed ``disaffected youth [in 
Mexico] with an identity crisis'' and even an ``environmental 
refugees'' crisis to produce the proverbial ``perfect storm'' for 
Mexican border communities. In the context of such visible signs of 
societal breakdown, ``At what point do we start talking seriously about 
decriminalization?'' Another panelist emphasized the need for a new 
paradigm because of the ``unevenness of the NAFTA process.'' He cited 
statistics that 40 percent of adolescents in Ciudad Juarez were neither 
in school nor working.
    6. Implementation of technological fixes to complex, interrelated 
problems at the border need to be thought through even more carefully. 
``We need to work on a number of issues before addressing other issues 
like RFID and smart technologies.''
Local/Regional Solutions and Sharing Risks
    7. Local and regional entities need a more active role in border 
and security issues in order for a common security to actually develop. 
``Local knowledge is often where the rubber hits the road,'' and though 
federal governments see international relations as a key prerogative, 
from a local standpoint, ``Key regional organizations are actually 
conducting international relations.'' Another panelist emphasized that 
``The people that live there [the border region] know how to solve the 
problem . . . The sense of urgency is not here [Washington, DC].'' 
Understanding the border regions as strategic zones for issues other 
than security was emphasized ``Joint production process are happening 
but not yet recognized,'' and ``We need to reach beyond NAFTA for a new 
paradigm.''
    8. We need to stop confusing border dynamics with terrorism.
    9. We need to find the political will to address border and 
security issues more collaboratively. There has been a lack of 
leadership and a need to boost North American dialogue. At the end of 
the day we are talking about cooperation, not integration. The three 
governments have recently ``marched off in three different 
directions,'' and as a result, ``we have `political' rather than `real' 
security,'' and ``we have moved from `just in time' to `just in case' 
production.''
Implementing Joint Border Management in North America
    10. We need to clean up our conceptual vocabulary; risk does not 
equal threat. We should be thinking of borders as ``membranes,'' rather 
than walls.
    11. For the U.S. to effectively coordinate its part in shared 
border management, the key institution is the National Security 
Council, as suggested by the second main recommendation in NACTS' 
Report to President Obama.
Evaluating Joint Border Management in North America
    12. It is essential that borders be transparent and accountable. As 
noted in the North America Next Report to President Obama, ``The 
guidelines for the most effective indicators are those that are derived 
from readily and permanently available data, are easily understood by 
the public, and measure progress of the government program as well as 
the fundamental, broader value: Human security.'' While it is vital for 
government agencies and government oversight mechanisms to develop 
meaningful evaluation(s) of how effectively we manage our borders, and 
as one U.S. Government practitioner noted, ``No single perfect 
performance measurement exists,'' the importance of independent 
assessments cannot be underestimated.
    13. We need to develop ways to measure what is not always easy to 
measure, such as interaction and cooperation as well as joint border 
management best practices and models. This is challenging, because as 
one panelist noted, ``The grand vision and goal of North America is 
still undefined.'' But this is a doable task, because as another 
panelist noted with respect to the United States-Mexico relationship, 
``We have made a lot of progress from certification to Merida.''
    14. Going forward, one key performance measurement should be, Are 
we getting more security for less cost?
    15. Additional performance measures should place North American 
assessment into its global context. ``Illegal markets behave like real 
markets'' and we need to expand our vision to see global drug flows, as 
one panelist insisted. And in protecting the public's right to know 
about border management and its broader effects on citizens, much work 
needs to be done to protect news media that report on this story.
                               conclusion
    To create true and effective sustainable security, the three 
governments need to collaboratively reinvigorate existing institutions 
and also to develop smarter, more mutifunctional institutions to handle 
multifaceted risk. The U.S. needs leadership from Congress and the 
private sector. Mexico and Canada (and particularly groups along the 
northern and southern borders) need to seek common ground and 
articulate for the United States what its shared interests are. For 
example, Canadian energy resources can be a key part of the U.S. 
sustainable security going forward. On a continental level, we need to 
clean up our conceptual vocabulary: Risk is not the same as threat, and 
as one panelist insisted, ``We need to stop `securitizing risk'.'' 
Instead we need to think more holistically about multifaceted security. 
In particular, the development agenda in Mexico is key and needs 
champions.
    Numerous, interrelated phenomena need to be assessed and included 
as part of a sustainable security framework. A unifying and coherent 
concept of the borders as a ``system of systems'' is missing and 
frustrates effective implementation of more effective and collaborative 
plans, infrastructure and activities that flow from it. Without such a 
vision and follow-on efficiencies the border will continue to be blamed 
far many ills even those unassociated with the border. And a unilateral 
imposition of a narrow definition of security (a fence, a wall, and a 
virtual fence attempt or a restricted immigrant visa policy as 
examples) will remain as the ``standard'' that our neighbors to the 
north and south must react to (for the time being, at least).
    On the other hand, a progressive and responsive border policy 
development would include full implementation of opportunities enabled 
by past legislation and accords and expand existing multifunctional 
government entities (and create new ones where necessary) that would be 
better able to manage risk to our collective security, competitiveness 
and sustainability.
                                 ______
                                 

  North America's Forgotten Agenda: Getting Development Back on Track

                     north america's poverty issue
    If one remembers, or is told for the first time, that 40 million 
Mexicans' income falls below the poverty level, it might sound as if 
Mexico has a significant poverty issue. Seen another way, it is 
actually North America that has a significant poverty issue--one out of 
ten North Americans are poor.
    North America can scarcely rise with the ``tide'' if Mexico remains 
impoverished. And in light of climate change and its tendency to affect 
the global South more directly than industrialized nations, we may have 
indeed been somewhat ``lucky'' that only a half million Mexicans 
immigrate without correct documentation to the United States annually.
    What happened to the conversation about developing the poorest 
parts of Mexico (the central and southern states)? Where is the policy 
discussion, or the public debate, and how do the two overlap and 
interact? During the next U.S. Presidential administration, how might 
these two discussions come together in positive ways to jump-start the 
productive intersection of competitiveness and quality of life in North 
America?
                    nafta's promise vs. the reality
    NAFTA, while a limited document, seemed to promise or hold the hope 
of much more than mere tariff removal. Some claim a modest success. For 
example, as recently as January 2008 the Economist stated: ``Since 1994 
Mexico's nonoil exports have grown fourfold while the stock of foreign 
direct investment has expanded by 14 times. Even the country's farm 
exports to its NAFTA partners have risen threefold.''
    Others might argue that the industrialized north and other 
maquiladora sectors paid the price of the development by creating jobs 
and employing some skilled labor but the return revenues generated that 
flowed to the federal coffers back to local development lagged. Many on 
the border cite the negative cost of NAFTA traffic, congested ports of 
entry, and their associated air and water pollution loads.
    The wide and still diverging wage differential, rather than 
unemployment, is the force that continues to drive Mexican immigration 
to the United States. Mexico continues to have one of the most unequal 
distributions of wealth within Latin America, wage convergence has not 
occurred and so tax coffers do not have the funds necessary to finance 
many of the basic infrastructure needs. Those who track progress on 
meta-indicators such as Kuznet's curve and the General Inequality Index 
(GINI) state a lack of progress over the decade and a half since NAFTA 
took effect.
    The reality is even worse for other measures. NAFTA was passed on 
the swing votes of a handful of Texas legislators who were promised a 
North American Development Bank (NADBank) and the loans and grants 
necessary to finance it. The U.S. committed to a Border Environmental 
Infrastructure Investment Fund (BEIF) of $100M per year. Funding for 
the BEIF has declined steadily since its initial promise under NAFTA 
and dropped precipitously under the Bush administration. This is 
converse to what many expected when the Texas Governor with good 
relations with Mexico became President.
    The impact of not funding Mexico's needed development is 
significant. A recent report by the Border Environment Cooperation 
Commission identifies funding inadequate to address even 5 percent of 
the documented infrastructure deficit in the border region.
    While infrastructure needs assessments vary widely, especially when 
used as propaganda or to motivate change, they can be used to get a 
sense of progress of made or failed promises. A meta-analysis by author 
Van Schoik in 2001 tried to determine the environmental infrastructure 
needs for just water, wastewater, solid and municipal waste. 
``Estimates of current need reached by this method ranged from around 
$US6 billion to over $US10 billion, with a mean of $US8.5 billion and 
standard deviation of $US1.8 billion'' and an anticipated additional 
deficit of the same amount by 2020 (due to population increase).
         perceptions versus the reality of u.s development aide
    A survey by the Program on International Policy Attitudes and 
others polled U.S. citizens about U.S Development aide. It showed that 
regardless of the survey, the question or the constituent being asked, 
survey respondents consistently think:

  <bullet> Foreign assistance is a significant portion of the overall 
        budget (as high as 20 percent with a median of 15 percent, and
  <bullet> Foreign aide should be higher (as high as 10 percent) than 
        it actually is (less than 1 percent).

    Respondents also indicated their personal willingness to pay from 
their own pockets for such foreign development. A full 75 percent would 
pay an additional $50 if they knew it was going to foreign assistance.
    U.S. foreign aide is stingy at best. The Congressional Research 
Service of the Library of Congress shows that the U.S. ranks last of 
the 22 developed nation donors and has since 1993. Aide has averaged 
around $20B for the last dozen years (Iraq reconstruction excluded) or 
about 0.13 percent of Gross National Income (GNI), 0.2 percent of Gross 
Domestic Product, and 0.9 percent of budget outlays. Canada gave $2.01B 
or 0.28 percent of Gross National Income in 2002.
    Mexico, our closest neighbor to the south and long-time partner, is 
traditionally not even in the top 20 nations for foreign aide. Most 
Americans do not even appreciate that most of our aide goes to just two 
nations (Israel and Egypt), that the larger Middle East dominates the 
top ten, Africa populates the next ten, and that assistance to fastest 
developing or second world nations is found in the middle of the list.
    However, one recent and significant investment in Mexico has been 
the Merida Initiative; a new paradigm for security cooperation. Under 
it Mexico promises $2.5B annually to seven security and safety 
agencies, a 24-percent increase over the previous administration's 2006 
levels prompted by a ``grant'' of $500M from the U.S. Government. 
Foreign aid is foreign aid no matter the focus, and this assistance, 
while aimed at drug traffic and cross-border crime will be used to 
bolster basic infrastructure including justice, police and 
anticorruption investigations.
    The Merida Initiative funds are too selectively related to 
transnational security, drugs, and crime to benefit infrastructure and 
other social development. While the $500M would be welcomed by Mexico 
some suspect its underlying intent and intended effect. Ambassador 
Sarukhan very diplomatically recasts the situation, stating ``Our 
strategies for expanded cooperation are based upon full respect for the 
sovereignty, territorial jurisdiction, and legal frameworks for each 
country, and are guided by principles of mutual trust, shared 
responsibility, and reciprocity.''
       the post-bush conversation on development in north america
    The lack of a clear purpose and therefore leadership in the 
continental relationship allows and even encourages these unhelpful 
methods of noncommunication to fester and for the North American 
development agenda to languish. A new U.S. administration allows us an 
opportunity to pause and ask ourselves if our current methods of 
research and action, cut off from a larger public anxious about the 
globalized future, is the most productive way forward.
    Conventional wisdom holds that comprehensive immigration reform 
efforts will be restarted following the upcoming Presidential elections 
(but not prior, despite the fact that the pressure emanating from 
States such as Arizona is ratcheting up almost daily). Might a new 
Congress and executive branch be inclined to take a more holistic 
approach to the topic of immigration in a way that takes development in 
Mexico into account in a more intelligent and comprehensive manner?
    Congress and the executive branch could start by heeding the key 
initial recommendations for the three nations that emerged from the 
recent North American Center for Transborder Studies' recent Cross Talk 
between academics and government officials:

  <bullet> Implement a common North American security perimeter.
  <bullet> Include civil society involvement in the Security and 
        Prosperity Partnership.
  <bullet> Improve the north-south transportation infrastructure in 
        North America.
  <bullet> Implement trinational customs teams.
  <bullet> Implement trilateral, multiagency risk assessment.
  <bullet> Find support for a North American Investment Fund at the 
        level of $20B per year for 10 years as proposed by Robert 
        Pastor of American University.
                     it's not all about government
    In addition, citizens and the private sector can begin working to 
overcome tension starting ``from the bottom up'' by seeking new and 
stronger connections on the personal level. Neither increased funding 
nor increased federal government involvement is the answer, but rather 
civil society, including the private sector, must play a leadership 
role and then decide how to bring government into the process. 
Government officials tend not to think about the private sector until 
long after its involvement would have been most effective.
    And finally, it will be difficult to build consensus on North 
American development without the full engagement of the continent's 
universities, which need to inform both policymakers and the public 
more effectively. University-based expertise, when deployed effectively 
and thoughtfully, can enrich practitioners' existing institutional 
knowledge, build important new institutional and civil society linkages 
and deepen existing linkages. Academic institutions need to be 
challenged to develop more robust teaching and ``policy-transfer'' 
models in order to more effectively and comprehensively inform public 
debates and educate key constituencies.

                                  <all>

</pre></body></html>
